<html>
<title> - RELIGIOUS PERSECUTION IN THE MIDDLE EAST; FACES OF THE PERSECUTED</title>
<body><pre>[Senate Hearing 105-352]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-352

 
    RELIGIOUS PERSECUTION IN THE MIDDLE EAST; FACES OF THE PERSECUTED

=======================================================================

                                HEARINGS

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                         May 1 and June 10, 1997

                               __________

       Printed for the use of the Committee on Foreign Relations




                               <snowflake>



                    U.S. GOVERNMENT PRINTING OFFICE
 40-890 CC                 WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                 ______

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

GORDON H. SMITH, Oregon              CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 DIANNE FEINSTEIN, California
JESSE HELMS, North Carolina          PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland




                            C O N T E N T S

                               __________
                                                                   Page

    Religious Persecution in the Middle East--Thursday, May 1, 1997

Coffey, Steven J., Principal Deputy Assistant Secretary of State, 
  Bureau of Democracy, Human Rights and Labor....................    15
Phares, Dr. Walid, Professor of International Relations, Florida 
  Atlantic University, Miami, Florida............................    29
Shea, Nina, Director, Puebla Program on Religious Freedom, 
  Freedom House, Washington, DC..................................    26
Wolf, Hon. Frank, U.S. Representative From Virginia..............     3
    Prepared statement...........................................     7
Ye'or, Bat, Author, Geneva, Switzerland..........................    24

            Faces of the Persecuted--Tuesday, June 10, 1997

Anonymous Witness From Pakistan..................................    60
Barakat, Colonel Sharbel, Lebanon................................    63
Bennett, Hon. William J., Co-Director, Empower America, 
  Washington, DC.................................................    42
    Prepared statement (with Senator Lieberman)..................    44
Ebrahimi, Esmaeil, Iran (through his interpreter, Fannoosh 
  Carr76a).......................................................
Horowitz, Michael J., Senior Fellow, Hudson Institute, 
  Washington, DC.................................................    48
Lieberman, Hon. Joseph I., U.S. Senator From Connecticut.........    40
    Prepared statement (with William J. Bennett).................    44
Roderick, Father Keith, Coalition for the Defense of Human 
  Rights, Macomb, Illinois.......................................    53

                                Appendix

A. Documents Detailing Efforts of the Chinese Communist Party to 
  Supress ``Illegal'' Religious Activities
    A Document of the Donglai Township Committee of the Chinese 
      Communist Party............................................    77
    A Document of the Tong Xiang City Municipal Public Security 
      Bureau/Chinese Communist Party Tong Xiang City Committee, 
      United Front Works Department..............................    84
B. Prepared statement of Steven J. Coffey........................    88
C. Prepared statement of Bat Ye'or...............................    93
    Dhimmitude: Jews and Christians Under Islam, by Bat Ye'or....    96
D. Prepared statement of Nina Shea...............................   103
E. Prepared statement of Michael J. Horowitz.....................   108
F. Prepared statement of Father Keith Roderick...................   111
G. Prepared statement of Colonel Sharbel Barakat.................   118
H. Prepared statement of Esmaeil Ebrahimi........................   121

                                 (iii)




                RELIGIOUS PERSECUTION IN THE MIDDLE EAST

                              ----------                              


                         THURSDAY, MAY 1, 1997

                                       U.S. Senate,
      Subcommittee on Near Eastern and South Asian Affairs 
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senators Brownback and Smith.
    Senator Brownback. We will go ahead and get this hearing 
started.
    Thank you all for joining me this morning on this first 
hearing on religious persecution in the Middle East. I think it 
is particularly appropriate that we are having this hearing 
today, on the National Day of Prayer in our country, and that 
we recognize the issues of religious persecution taking place 
in the world.
    Intolerance knows few boundaries. It is a problem that, in 
one form or another, plagues most of the world. Men and women 
of faith endure harassment, discrimination, imprisonment, 
torture, and risk death; because they choose to practice their 
faith, whatever that faith may be. From the Copts in Egypt to 
Shiites in Iraq, to Christians and Baha'is in Iran, systematic 
persecution and discrimination directed against religious 
minorities occurs throughout the region.
    Because of many diplomatic reasons and sometimes, 
unfortunately, just sheer indifference, our government and 
others in our country have not chosen to speak out in some 
cases. The press is always hyper-sensitive to the observation 
of civil and human rights, but finds the idea sometimes of 
religious freedom less interesting. Our silence has only 
emboldened the persecutors.
    I thought it particularly interesting in a column that A.M. 
Rosenthal put forward in Tuesday's New York Times that he 
underscored this point. He specifically warned that American 
Christians' lack of knowledge about the persecution of 
Christians in the Middle East ``tends to make Americans passive 
about the persecution of Christians. As long as passivity 
lasts, so long will persecution continue.''
    [The information referred to follows:]

                           The Well Poisoners

                          [by A.M. Rosenthal]

    The New York Times/April 29, 1997.--They are outsiders among us. 
They use their foreign religion to poison our wells, and destroy our 
belief in ourselves and the God we must follow.
    Throughout the persecution of Jews, that has been the accusation 
and justification: an evil religion of the evil outsider.
    In their terror and helplessness, sometimes victims pleaded that 
the charge of foreignness was not true--look at us, we are like you--
almost as if being different made their persecution at least explicable 
to the human mind.
    Now foreignness is the weapon used by persecutors of Christians in 
Asia, Africa and the Middle East. Islamicist inquisitors use the weapon 
in the name of heavenly righteousness, the Chinese political police in 
the name of their frightened, last-ditch nationalism.
    Both types of persecutors of Christians benefit from a peculiar 
protection--the attitude of many Western Christians that Christianity 
is indeed foreign to Asia and Africa, a valuable export certainly, but 
not really, well, indigenous, to the soil. So they see faraway 
Christianity as separate from themselves. This profits persecutors, by 
preventing the persecuted from getting the succor they need, and due 
them.
    The aloofness of Christians to their distant persecuted is a denial 
of the reality that Christianity was not only born in the Mideast but 
spread wide and deep in Asia and Africa long before Islam or Western 
Christian missionaries arrived.
    By now, according to David B. Barret's Annual Statistical Table on 
Global Mission, 1996, there are 300 million church-affiliated 
Christians in Asia, the same number in Africa--and 200 million in all 
of North America.
    Americans are waking up to the persecution of Christians in 
Communist China. Their own Government, however, gives it zero priority 
compared with Washington's lust for the bizarre privilege of trade with 
China granted by Beijing: to buy eight times more from China than China 
does from America.
    But how many Americans know or care about the increasing 
persecution of Mideast Christians, like the 10 million Copts of Egypt--
the largest Christian community in the region? Copts are vilified as 
outsiders, though they have lived in Egypt since the seventh century.
    In February and March, 25 Copts were shot to death in Islamicist 
attacks on a church and a school. The attacks were part of the worst 
outbreak of Christian-killing in 25 years. And Islamic fundamentalists 
have been allowed to carry out year-round harassment of Copts, 
including destruction of churches that Copts then are not allowed to 
rebuild.
    In early April Mustapha Mashour, ``general guide'' of the Muslim 
Brotherhood movement, a fountain of Mideast terrorism for 50 years, 
announced a new goal: to bar Copts from the army, police and senior 
government positions on the grounds that they were a fifth column. He 
also demanded that a ``protection tax'' be imposed on Christians, as in 
the time of the Prophet.
    Elsewhere in the Mideast, persecution includes the Sudan's trade in 
Christian slaves. But the Egyptian Government boasts of fighting 
extremists and has received praise and billions from America.
    In the U.S., a coalition of 60 human rights and ethnic 
organizations watches out for persecution of minorities under 
``Islamization.'' The coalition's definition is a political and 
cultural process to establish Islamic law, the Sharia, as the ruling 
principle of all society, to which all must conform.
    This is what the Very Rev. Keith Roderick, an Episcopal priest, who 
is secretary general of the coalition, reports about Egypt:
    ``The government has created an atmosphere of bigotry and hatred 
toward the Coptic minority, allowing the Copts to become human safety 
valves for Islamic militants. . . . A significant reduction in [U.S. 
foreign aid] for Egypt would send a strong signal that the U.S. has 
adopted a serious priority objective in its foreign policy to eliminate 
Christian persecution.''
    Ignorance of the history or huge number of Christian worshipers in 
faraway countries tends to make American Christians, and Jews too, 
passive about the persecution of Christians. As long as passivity 
lasts, so long will persecution continue. It has always been so.

    Senator Brownback. And persecution does, indeed, continue. 
In Iran, two men were recently sentenced to death because they 
are Baha'is. In Egypt, Coptic Christians were gunned down in a 
church by Islamic militants. In Iraq, since 1991, thousands of 
Shiite Muslims have been slaughtered by Saddam Hussein's troops 
and had their mosques destroyed.
    In other countries in the region, believers have been 
imprisoned for attending worship services and religious 
minorities have suffered lootings, burnings, and beatings at 
the hands of mobs.
    Less violent discrimination also persists. In many 
countries in the region, persons may not freely change their 
religion, religious minorities are prevented from building new 
places of worship, and some religious literature is banned.
    With the help of our distinguished witnesses here today, I 
want to bring these abuses to the attention of the American 
people, the Congress, and to the administration. I will not 
tolerate at this hearing any religion being made a scapegoat 
for this problem. The answer to the problem of religious 
persecution does not lie in blaming another theology. It lies 
in the actions of individuals and governments who do not value 
freedom of worship for all.
    I hope our witnesses will address specifically what the 
United States should do to promote and protect religious 
freedom in the Middle East. But I have no doubt that action 
must be taken.
    As Americans, I believe that we have a unique obligation to 
speak out against religious persecution. The right to freely 
practice the religion of one's choice is a freedom central to 
democracy. We must not fail to defend a principle that our 
Founding Fathers viewed as fundamental to our democracy. We are 
a people grounded in faith, yet tolerant of different 
manifestations of belief. To fail to protect those who suffer 
persecution would be to repudiate our convictions before the 
world.
    I look forward to the testimony from the various witnesses 
here today. I look forward to particularly focusing on two 
areas. Number one is what is specifically occurring in the 
world, in the Middle East region, or in other areas that people 
would like to identify. But what specifically is occurring that 
we can identify and raise the visibility on.
    Second, what should we do? What should we do as a 
government, what should we do as a people in trying to address 
this particular issue?
    We look forward to the testimony. We have appearing first a 
very good friend of mine, Representative Wolf, Frank Wolf, from 
Virginia, who in the Congress is one of the leading, if not the 
leading, expert about this issue. He has traveled around the 
world. It is a passion of his. It is in his heart and in his 
soul. He is very knowledgeable about it as well.
    Representative Wolf, welcome to the committee, and thank 
you for all you have done. The microphone is yours.

STATEMENT OF HON. FRANK WOLF, U.S. REPRESENTATIVE FROM VIRGINIA

    Mr. Wolf. Thank you very much, Senator. Thank you for 
inviting me, and I really want to thank you particularly for 
having these hearings. They are very, very important. In fact, 
just having the hearings will set the tone in a way that I 
think maybe people do not even understand. Just by having them 
I think raises the visibility of this issue.
    I do not come before the panel to give you all the facts 
and figures on persecution, the historical reasons behind the 
violence, or even to tell you all the stories about the cases. 
The experts you have assembled today are more than capable of 
doing that. I have had the privilege of meeting and working 
with all of them, and they are very capable and very 
knowledgeable people.
    Once you have heard the testimony, I hope you will agree 
that the facts speak for themselves. In the world today, and 
particularly in the Middle East, Christians are being 
persecuted in great numbers. In many of the countries under 
this subcommittee's jurisdiction, Christians are being 
murdered; they are being raped; they are being beaten; they are 
being mutilated, and they are being imprisoned.
    Copts in Egypt face daily terror by militants. Evangelicals 
in Iran have watched in sorrow as key leaders have been 
mysteriously assassinated in recent years. The year before 
last, three Evangelical pastors were killed.
    Assyrian and Chaldean Christians in Iraq face persecution 
by Saddam Hussein and some Kurdish factions. For Saudis, non-
Muslim worship is out of the question for fear of execution.
    Christians also face discrimination and harassment. They 
are pressured to convert to other religions. They are refused 
the right to build or repair churches, and as Bat Ye'or will 
later describe today, they are subjugated to second class 
status.
    Persecution and discrimination is not unique to Christians, 
and I appreciate the chairman's opening statement with regard 
to not blaming any particular faith. Similar treatment is given 
to members of other religious minorities, such as the Baha'is 
or those of the Jewish faith. It should be said that 
persecution of political dissidents, and women, and others is 
also prevalent in many of these same countries where human 
rights standards are not in line with international norms.
    Though we are talking about countries where Islam is the 
predominant religion, I want to stress up front and 
categorically that I am not condemning Islam or people who 
practice the Islamic faith. There are many, many good, 
overwhelmingly decent Muslims who desire nothing more than to 
raise their family, earn a living, and participate in the 
democratic political process.
    What I am condemning are the governments or the radical 
militants who persecute and oppress the people.
    It is important to note that in these same countries, many 
moderate Muslims or Muslims of different denominations than the 
majority of the people, such as the Sunni Muslims in Iran, are 
also falling victim to the violent acts of authoritarian 
regimes or radical factions seeking to overthrow fragile 
democratic governments.
    We must be honest when and where persecution occurs. 
Otherwise we do a disservice to all Christians, Muslims, 
Baha'is, and other religious believers who suffer at the hands 
of thugs. If you are a Muslim, your right to practice religion 
should be respected. If you are Baha'i, your right to practice 
should also be respected. If you are a Christian, your right to 
practice religion should also be respected.
    Where it is not, we should recognize the fact and speak out 
boldly and courageously. Where there are countries that are our 
allies and friends, we even bear a greater burden. Where we 
give foreign aid, we bear a greater burden.
    By speaking out on behalf of the least of these, society's 
vulnerable victims, we also raise the comfort level of moderate 
Muslims and others seeking to live in peace and promote 
democracy, thereby making the world safer.
    I learned this lesson in 1989, when Congressman Chris Smith 
and I visited Perm Camp 35, the last gulag in the Soviet Union, 
deep in the heart of the Ural Mountains. Many of the political 
prisoners told Congressman Smith and myself--this is in the 
Ural Mountains in Perm Camp 35, where Sharansky had been in 
there for years, and, in fact, we even saw and interviewed 
Sharansky's cellmate--they told us that they knew that 
President Reagan had taken a strong stand on behalf of human 
rights and religious freedom and it gave them hope.
    I can never understand how. They didn't have fax machines 
or telephones. This is a gulag in the Soviet Union, and they 
knew of the position that President Reagan had taken on this 
issue. Even in the darkest places, one of the darkest places in 
the Soviet totalitarian system, these prisoners knew. It gave 
them hope. It gave them hope that someone was brave enough to 
stand up to the dictators. It gave them hope that somebody was 
brave enough to stand up for freedom, and it gave them hope 
that people were willing to go and visit those places.
    So by having a hearing like this, to put the Congress on 
record, the Senate on record, the administration on record, the 
House on record, sends a message.
    I can still remember after we denied MFN to Ceaucescu in 
1987. When I visited, Romanians told us that the next day they 
heard on Radio Free Europe that the House of Representatives, 
the people's House, had taken away MFN from Ceaucescu, and it 
gave them hope.
    Now they don't have to listen to the little crystal sets. 
Now they have fax machines, they have E-mail, they have all of 
these things, and it is very hard for any government to shut it 
down.
    So by doing this and hoping the AP, the Washington Post, 
the New York Times and all of the others that cover this will 
cover that this hearing is held, it will give a message of hope 
to these people. Does the United States care? Does anybody in 
the Congress care? This really makes a big difference.
    The shining example was in Perm Camp 35, where Sharansky 
spent 5, 6, or 7 years. They knew of this and knew of the 
actions that the Congress took. In those days, in the days of 
Jackson-Vanik, the House and the Senate, in a bipartisan 
effort, Republicans and Democrats came together to make this an 
issue of no partisanship. Hopefully we are able now to put 
together the same coalition--Republicans, Democrats, liberals, 
conservatives, moderates, all religious faiths--to come 
together to speak out on these issues.
    This is because when we come to the defense of the least of 
these, we really come to the defense of everybody in the world.
    In the Middle East today, my instinct tells me that those 
suffering at the hands of today's dictators will be encouraged 
by a sign of support from the United States. Congress needs to 
speak out. We know the facts about Christian persecution in 
Iraq. We know it. It is not something we have to read a story 
about or get a briefing from the CIA on. Just read the paper. 
We know it.
    We know what is taking place in Iran. We know what is 
taking place in some of these other places. Now we must take 
decisive action.
    Frankly, our conscience demands it. The members of this 
body ought to think about it, that 10 or 20 years from now, 
when they leave here, did they use their position in Congress 
to do what they should have done or did they just take a quiet 
way and not look at these tough issues?
    The American Christian community is also now beginning a 
growing concern with regard to this issue. Understand, this 
fall tens of thousands of church-goers will participate in a 
second annual International Day of Prayer for the Persecuted 
Church. Christian leaders from Don Argue, President of the 
National Association of Evangelicals, to Richard Land, 
President of the Southern Baptist Convention, to many, many 
others will be joining together whereby on one Sunday they will 
pray for the persecuted church around the United States.
    In January 1996, the National Association of Evangelicals 
issued a Statement of Conscience and Call to Action on 
Christian persecution.
    Let me quote from its conclusions.

    Religious liberty is not a privilege to be granted or 
denied by an all powerful state, but a God-given human right. 
Indeed, religious liberty is the bedrock principle that 
animates our republic and defines us as a people. We must share 
our love of religious liberty with other people who, in the 
eyes of God, are our neighbors. Hence, it is our responsibility 
and those of the government that represent us to do everything 
we can to secure the blessings of religious liberty to all 
those suffering religious persecution.

    Last year, the House and Senate unanimously passed 
resolutions condemning the growing problem. That was a positive 
step, but there is much more to do.
    In the coming weeks, along with Senator Specter, a group of 
us in the House plan to introduce the Freedom from Religious 
Persecution Act. It tracks the NAE statement of conscience and 
will be what I hope will be landmark legislation addressing 
this very issue. It is not country-specific, but it creates a 
mechanism in our government to determine which countries are 
engaged in state-sponsored persecution and which countries turn 
a blind eye while anti-democratic thugs roam the countryside 
killing, raping, and mutilating innocent victims.
    This bill sets targeted, limited sanctions aimed at 
pressuring offending governments to rein in the vigilantes or 
cease its state-sponsored persecution.
    Today, in closing, Mr. Chairman, is the National Day of 
Prayer. Many people of all faiths have gathered here in 
Washington to pray for our country and its freedom. It is our 
obligation as a country which has been blessed so abundantly. 
It says in the Bible, ``To whom much is given much is 
expected.'' There is even a version, I think, which says, ``To 
whom much is given, much is required.'' Maybe it is not just 
``expected,'' but it is ``required.''
    So I think this is our opportunity to continue to use our 
freedom to help the Egyptian Copts, the Iranian Evangelicals, 
the Algerian Catholics, the Assyrian Christians in Iraq and 
Saudi Arabia, help people to convert and to acquire their 
freedom or do whatever they want to do but where there will not 
be pressure against them.
    This starts with condemning persecution, killing, rape, 
imprisonment, torture, and abductions wherever they occur.
    I just want to again thank you for holding this hearing. 
This hearing actually will probably--we will never find out 
about its effect. It's like sometimes you do things and you 
never hear about it.
    But this hearing, if covered well, will probably mean that 
somebody does not go to jail. This hearing, if covered well, 
may mean that somebody may get out of jail quicker in some 
other country.
    You will remember during the days when there was 
persecution of those of the Jewish faith in the Soviet Union. 
When we would send letters to the Soviet Union, the prisoners 
would tell us that it would actually change their lives in 
prison. Sharansky would say that when the warden got all the 
letters coming in, they knew that there was somebody or a lot 
of people in the United States who were concerned with their 
individual cases.
    So just little things like this can make a big difference. 
We won't know whom we have helped by this hearing, but I can 
guarantee you from previous experience that just holding this 
hearing will have helped a lot of people. I thank you very, 
very much.
    [The prepared statement of Mr. Wolf follows:]

            Prepared Statement of Congressman Frank R. Wolf

    Mr. Chairman, Senator Robb and members of the Subcommittee. Thank 
you for inviting me to present my views on the issue of anti-Christian 
persecution--the untold human rights story of the decade. I commend 
you, Mr. Chairman, for holding this hearing on this important and 
timely issue. I wish such hearings did not have to be held.
    I do not come before this panel to give you facts and figures on 
persecution, historical reasons behind the violence or even to tell you 
stories about cases. The experts you have assembled today are more than 
capable of doing that. I have had the privilege of meeting and working 
with all of them.
    Once you have heard their testimony, I hope you will agree that the 
facts speak for themselves. In the world today, and particularly in the 
Middle East, Christians are being persecuted in great numbers. In many 
of the countries under this subcommittee's jurisdiction, Christians are 
being murdered, raped, beaten, mutilated and imprisoned. Copts in Egypt 
face daily terror by militants. Evangelicals in Iran have watched in 
sorrow as key leaders have been mysteriously assassinated in recent 
years. Assyrian and Caldean Christians in Iraq face persecution by 
Saddam Hussein and some Kurdish factions. For Saudis, non-Muslim 
worship is out of the question for fear of execution.
    Christians also face discrimination and harassment. They are 
pressured to convert to other religions, refused the right to build or 
repair churches and, as Bat Ye'Or will describe later, subjugated to 
second-class status of ``dhimmitude.''
    Persecution and discrimination is not unique to Christians. Similar 
treatment is given to members of other religious minorities such as the 
Bahai's or Ahamadi's or those of the Jewish faith. And, it should be 
said, that persecution of political dissidents, women and others is 
also prevalent in many of these same countries where human rights 
standards are not in line with international norms.
    Though we are talking about countries where Islam is the 
predominate religion, I want to stress up front and categorically that 
I am not condemning Islam or people who practice Islam. There are many 
good and decent Muslims who desire nothing more than to raise their 
family, earn a living and participate in the democratic political 
process. I am condemning governments or radical militants who persecute 
and oppress people.
    It is important to note that in these same countries many moderate 
Muslims or Muslims of different denomination than the majority of the 
people (such as Sunni Muslims in Iran) are also falling victim to the 
violent acts of authoritarian regimes or radical factions seeking to 
overthrow fragile democratic governments.
    We must be honest when and where persecution occurs. Otherwise we 
do a disservice to all Christians, Muslims, Bahai's and other religious 
believers who suffer at the hands of thugs. If you are a Muslim, your 
right to religious practice should be respected. If you are a Baha'i, 
your right to religious practice should be respected. And if you are a 
Christian, your right to religious practice should be respected. Where 
it is not, we should recognize that fact and speak out boldly and 
courageously. Where these countries are our allies and friends, we bear 
an even greater burden.
    By speaking out on behalf of the ``least of these,'' society's 
vulnerable victims, we also raise the comfort level of moderate Muslims 
and others seeking to live in peace and promote democracy. That helps 
make the world safer.
    I learned this lesson in 1989 when Rep. Chris Smith and I visited 
Perm Camp 35, the Soviet gulag deep in the heart of the Ural Mountains. 
Many of the political prisoners told us that they knew President Ronald 
Reagan had taken a strong stand on behalf of human rights and religious 
freedom and it gave them hope. Even in one of darkest places in the 
Soviet totalitarian system, these prisoners knew. It gave them hope 
that someone was brave enough to stand up to the dictators. It gave 
them hope that someone was brave enough to stand up for freedom.
    In the Middle East today, my instinct tells me that those suffering 
at the hands of today's dictators or persecutors would be encouraged by 
a sign of support from the United States.
    Congress needs to speak out. We know the facts about Christian 
persecution in Iraq, Iran, Saudi Arabia, Egypt, and elsewhere. Now we 
must take decisive action. Our conscience demands it.
    The American Christian community is also beginning to understand 
this growing scourge and demand action. This fall, tens of thousands of 
church-goers will participate in the second annual International Day of 
Prayer for the Persecuted Church. Christian leaders from Don Argue, 
President of the National Association of Evangelicals, to Richard Land, 
President of the Southern Baptist Convention, to Ralph Reed, President 
of the Christian Coalition, to Dr. Jim Dobson, President of Focus on 
the Family, have begun to speak out and call for action. In January 
1996, the National Association of Evangelicals issued a Statement of 
Conscience and Call to Action on Christian persecution.
    Let me quote from its conclusions ``Religious liberty is not a 
privilege to be granted or denied by an all-powerful State, but a God-
given human right. Indeed, religious liberty is the bedrock principle 
that animates our republic and defines us as a people. We must share 
our love of religious liberty with other people, who in the eyes of God 
are our neighbors. Hence, it is our responsibility, and those of the 
government that represents us, to do everything we can to secure the 
blessings of religious liberty to all those suffering religious 
persecution.''
    Last year, the House and Senate unanimously endorsed resolutions 
condemning this growing problem. That was a positive step, but there is 
more we can do.
    In the coming weeks along with Senator Specter, I plan to introduce 
the Freedom from Religious Persecution Act. It tracks the NAE Statement 
of Conscience and will be, what I hope will be, landmark legislation 
addressing this very issue. It is not country-specific, but it creates 
a mechanism in our government to determine which countries are engaged 
in state-sponsored persecution and which countries turn a blind eye 
while anti-democratic thugs roam the countryside killing, raping and 
mutilating innocent victims. The bill sets up targeted, limited 
sanctions aimed at pressuring offending governments to rein in the 
vigilantes or cease its state sponsored persecution.
    Today is the National Day of Prayer. Many people of faith have 
gathered on the Washington Mall to pray for our country and its 
freedoms. It is our obligation, as a country which has been blessed 
abundantly, to continue to use our freedom to help Egyptian Copts, 
Iranian Evangelicals, Algerian Catholics, Assyrian Christians in Iraq 
and Saudi Arabian converts acquire their freedom.
    This starts with condemning persecution--killing, rape, 
imprisonment, torture and abduction--wherever it occurs. I hope you 
will join me in this effort.
    Thank you.

    Senator Brownback. We thank you, Representative Wolf, for 
your passion, your commitment, and your knowledge of these 
subjects. I have held you up as a model legislator to a number 
of people over the years just because of the way you treat 
issues and how you know them. You have heart and soul about it.
    Let me ask you, if I could, about this. You will be 
bringing out the Freedom From Religious Persecution Act. You 
identified, Frank, that a lot of what we need to do is just 
lift this issue up. We need to get it to the light of day, 
being seen by those who are being persecuted in different 
places around the world.
    You also identify a legislative component on this. Could 
you generally outline what you think we ought to be doing 
legislatively or providing what sort of tools to the 
administration to be able to use?
    Mr. Wolf. The bill will set up, will create, an Office of 
Religious Persecution in the White House. It will either have 
someone called a Director or a Special Advisor. That person 
will look at all these issues, will write reports, and make 
statements to the President so that it is forced to be 
monitored.
    Right now, the country by country reports really do not get 
into religious persecution. They get into some human rights 
issues. But sometimes, because of different issues, they kind 
of don't want to get into them too deeply.
    There will be an annual report that the President or that 
the Director or Special--whatever you want to call him--will be 
required to submit to Congress as a report indicating whether 
or not there are different types of discrimination or 
persecution. Category 1 are countries directly; category 2 are 
activities in those countries that the government itself will 
be involved with.
    The sanctions will be very, very narrow. It will not be the 
sledgehammer of cutting off MFN to an entire country if the 
secret police of that country--and I'm not going to use a 
particular country--does something. It will have a narrow, 
narrow scope.
    There will be sanctions, and we will also, then, urge our 
international representatives on groups such as the IMF and 
World Bank to begin to use their vote to speak up on behalf of 
those who are being persecuted.
    That is what Reagan did so well. Frankly, I must say that 
Reagan and also the Democratic Congress in the 1980's and the 
1970's called attention to it. They focused in narrowly, and 
the spotlight really made a difference.
    If you will recall, in 1985 or 1986, 250,000 people rallied 
on the Mall on a Sunday afternoon on behalf of those who were 
persecuted--those of the Jewish faith, the Pentecostals, and 
others in the Soviet Union. That rally made a tremendous 
difference.
    Then they began to focus in on different activities.
    This will be putting the spotlight on narrow sanctions, on 
class 1, government sponsored, and class 2, whereby the 
government knows that activity is taking place. For instance, 
this is where the government is not directly involved in 
persecuting, but they know there is a group in their country 
that is doing this activity, and then they speak out.
    Senator Brownback. I want to turn the microphone over to 
Senator Gordon Smith for questions or comments, as he would 
like.
    Congressman--I'm sorry--Senator Smith.
    Senator Smith. ``Congressman'' is fine, too.
    Representative Wolf, it is very nice to meet you. I know of 
you. I thank you for your work in this area.
    Do you have any comment upon a recent article in the New 
York Times about persecution of Catholics in China. Do you have 
anything to elaborate on the truthfulness of that?
    Mr. Wolf. I do. Yes, I can.
    But before I answer that, I would say that I know very well 
of you. I used to work for your dad.
    Senator Smith. I am aware of that.
    Mr. Wolf. I remember you when you were much smaller. I 
worked at the National Canners Association when Senator Smith's 
dad, Marlon Smith, was the head of it. Our motto in those days 
was ``Nature's best is best canned.''
    I now know you moved into frozen foods.
    Senator Smith. So I would say it's best frozen now.
    Mr. Wolf. Yes, best frozen. But I remember your dad and I 
remember you. I was very, very pleased to see you get elected.
    Yes, there is tremendous persecution. I will put together a 
letter and send it to you.
    There are Catholic priests who are in jail and have been in 
jail in China for a number of years. There are Catholic bishops 
who have been in jail for a large number of years.
    Nina Shea, who will testify, can document the length of 
time and the number of bishops.
    We have a document which Nina will perhaps submit for the 
record and if not, I will, from a certain province in China 
whereby the goal of the Communist Party of that province is to 
eradicate the Catholic Church.
    [The information referred to by Mr. Wolf appears in 
Appendix A on page 77.]
    Mr. Wolf. There are two Catholic Churches. There is one 
that is above ground, which are those who are controlled and 
selected by the leaders of Beijing. Then there is the 
underground church, whereby they are selected, as they should 
be, from Rome.
    There is great discrimination against the Catholic Church. 
The Catholic Church has been very bold and the Pope has been 
very bold in speaking out. So I think that the Chinese 
Government fears the Catholic Church very, very deeply.
    There also is persecution of Evangelicals and Protestants. 
Literally not a week goes by whereby they do not raid house 
churches and take people away.
    There is also, though, in fairness, persecution of 
Buddhists. They have plundered Tibet, have destroyed 
monasteries in Tibet. They have expelled the Dalai Lama, they 
have captured the Panchan Lama, who is scheduled to succeed the 
Dalai Lama, and they are trying to eradicate Buddhism there.
    Last, they are persecuting the Muslim faith. In the 
Northwest portion of the country, the Muslims, the Yegors that 
no one seems to be focusing on or caring anything about are 
under tremendous pressure.
    So they are trying to eradicate the Catholic Church, they 
are hurting the Protestant Church, they are bulldozing 
monasteries with regard to Buddhism, and the poor Muslims just 
have nobody to speak up for them. Frankly, I don't think people 
know that they are there and there may be 50 million to 80 
million of them there. But they are in a very remote area. So 
yes.
    Senator Smith. Are there things, Congressman--I happened to 
have had the privilege to meet the Dalai Lama last week in 
Washington. I had hoped to ask him a question. Are they--
Tibetans--forming coalitions with the Catholics to help address 
the issue of persecution in China?
    Mr. Wolf. Yes.
    There is a coalition developing in the United States today 
of the Catholic Church, the Protestant Church, the Dalai Lama, 
and a lot of different human rights groups. They are beginning 
to come together, just as on this legislation. All groups are 
beginning to come together.
    If you just wait until you are the one they go after, then 
it is too late. It's just like in Nazi Germany. They came after 
this group and I said nothing; they came after that group and I 
said nothing. Then they came after me. I think it was Banhofer 
who said that.
    It's the same thing here. We are trying to develop a 
coalition of the Jewish groups, the Christian groups, the 
Buddhist groups, the Baha'i faith, for all of these to come 
together to where you go after the least of these.
    It's like for Jesus in Matthew 25. When you go to the last 
of these, you do it unto me. Well, it's the same way that we 
say if you go after the least of these groups, even if it is a 
little denomination that maybe nobody has heard about, we still 
stand with them.
    As a young boy, I stuttered very, very badly. I remember in 
the class how people would kind of come after me and give me a 
hard time. When the teacher came to my defense, she literally 
came to the defense of the whole class, because the whole class 
had its comfort level raised when somebody would come to the 
defense of somebody who was having a difficult time.
    It's the same way here. Every religious denomination, 
whatever it may be, whatever faith, has its comfort level 
raised when we come to the defense of anybody.
    So yes, there is a coalition developing. What the Chinese 
Government is trying to do is they are legally trying to 
eradicate Buddhism from Tibet.
    We have had testimony from Buddhist monks and nuns that 
tell you of the horrible conditions they have to go through.
    Senator Smith. I have heard of those recently on a 
Christian radio station and was asked at great length about 
religious freedom in China. I have discussed the issue with 
Ambassador Li, China's Ambassador to this country, because I am 
concerned about it.
    I am looking for other recourse. What can we do beyond 
holding hearings? I am here, because I care about this issue 
and want to lend my voice in support of sort of this threshold 
issue of religious tolerance among civilized people. I think 
that to be a nation among civilized nations you have to 
guarantee religious freedom.
    You mentioned Ceaucescu and what we did to withhold MFN. 
That has serious consequences to this country and to the world 
if we do that with respect to China. Are there other things 
that we can do or is that our only and best recourse as it 
relates to trying to change internal politics in China?
    Mr. Wolf. Well, no. There are other mechanisms.
    I, personally, am at the point now where I favor--and I 
know this is not the issue of the hearing--denying MFN. There 
are some fundamental values here. Not to be overly emotional 
about it, but coming from Virginia, Thomas Jefferson wrote the 
words, ``We hold these truths to be self evident, that all men 
and women are created equal, endowed by their Creator''--by 
God, not by the House, the Senate, or by an Executive Order--
``life, liberty and the pursuit of happiness.''
    Those words were not just for people in Charlottesville, 
Virginia, or just in the United States. They are for everybody.
    The fact is if you meet with the dissidents, if you meet 
with the students in Tiananmen, they look to Jefferson more 
than sometimes we do. So I am at the point now where it has 
gone on for too long.
    What I say to those who say we cannot deny MFN to them is 
this. I say this. There are good men and women on both sides. 
There is no official good position for MFN or against. But for 
those who favor granting it, why are they silent? Why does 
Boeing not speak out for the Catholic bishops? Why do they go 
there and meet with the butchers of Beijing, Li Pong and people 
like that, and never speak out?
    When Harry Wu, who is an American citizen, was arrested, I 
tried to get Harry's wife in to see President Clinton. Clinton 
wouldn't see Mrs. Wu, but he saw the thugs who were trying to 
sell the guns to the L.A. street mobs.
    All of a sudden our values become different. I went to some 
of the companies. I went to Boeing through another member and 
asked Boeing to speak out. Boeing wouldn't speak out.
    So for those who favor MFN, which is a valid position 
though not the one that I agree with, they are silent. And 
their silence is deafening. The silence of Boeing and the 
people who favor MFN is deafening.
    It is the sound of this silence that resonates. So the 
dissidents come to me and say why don't we speak out.
    No, that is not the only thing that we can do, but it is 
the only mechanism that we now have been given. Quite frankly, 
this Congress, even if it votes to deny MFN, which I think it 
should do and I pray that we do it, but even if we do it, we 
are not probably going to take it away from them, because the 
President will override our votes.
    But if we would not give MFN to the Soviet Union in the 
1980's, and we didn't give it to any Eastern Bloc countries, we 
didn't even give it to Poland when Lech Walesa and Solidarity 
was moving, I don't understand now why we would then turn, when 
militarily there is a threat from the Chinese. But forget the 
military. They are selling weapons to Saddam Hussein. Forget 
that. They are selling weapons to Iran. Forget that.
    They sold weapons that were used against American soldiers. 
Forget that. They are aiding the Sudanese Government which has 
been responsible for a million and a half Christians dying in 
the south of Sudan. But forget that.
    Still, on this issue of religious freedom, I don't 
understand how we made that decision then and not now. But for 
those who want to continue granting it, I would hope that at 
least the business community would speak up and be bold. And if 
they are afraid to speak up publicly, I would hope that they 
would at least speak up privately.
    But if you are not willing to make a public confession, to 
say this, then I wonder when the day comes what does that 
really, really mean.
    So there are two positions. I don't know the right one or 
the wrong one. But if they favor granting it, let them at least 
speak up.
    Senator Smith. Let me just make one other comment, 
Representative Wolf. I am sympathetic to that. I have been 
saying to Americans who do business there to do what you have 
done, that is, to speak up about it. Don't just put profits 
before our principles, our fundamental principles.
    I hope there is another way other than MFN with China, 
because I think it has enormous ramifications beyond this 
issue, which is a threshold and a very, very important issue.
    I am here to find new ways to help highlight this problem. 
I would, for the record, note one other emerging problem or 
potential problem. It wasn't that long ago that General Lebed, 
of Russia, made the comment to the New York Times, I believe, 
or it was reported in the New York Times that Mormons and Jews 
are scum. That is a real concern.
    If this man, who may well be the next President of Russia, 
is making such a comment, it is a real concern.
    We are not beyond the day where we can rest and feel like 
persecution of people of faith is behind us. America needs to 
stand up for this issue.
    Let's keep working together and find out the best ways to 
do that.
    Mr. Wolf. Senator, you are absolutely right. I remember 
when General Lebed made that statement. I signed a letter in 
the House. I think Matt Salmon circulated it, though I forget. 
It was condemning General Lebed on that point.
    There are evil people who will always be pushing and 
pulling, and only when good people speak out and are vigilant 
will it stop.
    There is more persecution of people of faith, of all 
faiths, today than perhaps there has been at any other time in 
the history of the world in modern times. That is why these 
hearings are important, because many people believe that when 
the Soviet Union fell and when the Wall fell down, it all 
stopped. But it's quite the contrary. It has been broken up 
into little areas, but it has gone on big, big time--not only 
there but in so many other countries which we do not even have 
the time to document, and that certainly do not even come 
before this subcommittee.
    But I appreciate it. I am pleased you are interested.
    Senator Smith. I had occasion with Senator Roth to confront 
General Lebed with this issue. For the record, he did say that 
he had been misquoted, and he has become much more tolerant 
since he made those comments.
    Senator Brownback. Good visibility does that.
    I particularly would invite you, Congressman Wolf, on Egypt 
and particularly toward Coptic Christians, if you have specific 
items that you think we ought to be doing in Egypt, that is a 
country where we have substantial foreign aid and substantial 
relationships, and yet a very documented situation taking place 
of religious persecution. If there are narrow, specific items 
you think we should do toward Egypt, I would invite you to 
submit that to the committee.
    Mr. Wolf. One thing you could do is you could call the 
Egyptian ambassador in. I saw the Anti-Defamation League send 
out about a month ago some very anti-Semitic cartoons that are 
now appearing in the Egyptian press. Their press is somewhat 
controlled. It is unacceptable that they go there.
    I think the first thing our government ought to do is to 
call in their Ambassador and say it is unacceptable, these 
anti-Semitic cartoons to be in your paper, and it is 
unacceptable what you are doing to the Copts.
    I mean, maybe there are a lot of good, decent people in the 
Egyptian Government. So they may, if hearing from us, be 
willing to speak out. But if they never hear, then they may say 
maybe they don't really care.
    So I say that would be a good starting point. We don't 
always need to use the club and the hammer to go after things. 
I think we are dealing with a lot of good people in a lot of 
these governments, who, to be brought in, they may say hey, I 
didn't really know you were that interested in it, and we are 
now going to go back and look at it. So we will look at it with 
regard to some things.
    But I think a good step would be to meet with their 
Ambassador. And when President Mubarak comes over here, or our 
people go over there, we should sit down with them.
    That is the problem in China. When our people go to China, 
they only meet with the leadership. They only meet with Li Pong 
or they only meet with these people. They don't meet with 
others.
    When under Ronald Reagan--God bless him--when the Reagan 
people, and also before that Jimmy Carter, when our people, 
when our Secretary of State, whether it be Shultz, Jim Baker, 
or whoever, used to go to Moscow, they met with Brezhnev. They 
met with him. But they'd also meet in the American Embassy with 
the Jewish community who wanted to emigrate. They met in 
Solidarity. And the Russian Government, the Soviet Government, 
knew that our people were meeting with these people. They knew 
that Shultz was meeting with them and talking about it.
    So that, I think, can go a long, long way without clubs, 
hammers, sanctions, and things of that like.
    Senator Brownback. Congressman Wolf, thank you very much. 
We appreciate it a great deal.
    Mr. Wolf. Thank you, Senator.
    Senator Brownback. The next panel will be Mr. Steven 
Coffey. He is the Principal Deputy Assistant Secretary of 
State, Bureau of Democracy, Human Rights and Labor, 
representing the administration on this issue.
    We certainly appreciate, Mr. Coffey, your willingness to 
come and to testify in front of us. If you want to submit a 
longer statement for the record, you can, and you may condense 
your overall statement.
    Again, as I mentioned to Congressman Wolf, our objective 
here is to hear what is taking place and what we can do to be 
of assistance. Mr. Coffey, the microphone is yours.

   STATEMENT OF STEVEN J. COFFEY, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR

    Mr. Coffey. Thank you very much, Mr. Chairman. I would like 
to begin by associating myself with Congressman Wolf's remark 
to you, that you certainly are to be commended for convening 
this session devoted to this very, very important topic. It is 
a great honor and privilege for me to represent the 
administration here before your committee.
    I would like to submit my full remarks to the committee, 
and I will try to abbreviate them. But I would like to make a 
few key points.
    Religious freedom is an issue, and I think this is the 
first key point, to which the Department of State has been 
devoting increasing attention. It is a complex problem. Issues 
of religious freedom are often laden with emotion, 
misunderstanding, political overtones, ethnic implications, and 
deep historical wounds.
    This is especially true in the Middle East, where three of 
the world's major religions trace their origins and where it is 
often difficult to separate religion and politics.
    The promotion of religious freedom in the Middle East and 
elsewhere is a growing priority in our foreign policy. 
Religious liberty is, after all, a core American value.
    Our Nation was founded in large part by refugees fleeing 
from persecution, and the Framers of our Constitution enshrined 
religious freedom among the most sacred of the rights 
guaranteed to our citizens. And America today is a country 
where people freely worship and where hundreds of religions 
flourish.
    We have to remember that our religious liberties do not 
thrive in a vacuum. They thrive in the context of a free 
society, a society that guarantees full personal liberties to 
all its citizens--freedom of conscience, freedom of speech, 
freedom of assembly. These are among the basic elements of any 
democratic society. As we look around the world we see that 
where political freedom, individual rights, and democracy are 
on the rise, so is religious freedom.
    We need to look no further than the revival of religious 
activities in Russia and Central Europe for all the problems 
that were just talked about following the fall of communism, to 
see how increased political freedom leads to increased 
religious activity.
    This, then, is the context in which we must formulate and 
implement our policy in the Middle East and around the world. 
Where political freedoms thrive, so do religious freedoms. 
Where political freedoms are constrained or repressed, the same 
is often true for religious freedom.
    Religious freedom can only truly flourish in free 
societies.
    So one of our operating principles, therefore, is that when 
we work to expand the family of democracies around the world, 
to build free societies, to encourage tolerance, and to defend 
all fundamental human rights, we are also working to promote 
religious freedom.
    Our global policy seeks to build a framework of peace, 
freedom, and respect for law, in which all human rights can 
thrive, including religious liberty.
    Very serious issues of religious restrictions, 
discrimination, persecution, and conflict exist in the Middle 
East. The region is diverse; and as I pointed out, we should be 
careful not to make too many sweeping generalizations about the 
region.
    In most of the Middle East, there is little or no 
separation of religion and state as we practice it here in the 
United States. Although this is manifested differently in each 
nation, the close association of religion and the state in the 
Middle East and the lack of tolerance and pluralism poses a 
special challenge to protect adherents of religions other than 
the state religion.
    In most countries of the Middle East, Islam is the official 
state religion. In some countries, such as Jordan and Morocco, 
the King derives his legitimacy in part because his heritage is 
traced back to the Prophet Mohammed and the beginnings of 
Islam.
    In many countries, religious law is imposed by the state. 
In others, civil law and religious law exist side by side. In 
some, such as Israel, religious political parties are active in 
government. In others, such as Algeria, religious parties are 
banned. In Lebanon, the most senior government positions are 
allocated according to religious affiliation.
    With these variations in mind, it is worth highlighting the 
following issues. Most Middle Eastern states impose significant 
legal obstacles to religious freedom, contrary to the 
provisions of the Universal Declaration of Human Rights.
    Some governments, such as Saudi Arabia, prohibit entirely 
the practice of religions other than Islam. This prohibition on 
non-Muslim religions forces Christian and other expatriates who 
seek to worship to do so only at great personal risk and under 
extremely discreet circumstances.
    In others, from Israel to Kuwait, religious affiliation is 
a prerequisite of granting citizenship to new immigrants.
    One of the most serious issues concerning religious freedom 
in most Middle Eastern countries is a strict prohibition on 
proselytizing. Conversion of Muslims to other religions is 
often illegal. Apostasy can carry heavy penalties, including in 
some countries death. Iran, for example, has issued a decree 
seeking the death of writer Salman Rushdie, who is called an 
apostate for authoring The Satanic Verses.
    In addition, the Government of Iran has decreed all Baha'is 
to be apostates, regardless of whether they were born Baha'i or 
are converts. Four Baha'is have been sentenced to death for 
apostasy, and Christian evangelists have died in Iran under 
extremely suspicious circumstances.
    Most countries in the region prohibit or restrict 
proselytizing, and there is serious societal discrimination and 
intolerance against converts. This, of course, is contrary to 
the Universal Declaration's provision that protects the right 
of all people to change their religion or belief.
    In some states, specific religious groups are persecuted or 
their practices restricted. For example, in Iraq, the 
government has severely restricted its majority Shi'a Muslim 
population, banning the broadcast of Shi'a programming on 
government television and radio, the publication of Shi'a 
books, and even the commemoration of Shi'a holy days.
    The Assyrian Christian community has suffered various forms 
of persecution and abuses by Iraqi forces, including harassment 
and killings.
    Even where legal obstacles do not exist, societal 
discrimination on a religious basis does. Jews throughout the 
Middle East, especially since the creation of the State of 
Israel, have experienced societal discrimination or repression, 
resulting in the large-scale emigration of traditional 
communities.
    Anti-Semitism remains a widespread problem in many Middle 
Eastern countries today. The Coptic Christian community in 
Egypt is subject to discriminatory practices in addition to a 
number of legal restrictions. And, discrimination against women 
remains a pervasive problem throughout much of the Middle East; 
in some instances, discriminatory actions against women 
resulting from societal traditions are erroneously attributed 
to Islamic doctrine.
    Some Middle Eastern states legislate in ways that 
discriminate against religious groups. In some cases, legal 
restrictions on a particular community exist, but are not 
enforced in practice. In Israel, Orthodox religious authorities 
have exclusive control over marriage, divorce, and burial of 
all Jews regardless of the individual's orthodoxy.
    In Iran, Baha'is are legally restricted in their 
educational and employment opportunities as well as in almost 
all other ways.
    Violence, which chooses religion as its standard bearer, is 
all too common in the region. The 16 year Lebanese civil war 
included elements of sectarian violence. In Algeria and Egypt, 
armed groups have carried out acts of terror against both 
Muslims and Christians in the name of religion.
    In Algeria alone, thousands have been murdered, hundreds in 
the past 2 weeks, purportedly to advance a certain Islamic 
agenda.
    And, of course, the Arab-Israeli conflict, while not a 
religious conflict per se, is laden with religious overtones 
and has provided grist to extremist groups, some of which, such 
as Hamas, use religion to rally supporters.
    Given the absence of separation of religion and state, it 
bears highlighting that Middle Eastern governments are often 
active in regulating and restricting the practice of Islam as 
well as of other religions. This is an important element of the 
religious context in the region that is sometimes overlooked.
    For example, it is common in many Middle Eastern states for 
governments to be involved in appointing Islamic clergy, 
funding mosques and religious workers' salaries, providing 
guidance for sermons, and monitoring Islamic religious services 
for unacceptable content. Such restrictions on Islam sometimes 
exist even in states that accept the free and open practice of 
other faiths.
    I raise the issue of restrictions on the practice of Islam 
in the Middle East to underscore the same point that 
Congressman Wolf made, that it is not just religious minorities 
in the region which face constraints on religious liberty. In 
some instances, the restrictions placed on minorities are 
mirrored by similar restrictions or regulations of the Islamic 
majority. Some of these restrictions, moreover, overlap with 
constraints on other freedoms, such as freedom of speech or 
freedom of assembly, reinforcing the key point I made earlier 
that religious freedom is only likely to thrive in free 
societies; and where political freedoms are restricted or 
repressed, the same is often true for religious freedoms.
    In my remarks so far, I have tried to lay out for you the 
general basis of our policy on religious freedom and the 
context and priorities of the situation regarding religious 
intolerance in the Middle East. I would now like to address the 
crucial question of what are we trying to do about it.
    In fact, we are trying to deal with the question of 
religious freedom on several fronts.
    First, we are speaking out for religious freedom. President 
Clinton has issued several proclamations on religious freedom 
and Secretary of State Albright, soon after taking office, 
stated that freedom of religion is a priority human rights 
concern for her and made it clear that it should be treated as 
an important issue in our human rights policy.
    Religious freedom, as I said before, is one of our core 
human rights basic to American values, and it is more than an 
American value. International human rights instruments in the 
Universal Declaration of Human Rights enshrine religious 
freedom as one of the basic internationally recognized rights 
of all men and women.
    One of the reasons I am pleased to be here, Mr. Chairman, 
is the opportunity this gives us to reiterate our message on 
religious freedom and to do so in a way that will be heard 
around the Middle East, and elsewhere.
    Second, we are making it clear when there is a problem in a 
country. Our annual human rights reports to Congress each 
contains a section on freedom of religion. Here I do take some 
exception to Congressman Wolf's remarks that this is not a 
required section of our human rights reports. It is. These 
human rights reports, the religious section in particular, 
spell out in detail the situation in every country in the 
world, highlighting the problems we see. This is a public 
document that gets wide distribution, and we bring the reports 
and our concerns directly to the attention of the governments 
concerned.
    This year, we will also be presenting a report to Congress 
on persecution of Christians around the world, which will 
include portions on the Middle Eastern countries.
    Beyond these reports, the State Department comments 
regularly and publicly on instances of religious intolerance 
and persecution that come to our attention in all countries, 
including the Middle East.
    Third, we have begun to take a much more activist approach 
in the field on questions of religious freedom. I think we all 
recognize that more needs to be done. In the past not enough 
was done.
    But in December, the Department of State instructed all 
U.S. Embassies around the world, including in the Middle East, 
to be alert to the high priority we attach to religious 
freedom. We asked our posts to report more actively on these 
issues, to identify religions, denominations, or sects being 
discriminated against or persecuted, and to provide suggestions 
about how the United States might most effectively address 
questions of religious freedom and religious persecution in 
their countries.
    This initiative has already begun to show results, with 
more information coming our way and some useful suggestions on 
how to approach certain governments on this issue.
    Fourth, in February we convened the first session of the 
Secretary of State's Advisory Committee on Religious Freedom 
Abroad. This new committee brings together 20 of America's most 
prominent religious leaders, activists, and thinkers to help us 
forge new policy directions on religious freedom.
    The creation of the advisory committee reflects our 
recognition that more can and should be done to promote 
religious freedom abroad. Already the committee's members are 
hard at work and have formed subgroups on religious persecution 
and on conflict resolution.
    By this summer, we hope to have the committee's first 
recommendations for action.
    Fifth, we have taken an increasingly active approach in 
raising with Middle Eastern and other governments specific 
cases of individuals and groups who are suffering 
discrimination or persecution on religious grounds. Generally, 
we have done this quietly and through diplomatic channels. We 
have also encouraged governments to state publicly their 
opposition to acts of violence and discrimination aimed at 
individuals or groups because of their religion or belief.
    In a number of cases, we have seen positive results.
    Sixth, we have been active in multilateral fora in raising 
questions of religious freedom. In the United Nations Human 
Rights Commission earlier this month, for example, we co-
sponsored a resolution on religious intolerance and delivered a 
strong statement on religious freedom. The United States was 
instrumental in the creation of a Human Rights Commission 
Special Rapporteur on Religious Intolerance, and we have been 
strongly supportive of the Special Rapporteur's activities.
    We have also drawn attention to specific cases of gross 
abuse including Iran's treatment of the Baha'i community and 
Iraqi persecution of several religious groups.
    Seventh, we have sponsored and funded programs to promote 
religious liberty and tolerance. Some of these programs are 
specifically targeted at this issue while others are broader in 
scope but still have an impact positively on the problem.
    For example, USIS posts in Arab countries have sent 
clerics, journalists, politicians, and academics to the United 
States to participate in the annual International Visitor 
Program on Religion in America, in which they meet with 
American Christian, Muslim, Jewish, and Ecumenical groups to 
discuss ways of promoting religious tolerance.
    Participants have returned impressed with the extent of 
religious freedom in the United States and the possibilities 
for cooperative relationships among people of different faiths.
    With the National Endowment for Democracy, we are funding 
several programs to support tolerance and secularism--for 
example, a project to enable an independent literary journal to 
organize debates on religion and democracy among theologians, 
historians, and lawyers; and another project to translate into 
Arabic and publish important works on democracy, tolerance, and 
pluralism.
    Beyond programs focused specifically on religious issues, 
we are also actively pursuing democracy building programs 
around the world on the basis that building open, democratic 
societies will lead to improved respect for all human rights, 
including religious freedom. We have some democracy building 
programs in Algeria, Egypt, Jordan, Yemen, Lebanon, Morocco, 
and the West Bank and Gaza.
    Some additional programs also focus on related issues, such 
as conflict resolution and the human rights of women.
    Eighth, we have reached out to religious groups and leaders 
throughout the Middle East. Our embassies maintain close 
contacts with a broad spectrum of Middle Eastern religious 
leaders, especially those representing groups suffering 
discrimination, to reassure them of American interest and see 
how we can be helpful.
    Finally, our overall policy toward the Middle East, while 
not determined by questions of religious freedom, in fact is 
aimed at creating the kind of conditions under which religious 
freedom has a chance to emerge and to prosper.
    I've spoken, for example, about how the Arab-Israeli 
conflict has given rise to extremist groups, such as Hamas, 
that have exacerbated religious tensions and intolerance in the 
region.
    I have pointed out that our chief emphasis is on the Middle 
East peace process when it comes to the Arab-Israeli conflict. 
By establishing peace in the region and building bridges 
between communities previously at war, we are also establishing 
a framework for greater tolerance.
    Likewise, our effort to build open societies and encourage 
the growth of democratic institutions in the Middle East will 
contribute over time to a climate for greater religious 
freedom.
    Our efforts to fight terrorism also help strike at the 
roots of intolerance and religious persecution and also play a 
role here.
    And, our work to isolate rogue regimes will help weaken 
many of the leaders most responsible for severe repression in 
the region.
    In these ways, our general approach to the Middle East 
policy is helping to build a framework in which religious 
tolerance will be more likely to emerge and to grow.
    Mr. Chairman, there is a long way to go to resolve the many 
aspects of religious intolerance, restriction, and persecution 
in the Middle East, and I won't sit here before you to tell you 
that we in the executive branch have all the answers. Nor can I 
assert that the United States has the power to bring about 
changes in religious practices abroad even if we did have the 
answers.
    What I can tell you, however, is that we are committed to 
making the effort and to working with you in this regard. We 
have structured a broad policy toward the Middle East that is 
helping to lay the framework for peace and democratic societies 
which are essential components of an atmosphere conducive to 
religious freedom.
    We are speaking out for religious freedom. We are raising 
the issue with governments, and we are undertaking a range of 
policy initiatives to advance our goal of a world where every 
individual would be at liberty to follow their beliefs and to 
practice their religion freely.
    We appreciate your interest in this issue and would welcome 
your comments and suggestions. As I have said at the outset, 
freedom of religion is a basic American value. I believe it is 
an issue on which the administration and the Congress can see 
eye to eye and one on which we can cooperate together 
effectively.
    Thank you very much.
    [The prepared statement of Mr. Coffey appears the Appendix 
B on page 88.]
    Senator Brownback. Thank you, Mr. Coffey. I appreciate that 
and I appreciate the background of your statement as well as 
the context in which you have put it all forward. We appreciate 
that a great deal.
    What else should we be providing to you, to the 
administration, as additional tools? You outlined a very active 
agenda and a number of points that you are pursuing. Are there 
additional policy tools that we need to be providing you from 
the Congress?
    You heard Congressman Wolf talk about some that he has 
suggested. What are your thoughts on that?
    Mr. Coffey. Well, I very much agree with Congressman Wolf 
that one of the key, the key instruments in this effort to 
improve the climate for religious liberty and religious 
tolerance is publicity. I think that these hearings and others 
like them that bring public focus on this issue are very 
valuable.
    I think it is helpful for Members of Congress to speak out 
on this issue, just as the members of the executive branch 
intend to speak out.
    As I mentioned in my remarks, this is a key priority for 
Secretary of State Albright. She was at the opening session of 
the Advisory Commission on Religious Freedom Abroad and she is 
very committed to this.
    We would like to see similar expressions such as those made 
here today from Members of Congress. I think that Members of 
Congress in their own contacts----
    Senator Brownback. What about policy tools? I appreciate 
your point about we can speak out and do these sorts of things, 
and the administration is. I appreciate them doing that. But 
what about specific policy tools? Should we be bringing more of 
those forward? Do you need more to be able to address those 
issues?
    Mr. Coffey [continuing]. Well, I don't know if you consider 
this a policy tool, but certainly we in the executive branch 
consider resources a key policy tool. I think we certainly need 
the resources to do a lot of the things I mentioned that USIS 
is doing. A lot of the democracy building programs around the 
world have an impact on this issue. So it is very, very 
important to fund those issues.
    In terms of specific pieces of legislation, I am not sure 
that we need new legislation in this area because there is a 
lot of legislation currently existing.
    In terms of the things that Congressman Wolf mentioned, in 
terms of setting up an office in the White House to look into 
these issues, frankly, our position has been in the State 
Department that this is not necessary. What we are trying to do 
in the State Department is trying to integrate this concern for 
religious liberty into the fabric of our foreign policy. This 
is a responsibility of the State Department. In particular, it 
is a responsibility of the bureau that I represent, because we 
consider religious liberty to be a key human rights issue.
    We have set up the special advisory commission precisely to 
look at this question of what more instrumentalities are 
necessary, if any, and how we can better go about using the 
instrumentalities that we have.
    Senator Brownback. So to date you are saying that you will 
be coming forward with additional requests for policy changes, 
that that is still maturing in the system? Did I understand 
that last statement correctly?
    Mr. Coffey. Yes. I think that that is very much the work of 
the advisory committee. It is going to look at and make very 
specific recommendations on policy. There is a sub-group set up 
on specifically this question of religious freedom and they 
will be making some very specific recommendations.
    These will be made to the Secretary and those will be 
reviewed. But we do expect to energize and to come forth with 
initiatives to give enhanced priority to this issue.
    Senator Brownback. Do you have any sort of timeframe that 
you can give us that those might mature forward, those 
initiatives?
    Mr. Coffey. We are hoping that there will be at least a 
tentative report this summer.
    Senator Brownback. To the Secretary?
    Mr. Coffey. To the Secretary.
    Senator Brownback. Good. Certainly I would want to know the 
administration's position as they look toward pieces of 
legislation like Frank Wolf or others have proposed in 
consideration in these areas.
    Mr. Coffey. Mr. Chairman, I have not had a chance, and the 
department has not had a chance to review the final text of 
this legislation which, as I understand it, will be presented 
next week. But we will look at this, and we want to work with 
the Congress on this legislation.
    Senator Brownback. Or tell us of additional things that you 
identify that you think would be useful, that you disagree with 
this point within that drafted legislation, or that you know 
what would be helpful, or that we are blocked by virtue of what 
Congress has done previously.
    I was really struck by what Frank said, that in the early 
1980's, a Republican President and a Democratic Congress worked 
very carefully together on a number of these issues and were 
highly successful in the things that they did.
    I would certainly like to see us be able to create the same 
sorts of synergies or the same sort of dual purpose and united 
focus between the Congress and the President as we look at 
these issues.
    It looks to me like there is a growing list of them in 
places around the world, in places where we have significant 
relationships, that are not just isolated regimes in a 
particular area.
    So I want to be able to do that with you and I assume you 
will be our first point of contact. I hope as well that the 
Secretary will be completely engaged and the President as well.
    May I ask you on that line, what about his comment that 
when we send top people around the world, when the President 
goes somewhere, when the Vice President goes somewhere, what 
about them meeting with some of these persecuted groups in 
various regions around the world, such as the Catholics in 
China? What about pushing that forward within the 
administration?
    Mr. Coffey. I think that is an interesting idea. I want to 
stress that the President has been very actively involved on 
this issue, the President and the Vice President. In fact, the 
President was very actively involved in setting up the advisory 
committee, and their recommendations will, in fact, be going to 
the President through the Secretary.
    The question of contact with these religious groups is, I 
think, an important one. I think that a lot of this contact is 
going on. You know, every situation, every mission has to be 
considered on its own terms. But a good example of this, though 
not an example from the Middle East, is the Secretary's and 
President's meeting with the Dalai Lama. When President Mubarak 
was here earlier these spring, these issues were very much 
discussed with him and particularly the question of anti-
Semitism. I know that those issues were discussed with him both 
in the executive branch and also up here on the Hill.
    I think that those contacts had a very, very beneficial 
effect, because when President Mubarak went back, he made it 
clear publicly that there is a distinction to be made between 
criticizing the policies of Israel, which the Egyptian press is 
free to do, and anti-Semitism.
    I think that that was a very, very helpful statement. So I 
think these contacts do take place and do play a role.
    Senator Brownback. I hope you will keep working with us on 
those and will keep putting pressure forward on that.
    Mr. Coffey. I will definitely keep working with you and, 
Mr. Chairman, we very much share your spirit of bipartisanship 
on this.
    This is an issue that really cuts across all party lines 
and encompasses all groups of Americans.
    Senator Brownback. Good. Mr. Coffey, thank you very much 
for joining us and for your presentation. We may be submitting 
some additional questions to you in writing and we would 
appreciate it if you would get back to us in a timely fashion 
on those.
    I would now ask our third panel to please come forward. 
They are Bat Ye'or, author, from Geneva, Switzerland, who will 
be testifying; Ms. Nina Shea, Director of Puebla Program on 
Religious Freedom, Freedom House, Washington, D.C.; and Dr. 
Walid Phares, Professor of International Relations, Florida 
Atlantic University of Miami, Florida.
    If you will excuse me for just a moment while the panel is 
convening, I will be right back.
    [Pause]
    Senator Brownback. Thank you all for joining us. I 
appreciate that a great deal.
    We will start with Bat Ye'or, and I understand that that 
name in English translates into ``Daughter of the Nile.'' Bat 
Ye'or is a distinguished author on the subject of what this 
hearing is about.
    The microphone is yours. Welcome to our committee. We are 
delighted you are here.
    If you would like to, you can submit your written statement 
for the record and summarize. It is up to you. It's your 
choice.

      STATEMENT OF BAT YE'OR, AUTHOR, GENEVA, SWITZERLAND

    Bat Ye'or. Thank you, Mr. Chairman. As time is short, I 
would like to only highlight the main points of my statement. I 
request you to put it in the record in its entirety.
    Senator Brownback. Without objection, it will be done.
    Bat Ye'or. Thank you, Mr. Chairman. I am most grateful for 
having been invited to give testimony on religious 
persecutions, especially on the religious persecutions of 
Christians and other minorities, which is a very grave 
phenomenon now in many Muslim countries.
    But I would like first to stress that many Muslim political 
trends and Muslim individuals are strongly opposed to religious 
persecutions since it is written in the Koran, ``No compulsion 
in religion.''
    However, the religious persecutions against Christians and 
other religious groups exist in some Muslim countries. They are 
inscribed in a historical and ideological pattern that we must 
know in order to be able to refute it and to eliminate those 
prejudices which provoke persecutions.
    This pattern is already a millennium old. So it means that 
the efforts to eliminate these prejudices that have survived to 
the present time--the historical prejudices against religious 
groups other than Muslims--this struggle will be very 
difficult. However, it must me done.
    I think that this hearing is very important, because I hope 
it will start the struggle for the implementation of religious 
rights.
    The persecution of Christians in Muslim countries is of two 
sorts: military and legal.
    The military aspect comprises military aggression, like in 
Sudan, for instance, or in other parts of the Muslim world, in 
order to ``Islamize'' Christians and, in the case of Sudan, the 
Christian and Animist population.
    The tactics of the Jihad war which is waged in Sudan allows 
extermination, destruction, slavery, deportation, and also 
abduction and slavery of Christian and Animist women and 
children.
    Muslims who are opposed to the regime in Khartoum are also 
victims of those practices.
    The second aspect that is conducive to the discrimination 
and oppression of Christians and other religious groups is the 
legal one. Those laws that allow discrimination are Shariah 
laws. They were written down by Muslim jurisconsults from the 
8th and 9th centuries onward. They impose legal discriminations 
and inferiority on the ``People of the Book''--that means Jews 
and Christians--as well as other non-Muslim groups.
    Here it is important to stress that the condition of Jews 
and Christians in Islamic legal codes is exactly the same. 
Therefore, all kinds of demonization of Jews or contestation of 
their right to live in security and dignity is also a 
contestation of Christian rights. One cannot separate the two 
groups.
    Those Shariah regulations, which enforce persecution in the 
legal domain, remained in force until the 19th and 20th 
centuries, when they were abolished and replaced by European 
legislation. Now we see that the Islamist trends are trying to 
impose again those Shariah provisions.
    These rules concern the law of apostasy, of blasphemy, the 
refusal of Christian and Jewish testimony in some cases, an 
inequality--according to the difference of religion--in 
financial compensation for crimes or for punishments, and 
discrimination in education and the professions.
    It is important to understand that religious rights must be 
respected in those countries and we should, therefore, organize 
a campaign to denounce religious oppression. The reason why 
this oppression of Christians and other religious groups is not 
well known is because of the economic interests of the West, 
the implications of the cold war, a policy of appeasement with 
Muslim governments, and also--in the Church leadership--a trend 
toward the building of an Islamic-Christian peaceful 
coexistence. And, of course, this is a very important political 
agenda, to create those elements of peaceful coexistence.
    But, nevertheless, this effort of the Churches to always 
appease the Moslem world has led them to overlook the 
persecution of Christians and to try to find a scapegoat, like, 
for instance, the State of Israel or the Israeli-Arab conflict, 
so as to blame on the Jews and on Israel the persecutions of 
the Christians in the Muslim world. But, in fact, the 
persecutions of Christians, Jews, and other groups are the 
consequence of those Shariah laws which were written down in 
the 8th and 9th centuries.
    So it is very important to understand the roots of this 
persecution so that one can bring an adequate response to it.
    Now I suggest in order to remedy this ongoing human tragedy 
that the silence on this human suffering should be broken, that 
the policy of appeasement should be abandoned, that the real 
culprits should be denounced, that these laws and prejudices 
should be addressed, that economic sanctions should be brought 
against the countries who are practicing these oppressions, and 
I propose the creation of an office that will monitor the 
religious persecution, as has been suggested by Congressman 
Frank Wolf.
    I suggest also that the present campaign of 
delegitimization and demonization of Jews, Christians, and 
Baha'is should cease and, instead, be replaced--encouraged in 
the West--with a campaign promoting esteem for every religion 
and respect for all religious rights. We should understand that 
it is in our interest in the West that Muslim countries respect 
those rights, because if those rights are not recognized and 
respected, then our own rights in Europe, in the West, will 
also be threatened by the same terrorist campaign and religious 
fanaticism.
    [The prepared statement and an article by Bat Ye'or appear 
in Appendix C on page 93]
    Senator Brownback. Thank you very much, Bat Ye'or. I 
appreciate your testimony.
    I look forward to our exchange in questions.
    Next will be Ms. Nina Shea, who is well known in this 
country for her work in this area of religious persecution and 
what we need to be doing as the United States, and what we need 
to be doing as a people and as a government. Ms. Shea.

 STATEMENT OF NINA SHEA, DIRECTOR, PUEBLA PROGRAM ON RELIGIOUS 
            FREEDOM, FREEDOM HOUSE, WASHINGTON, D.C.

    Ms. Shea. Thank you, Mr. Chairman. I want to express 
Freedom House's deep gratitude to you for holding these 
hearings on this important topic today and for inviting me to 
testify on the long neglected atrocity of the religious 
persecution against Christians in the Middle East.
    Mr. Chairman, when Freedom House sent a fact finding team 
to Sudan a couple of years ago, they brought back a film 
documentation of children who had been redeemed from slavery, 
Christian children. They were bearing scars on their bodies 
from brands they had received from their Muslim masters while 
they were in captivity.
    We brought back a sensational film, took it around to the 
different television news magazines, and the producers told us 
well, this is all very interesting, but what is the peg, what 
is the angle, we don't get it--we can't use it.
    I just want to say that your hearing helps give a peg and 
an angle to this important story.
    Christians in many parts of the world suffer brutal 
torture, arrest, imprisonment, and even death, their homes and 
communities laid waste for no other reason than that they are 
Christians.
    Christians are the most persecuted religious group in the 
world today.
    In my new book, In the Lion's Den, I have identified and 
given reasons for why militant Islam is one of the two 
political ideologies--the other being communism--that have 
consistently oppressed Christians as well as other independence 
groups and individuals.
    I want to stress that Islam is a diverse religion and has 
been at periods extremely tolerant relative to other religions. 
It was during the religious repression of the Hapsburg Empire 
or the reign of Ferdinand and Isabella in Spain, for example, 
that Jews and even minority Christian groups fled to Muslim 
lands for protection.
    So what I am looking at today is the strain within Islam 
that is highly politicized and militant.
    It is important to understand the distinction between 
persecution and discrimination or bigotry. The most egregious 
human rights atrocities are being committed against Christians 
living in militant Islamic societies solely because of their 
religious beliefs and activities. These atrocities include 
torture, enslavement, rape, imprisonment, forcible separation 
of children from parents, killings and massacres, abuses that 
threaten the very survival of entire Christian communities, 
many of which have existed for hundreds or even 2,000 years.
    Right before this hearing I was talking to Bat Ye'or about 
the cousins of the Jews in the Middle East. I thought it was 
shocking that she revealed to me that there are less than 50 
Jews in Egypt, in the country of Egypt. Fifty years ago, there 
were 85,000 Jews. It goes on throughout the countries of the 
Middle East.
    We are seeing the same thing happening right now with the 
Christian communities. They are vanishing before our eyes under 
the relentless persecution.
    At the beginning of the century, most Middle Eastern 
countries had a Christian population in the 30th percentile. 
Now it is down to single digits in practically every country in 
the Middle East.
    In Iran, just for example, the Christian population has 
shrunk from 15 percent at the beginning of this century to 2 
percent today.
    In some cases, such as Iran and Saudi Arabia, it is the 
regime that is the oppressor. In other cases, including 
Pakistan and Egypt, societal forces are at work while the 
government, out of weakness, acquiesces, failing to stop the 
persecution despite well organized assaults or known 
instigators.
    In the countries of the Middle East that are under scrutiny 
at today's hearings, Christians are vulnerable minorities 
within the society. I will start with Saudi Arabia, which 
completely bans Christianity. There are no churches, Bibles, 
Christian artifacts, symbols or literature permitted there. 
Religious police seek out secret worship services by raids on 
private homes.
    It is important to remember that a quarter of the 
population in Saudi Arabia are foreign workers, many of whom 
are Christian. Hundreds of these people are in prison for 
Christian worship, secret Christian worship. Some are sentenced 
to be beheaded.
    Amnesty International reports that the oppression against 
Christians has worsened in Saudi Arabia since the Gulf War.
    Egypt's Coptic community, believed to have been evangelized 
by Mark in the in the 1st century is vanishing under a violent 
onslaught by Muslim extremists. Thousands of Coptic Christians 
have been forced to flee their homes or convert to Islam after 
large mobs of fanatical Muslim youth laid waste their villages 
in Upper Egypt in 1996.
    In February and March this year, two more pogroms by 
Islamic terrorists were directed against the Copts in Upper 
Egypt, leaving over 30 dead, including select young people 
being groomed for leadership roles in the church. They were 
massacred, by the way, while they were meeting in their church.
    According to statistics reported by the Center of Egyptian 
Human Rights for National Unity, there have been 543 incidences 
of violence against Christians during the past 5 years in 
Egypt. As many Christians have already been killed in the first 
quarter of this year as had been killed in the 20 year period 
starting in 1973.
    Reverend Keith Roderick, the Secretary General of the 
Coalition for the Defense of Human Rights Under Islamization, 
reports that the Egyptian Government has failed to stop the 
surge of terrorism against the vulnerable Christian minority 
and has helped create an atmosphere of bigotry and hatred 
toward them.
    Various Egyptian human rights groups report that there have 
been no prosecutions and convictions for the murders of the 
Coptic Christians. Over 70 were detained in those murders and 
they were all soon released. And 1\1/2\ years ago, Egyptian 
authorities withdrew police protection from the mainly 
Christian towns where the massacres took place.
    Egypt also has laws that ban repairs or constructions on 
Christian churches unless a decree is signed and issued in each 
case by the President of the Republic. During the 1980's, only 
10 buildings and 25 repair permits were granted to the Coptic 
Orthodox community which comprises about 90 percent of Egypt's 
Christian population.
    As a result of these laws, just last December an army unit 
bulldozed the Christian Cheerful Heart Center for disabled 
children without any warning. The army just came in and 
flattened it. It is located 15 miles outside of Cairo. This was 
done even though the center possessed the necessary permits, 
because there was a rumor that they did not.
    Converts from Islam to Christianity are considered 
apostates and are treated very harshly, including many cases of 
forcible reconversion through kidnapping and forcing women into 
marriage.
    Pakistan has blasphemy laws that mandate the death penalty 
against ``whoever by words, either spoken or written, or by any 
imputation, innuendo, or insinuation, directly or indirectly 
defiles the Prophet Mohammed.''
    Hundreds of blasphemy cases are pending against Christians 
and others in Pakistan's courts.
    Amnesty reports that in all known cases, ``the charges 
appear to have been arbitrarily brought, founded solely on the 
individual's minority religious beliefs or on malicious 
accusations against individuals who advocate novel ideas.''
    The minorities being affected, of course, are Christians 
and also Ahmadis.
    In February, inflamed about a rumor of blasphemy, a Muslim 
mob 30,000 strong went on a rampage in Pakistan's Punjab 
province setting fires in the Christian village of Shantinagar. 
The town of 15,000 was nearly razed, and thousands of 
Christians were left homeless. When Pakistani Christians 
marched on the capital a few days later to protest the 
destruction and demand greater protection, they were brutalized 
and arrested by police, that is, the Christians were.
    Iran's militant Islamic president delivered a fiery sermon 
in 1994 declaring that ``there is no longer validity to other 
religions,'' and that ``Iran and the entire Muslim world must 
adopt the Prophet and Jihad, or holy war, as a model.''
    Soon after that, Iran's tiny Protestant community was 
devastated by the brutal murders of three key pastors. Terror 
struck the Christian community again last October. The body of 
a fourth prominent leader from the Assemblies of God church was 
found hanging from a tree near his home. He had been a convert 
from Islam. We believe that he was murdered.
    I would be remiss if I didn't mention that the Baha'is have 
suffered terribly in Iran as well. They have no legal rights. 
Killing a Baha'i is not considered homicide. In the last 20 
years, 200 Baha'is have been murdered.
    The persecution of Christians is on the rise as advances 
are made by a militantly politicized strain of Islam where 
extremists, distorting Islam's tolerant values, seek to use 
religion to grab state power. It is no accident that the places 
where Christians are most severely persecuted are also among 
the countries rated as being the least free in Freedom House's 
annual survey, ``Freedom in the World.''
    If Christians are being persecuted and even martyred on 
such a massive scale throughout the world, why don't we know 
about it? Well, Mr. Chairman, I think that our own 
discriminatory attitudes and secular myopia have prevented us 
from recognizing the problem of persecution of Christians 
abroad.
    With various exceptions, our political leaders have been 
unaware or else have turned a blind eye. Our Presidents in 
recent years have repeatedly spoken out about human rights 
abuses against vulnerable minorities throughout the world, but 
they have failed to address the persecution of Christians, even 
though it is among the most pervasive international human 
rights problem.
    After the pogrom against the Christians in Egypt in March, 
President Mubarak visited President Clinton in Washington. I 
wonder if he raised our concern for this religious repression.
    I know my time is up. I refer you to my written text. Let 
me just say that I want to point out just two quick examples. 
One is Saudi Arabia, where the U.S. Government has repeatedly 
failed to speak up for the religious rights for even American 
citizens there and has capitulated to Saudi demands to restrict 
Christian worship services on U.S. Embassy soil in Saudi 
Arabia.
    Our soldiers in the Gulf War were told that they had to 
hide their Bibles and their crucifixes. They were also 
restricted in their worship while they were defending Saudi 
sovereignty.
    Also in the matter of asylum, this is an area where there 
can definitely be steps taken, reforms taken in the United 
States. There is a case currently that I am involved in of an 
Iranian Evangelical woman who managed to flee to Turkey and 
asked for political asylum based on religious repression. She 
was considered an apostate in her own country and would be 
killed.
    The U.N. certified that she had refugee designation, but 
she was turned down by the U.S. asylum officer. I reviewed her 
transcript and, apparently, he had never heard of adult 
baptism.
    Her case was so strong that she has been given political 
asylum based on religion by Canada but not the United States.
    My time is up. I thank you very much and maybe we can get 
back to some of the other points I make in my testimony in the 
question and answer session.
    [The prepared statement of Ms. Shea appears in Appendix D 
on page 103.]
    Senator Brownback. Good. Thank you very much, Ms. Shea. You 
paint a very discouraging picture, but we are happy that you 
are here to present that and we look forward to further 
questions.
    Mr. Walid Phares is Professor of International Relations at 
Florida Atlantic University. Thank you very much for joining us 
and the microphone is yours.

   STATEMENT OF DR. WALID PHARES, PROFESSOR OF INTERNATIONAL 
     RELATIONS, FLORIDA ATLANTIC UNIVERSITY, MIAMI, FLORIDA

    Dr. Phares. Mr. Chairman, thank you for inviting me to be a 
part of this panel. I am honored, first of all, because I have 
been researching the matter for the last 16 years; and, second, 
because I am Middle Eastern and I am from a Christian 
background. I can assure you that back in the Middle East, 18 
million Christians will consider this hearing as an historic 
moment.
    Mr. Chairman, I am going to cover four issues: first, 
understanding the fact; second, I will try to answer the 
question of why is it happening; third, why is there a silence 
about it; and, fourth, what can the U.S. Government do about 
it.
    But first, allow me to make a few remarks.
    While the United States leads the international community 
in many diplomatic and rescue initiatives, such as in Bosnia, 
many here and overseas wonder why parallel action is not taken 
in similar, sometimes worse, nightmares, such as the tragedies 
in Southern Sudan, Upper Egypt, and Central Lebanon to name a 
few.
    Of course, United States resources are limited to a certain 
extent and world hotspots must be evaluated for their priority 
within American interests and capabilities.
    When should Washington get involved? Of late, the United 
States participated in treaties to stop the massacres in Bosnia 
and to convey political rights to the Palestinians. The 
problems within these groups and the delicacy with which they 
had to be handled are well known. Less known, however, are the 
plights of various Christian minorities.
    Not supporting the rights of the Christians while 
supporting the rights of other communities has, at times, 
seemed ironic, particularly given the Judeo-Christian religious 
roots of most citizens as well as Members of Congress.
    Minimally, it had sent a message of indifference. In some 
cases, this disregard has been construed as a ``green light,'' 
a green light to proceed in actions taken against minorities in 
the region. At worst, the silence in the United States has 
actually caused an increase in persecutions against the 18 
million Christians in the Middle East.
    Over the past decades, the persecutions and oppression of 
Middle East Christians were rarely reported in Western media. 
While other accusations of abuse in the region have been 
investigated exhaustively by audio-visual and printed media, 
the suffering of millions of Christians has been downplayed or 
simply ignored.
    It is only now and after persecution has reached its zenith 
that fact finding is underway, such as today's hearing.
    Another problem stems from that lack of information. The 
groups which have a natural tie to the Middle East Christians 
have done little despite their vast resources and commitment to 
activism on better known topics. Domestic, as well as 
international, Christian churches have not paid enough 
attention in the past to the large scale persecution of 
Christians in the Middle East. Their resources can make a 
significant difference if they raised the issue nationwide with 
all their strength.
    Even those who do not need the media to illuminate them 
have all too often by-passed the problems of Christians in the 
Middle East. I am now talking about many in the academic 
community of this country.
    Despite easy access to facts, many Middle East experts have 
chosen to research and write about the ``majority'' rather than 
the minorities in the region. This course of study has been 
facilitated by cooperation and financial support, either from 
governments or business with interests abroad, to institutions 
or researchers who published about topics deemed 
``acceptable.''
    Now let me go to the questions. First is understanding the 
facts. I have five points, quick points. First is size, 
location and background. What are we talking about in the 
Middle East?
    The Christians in the Middle East are not a monolithic 
group. They are the descendants of the first Christians in the 
world and the heirs of the ancient and native people of the 
region. While many Christians are recent converts, the 
overwhelming majority of the Middle East Christians came from 
nationalities which did not convert to Islam after the Arab 
conquest of the 7th century.
    The largest Christian community of the Middle East is found 
in Egypt, which has 10 to 12 million Copts. This Christian 
group comprises one-fifth or one-sixth of the country's 
population. The Southern Sudanese have about 6 million. 
Christians are the largest monotheist group. As for the 
Christians of Lebanon, about 1.5 million still reside there, 
and more than 6 million live in the Diaspora, including about a 
quarter of that number in North America.
    Among the Lebanese Christians, the largest group is the 
Maronites, which are Catholics which follow Rome. Other smaller 
religious entities include Melchites, Orthodox, and 
Protestants.
    The Assyrian Chaldeans, around 1 million in Iraq and in the 
Diaspora, have a large concentration in the Kurdish zone and, 
of course, in Chicago and Detroit. The Christians of Syria, 
about 1.2 million, include Aramaic, Armenians, Melchites, 
Orthodox, Evangelicals. There are small, but significant, 
Christian communities in other countries, such as Iran, Jordan, 
and Israel, and less significant in Turkey and Algeria. By law, 
there are no Christians in Saudi Arabia.
    Point 2 is types of persecution. There are various types of 
persecution of Christians in the Middle East. We can sort them 
into two categories.
    First, religious persecution of individuals, technically 
human rights abuses. This persecution is conducted against 
individuals because of their religious affiliation. In Saudi 
Arabia and Iran, as highlighted by many speakers, for example, 
individuals are punished for displaying crosses or stars of 
David. They are jailed for praying in public and, in some 
cases, are punished by death for not complying with the 
religious tenets.
    In these countries, as well as in Egypt and Sudan, converts 
to Christianity are sentenced to death.
    More important, perhaps more tragic, there is a political 
oppression of religious communities which I call ethno-
religious cleansing.
    In this case, ruling regimes are oppressing entire 
religious communities on political, security, and economic 
levels. The objectives of such oppression is to reduce the 
influence of Christian communities and, in certain cases, to 
reduce it physically.
    The ethno-religious cleansing of Christian peoples in the 
Middle East alternate between military suppression and 
political oppression. In Egypt, the large Coptic nation is 
systematically discriminated against on the constitutional, 
political, administrative, and cultural levels. Moreover, 
paramilitary fundamentalist groups are conducting pogroms 
against the Christians, which include burning churches and 
assassinating civilians.
    In Sudan, the stated objective of the ruling regime is to 
Arabize and Islamize the African Christian and Animist 
population of the South. Since 1992, the Sudanese Government 
has been waging a military campaign aimed at dispersing, 
enslaving, and subduing the southern blacks.
    Last, but not least, let us review the third largest 
Christian community of the region, the Lebanese, who are under 
political and security oppression in their own homeland. Under 
occupation by a Muslim power, Syria, the Christian community is 
systematically being suppressed by the Syrian controlled regime 
of Beirut.
    The smaller Christian groups do no better. In Iraq, for 
example, the Assyrians are another group targeted by the Saddam 
regime.
    Third is slavery. Religious persecution of Christians in 
the Middle East has reached extreme forms of human degradation. 
In Sudan, for example, abundant reports by international human 
rights organizations have documented the enslavement by the 
northern fundamentalist forces of southern African Christians. 
According to the experts and to reports, there are today 
between 600,000 to 1 million black slaves from Sudan who have 
either been taken to the north of that country to work as 
domestics or sold in other Arab countries.
    Fourth is the authors of the persecutions.
    One religious group can act against another religious 
group. For Christians, this has been the case in Egypt, Sudan, 
Iran, Lebanon, Saudi Arabia, Iraq, and Pakistan. Of course, 
persecution can also be conducted by members of one particular 
group against other members of the same religious group on the 
basis of religious fundamentalism--against women and seculars 
in Algeria, in Afghanistan, and in Iran, of course; or racism 
in Mauritania. But this is not the topic of today's discussion.
    Persecution of ethno-religious groups, the Mideast 
Christians in particular, is conducted by legal governments--
Egypt, Iran, Lebanon, Syria, Sudan--or by organizations--the 
National Islamic Front in Sudan, the Front Islamique de Salut 
in Algeria, the Hizbollah in Lebanon, et cetera.
    Point number 5 is evolution. It is interesting to notice 
that under the cold war, the oppression of Christians was 
mostly, but not exclusively, conducted under pro-Soviet regimes 
in Iraq, Syria, Egypt, Sudan, and in the PLO-Islamic controlled 
areas during Lebanon's civil war. Since the Iranian revolution 
and after the end of the cold war, persecution has spread in 
most of the region's countries. Ironically, in the wake of the 
Arab-Israeli peace process, persecution has reached larger 
scales and was conducted with bolder ideological attitudes.
    Why is it happening, Mr. Chairman? There are four reasons.
    First is the historical pattern. Persecution of non-Muslims 
in the Middle East is deeply rooted in history, as Bat Ye'or 
has said. It is the result of 13 centuries of dominance by 
regimes which legally and politically discriminate against 
Christians.
    Ideological patterns exist, too. More recently, Christians 
have become a specific target of radical Islamic 
fundamentalism. The more political fundamentalism grows, the 
more Christians are persecuted.
    There is a regional pattern. In many cases, the increase of 
persecution is caused by regional government toleration and 
sometimes participation.
    The most important is international patterns. A less 
investigated factor is the American and Western political, 
intellectual, and moral abandonment of human rights policies as 
a priority. The less the United States intervenes in protecting 
the rights of Christians and others, the more these communities 
will suffer.
    Why is there a silence about it? The victims of the 
persecution in the Middle East are denied the right to raise 
their plight by their oppressors. While other minorities, 
amazingly, or non-state communities in the Middle East are 
allowed by their dominant regimes to express their cause, not 
one, single Christian community is able to articulate its claim 
and protest peacefully.
    Have you seen one Christian demonstration in the Middle 
East, just one? Never.
    Two, as indicated above, the victims of the persecution 
have little access to American and international press. While 
the dominant national-religious movements from the Middle East 
have easy access to TV, radio, and newspapers, Mideast 
Christians do not. Because they lack the resources to purchase 
time, to have department chairs in universities, or expensive 
lobbyists, their message is not getting out.
    Three, their problems are not ``convenient'' ones, either. 
Because of regional, diplomatic, and economic considerations, 
the causes of these persecutions are marginalized in the 
political and academic world of the United States.
    Finally, because of a variety of factors, including the 
above-mentioned, oppressed Christian communities in the Middle 
East did not, historically speaking, obtain a credible support 
from worldwide Christians.
    As a result of the factors I mentioned, grassroots of 
American churches and the general public in the United States 
are simply not aware of the persecutions and, therefore, cannot 
support these unknown and unpublicized causes.
    Finally, Mr. Chairman, what can the U.S. Government do 
about it?
    I would like to commend the current initiative which 
allowed this hearing to occur and other similar initiatives in 
Congress. I also commend President Clinton for forming a 
special advisory commission to investigate the subject and 
report to the White House.
    However, I believe the U.S. Government should take further 
steps. The U.S. Congress must, in my mind, (1) take the 
leadership on this issue and encourage the administration to 
take practical measures which would have effect in the region; 
(2) hold additional hearings and organize a conference on the 
rights of religious minorities in the region here in Congress. 
It is crucial that representatives of these communities will be 
invited to express their concerns. Invite the persecuted 
people.
    Third, and finally, we must legislate. We should legislate 
linkage between foreign policy issues, such as foreign aid and 
trade and human rights abuse. Those countries and organizations 
responsible for this persecution should be held responsible for 
their behavior.
    In conclusion, Mr. Chairman, the U.S. Government can act in 
order to save the lives and preserve the individual rights of 
millions of individuals in the Middle East. There is little 
hope for the 18 million Christians in the Middle East if the 
United States does not take a leadership role.
    Thank you.
    Senator Brownback. Boy, you make me grieve with the 
testimony that you put here in front of me about the extent and 
the breadth of what is taking place to people in that region of 
the world, or, for that matter, in many places around the 
world, but particularly in the Middle East, which is the 
subject of this hearing.
    Do I hear you correctly to state that the level of 
persecution of Christians is at the highest level in recorded 
history? Is that a correct statement?
    Ms. Shea. That is correct. Yes. This is the worst century 
of anti-Christian persecution in history.
    Senator Brownback. What level are we talking about total 
number-wise? I am hearing, unfortunately, so many numbers that 
you are putting out. What could the number be placed at of 
those being persecuted by death, or slavery, or torture?
    Ms. Shea. The century opened up with the massacre of the 
Armenians in Turkey. We then moved on to Stalinism, Maoism, and 
Nazism took its toll on Christians as well as Jews and some 
others. There is also Pol Potism. This has been a dreadful 
century.
    Right now the Catholic bishop of El Obeid province in Sudan 
has come out saying that there is genocide against the 
Christian population in the Nuba Mountains of Sudan. 1.5 
million people have died in the 10 year war there, a war of 
forcible conversion, by the way, and most of those people are 
Christians and non-Muslims.
    Senator Brownback. Currently, in 1997, are we experiencing 
now in the world the highest level of Christian persecution in 
recorded history--period?
    Ms. Shea. I don't know if this year so far is higher than 
any other previous year. But certainly we have seen an increase 
in this decade in the Middle East.
    One of the lessons absorbed by the dictators and tyrants of 
the world from the collapse of the Soviet Union was that it was 
the churches and the Christian community who helped to bring 
them down; that the Christian population of the then Soviet 
empire could never accept the notion that there was an absolute 
power called ``The Communist Party'' and that individuals did 
not have dignity and human rights. That is a very Christian 
notion there.
    So they have come to crack down on the churches within 
their borders during the 1990's. We see an increase in Egypt, 
and the last 5 years has been worse than the previous 20 years.
    The Sudan has a genocidal situation in the Nuba Mountains. 
There are slavery and massive human rights abuses in general.
    In Pakistan it seems to be on the ascendancy as well. In 
Iran there is a greater intolerance against Christians. There 
has always been intolerance against Baha'is, but so-called 
``People of the Book,'' Christians and Jews, had some 
protection under Iranian law. It does not seem that they have 
that kind of protection anymore.
    For Saudi Arabia, Amnesty International has documented that 
it has gotten worse since the Gulf War for Christians.
    Senator Brownback. So we are talking of millions in the 
Middle East being persecuted?
    Ms. Shea. We're talking about millions and we're talking of 
a downward trend.
    Senator Brownback. Currently.
    Ms. Shea. Currently.
    Senator Brownback. And it could be at the highest level 
ever.
    Dr. Phares.
    Dr. Phares. If we look at it from a historical point of 
view and in slow motion, yes, we are at the peak now.
    I would like to make just one note here. We should 
distinguish between individual persecution and ethnic-religious 
persecution. The Christians in the Middle East are oppressed 
under these two items.
    If you look at individual persecution, you have hundreds, 
by hundreds--the numbers are in the hundreds--of cases, 
separate cases, of either assassination, or jailing, or 
sentencing.
    If you look at the collective question, we are talking 
about the entirety of Christians in the Middle East. 18 million 
Christians are suffering--the same way the Muslims in Bosnia 
are suffering; the same way other communities worldwide are 
suffering politically.
    Senator Brownback. And you would consider all 18 million of 
the Christians in the Middle East being persecuted in some way, 
either by the regime or by the regime turning its head the 
other way and not noticing what is happening? All 18 million 
are being persecuted in some way or another?
    Dr. Phares. There were only two areas in the Middle East 
where Christians were able to practice freely. One was Lebanon, 
the second is Israel.
    Lebanon is gone in the 1990's, under Syrian occupation 
today. So there is no more Christian freedom in Lebanon. In 
Israel, the Christian community is too small and their problems 
are not of an ethnic background but of a religious background 
and political background. Therefore, there is no place in the 
Middle East, in the entire Middle East, where Christians can 
breathe freely. Therefore yes, I would agree with you.
    Bat Ye'or. I would like to stress that it is very important 
for the West that the Middle East should not become 
monolithically Islamic because the Middle East was the cradle 
of Judeo-Christian civilizations, mainly Christian, which had 
flourished there. The West should encourage the remnants of 
Christian and Jewish populations to remain--they are mainly 
Christian because the Jews have disappeared now from the Arab 
countries. The West, in encouraging those populations to remain 
there is, in fact, affirming that Muslims must respect the 
human rights and religious rights of the Christians. Otherwise, 
if Islamists will refuse these rights to Christians and Jews, 
they will threaten the liberty of the Western World also.
    So, in fact, we have to consider that it is in our 
interest, not only in the interest of those remnant populations 
but in our interest, to struggle for the respect of their 
rights.
    I would like to add also one word, that if the Christians 
have not expressed their sorrow and their grief in public, it 
is because they are afraid of terrorism and reprisals in their 
own country. It is absolutely forbidden for a Christian or a 
Jew to criticize any aspect of Islamic law. This is part of the 
blasphemy law.
    If they do so, they are condemned to death. So they are 
afraid of criticizing the regime under which they are living.
    Senator Brownback. The other thing that is so striking 
about it, that is so stunning, is the silence on our part. It 
is almost stunning if you think of the numbers that we are 
talking about and the horridness of the crime. You are talking 
about slavery, child slavery, and murder taking place. And yet 
the deafening silence really is absolutely striking.
    Are we embarrassed to raise this?
    Bat Ye'or. Yes.
    Senator Brownback. Do we have too many commercial interests 
at stake?
    Bat Ye'or. It is an ideological problem, because the 
Western World has turned away from its Judeo-Christian roots; 
and we have seen it from the beginning of the century with 
Communism, then with Nazism, then with the trend of 
Islamization, which is very strong in Europe and which has led 
to total censorship on all the suffering of the Christians 
under Islam because the focus was only on anti-Zionism in the 
media and in the policy of European states.
    So criticizing the Arab countries with which Europe was 
allied would undermine this alliance with Arab-Muslim regimes. 
Therefore, the Christian communities, unfortunately, were 
abandoned through this policy, this anti-Zionist policy, which 
in some ways was anti-Jewish.
    Dr. Phares. Mr. Chairman, in answering your question I 
would like to say it is an organized silence. There are many 
walls that suppress the voices of those who are suffering, and 
if you do not hear these voices, then you cannot act or react.
    The first wall is in the regimes. Have you ever seen a 
Christian persecuted in the Middle East being interviewed on 
CNN? When you have incidents in the West Bank, when you have 
incidents in any other region in the Middle East, you have the 
victim interviewed, the son-in-law, the father, and the 
grandfather. When you have massacres in Egypt, CNN does not 
even mention it nor does the major media. It is only lately, 
when the New York Times and other brave voices are starting to 
talk about it that now you are holding these hearings.
    So you have this wall from the Middle East. We have another 
intellectual wall here. The academic community is not 
responding. It is their moral and intellectual duty to address 
these issues and they are not.
    Third, the third wall is the U.S. Government. Of course the 
U.S. Government is under the pressure of not raising these 
issues. I heard the report of the State Department--an 
excellent report--I would like to mention this.
    It is not just a question of getting some people out of 
jails in the Middle East. It is a question of getting nations 
out of captivity. We are talking about a major, Biblical-sized, 
from a historical point of view, cause.
    Senator Brownback. I want to reiterate my statement at the 
outset, that this hearing is not here to blame any particular 
religion, not here to blame Islam at all for any of this. It is 
to notice what is taking place and that much of it is 
governmentally sponsored in a region. As I read and as a number 
of you have testified, Islam is a very peaceful and loving 
religion as well.
    Let me ask you this. Do we need symbols of what is taking 
place? Do we need an Alexander Solzhenytsyn? Do we need a 
person there to symbolize what is taking place to so many? Is 
the problem because there are so many there is not a face to 
it?
    Ms. Shea?
    Ms. Shea. I don't think that is the problem. We know of 
cases. There are symbols. There is Salamat Masih, a 12 year old 
Christian boy in Pakistan who was charged with blasphemy with 
absolutely no evidence. This was a couple of years ago. His 
case became well known, because one of his co-defendants was 
gunned down in the streets after they emerged from a court 
hearing. He survived that attack with some wounds, went on, got 
convicted, and there is a mandatory death penalty for 
blasphemy.
    Again, there was no evidence. The imam who charged him with 
the crime refused to repeat what the alleged blasphemy was. 
There were no witnesses, and he claimed it was some kind of 
blasphemous graffiti, and the kid was semi-illiterate.
    Anyhow, under international pressure he was eventually 
acquitted of the crime. But then radical Islamists within 
Pakistan put a $30,000 bounty on his head, and the 12 year old 
fled into hiding, to live in Germany where he lives today.
    This is directly parallel with the Salman Rushdie case. We 
know about this child. We have his picture. We have film 
footage. CBN had film footage of his court hearing. But for 
some reason it does not catch on.
    In fact, I think the reason was well articulated by Richard 
Land, President of the Christian Life Commission of the 
Southern Baptist Convention. He said that too often people in 
the West, peering through the selective prism of Christian 
history in the West, reflexively think of Christians as the 
persecutors rather than as the persecuted, and, further, an 
increasingly secularized West and its leadership elite tend to 
be indifferent and often uncomprehending of a spiritual world 
view, which endures persecution and death for the sake of 
belief.
    We just cannot comprehend that anymore in the West. It is 
the old example of the young man in front of the tank in 
Tiananmen Square, who was recognized by the West, rightly, as a 
hero, a hero for democracy. But if a person were to lay down 
his or her life for Jesus Christ, for the Bible, he would be 
considered a fanatic, crazy, and as not worthy of our 
intervention.
    But there is no dearth of individual cases. We know about 
them.
    Senator Brownback. But do you not make my point, perhaps, 
which is I don't see, as you described this young man, I don't 
see his face coming up in my mind. Is it that we need to have a 
face?
    Ms. Shea. That is because our media elite don't pick it up 
and our political leaders don't pick it up. If President 
Clinton were to pick up that case and were to talk about it, or 
Mrs. Clinton, people would know about it.
    Senator Brownback. I think maybe that is my point, that we 
need to pick out faces in the crowd to make them symbols of 
what is taking place in our broader cross section.
    You all have been very instructive to me. I hope that you 
will be willing to work with us on this committee to identify 
perhaps some who are persecuted throughout the region of 
various faiths that may be willing to come forward and testify 
so that we can get their clear story and put it in front of the 
American people and, hopefully, in front of the world 
community.
    You each have done your job in doing that and I greatly 
appreciate it, from the writings that you have done, from the 
speaking and the study that you have put forward. Also, as we 
consider legislative action, please apprise us of your ideas. 
Particularly, Ms. Shea, I think of your comments on asylum laws 
and some things that we may be able to do in that particular 
area. I took note of that.
    This is the first of a number of looks at this and work in 
this area.
    Thank you all very much for coming. Thank you as a panel.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee adjourned.]



             RELIGIOUS PERSECUTION: FACES OF THE PERSECUTED

                              ----------                              


                         TUESDAY, JUNE 10, 1997

                                       U.S. Senate,
     Subcommittee on Near Eastern and South Asian Affairs, 
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 2:06 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback, chairman of the 
subcommittee, presiding.
    Present: Senators Brownback and Robb.
    Senator Brownback. I would like to welcome everyone to this 
hearing on religious persecution in the Middle East. Our 
hearing today will focus on the faces of the persecuted. In 
addition to witnesses who have dedicated their lives to the 
betterment of the lot of oppressed Christians, we have a few 
witnesses today who will provide first hand testimony to the 
persecution they have endured for their faith.
    We greatly appreciate the courage of these witnesses in 
speaking out. They do so at potential risk to themselves and 
their families and yet they remain committed to getting out 
word of the persecution being perpetrated in their countries.
    Indeed, this is a subject that for too long has remained 
unnoticed or deliberately ignored. But silence has only served 
to give free rein to the persecutors.
    Today's hearing is the second one on this subject held by 
this subcommittee and we are planning more. This is a subject 
about which--unfortunately--there is much to say.
    After the last hearing I chaired on religious persecution, 
I received critiques to the effect that our hearings deal only 
with Christians. I would like to say that this hearing, like 
the last one, is one of a series that this subcommittee will be 
holding. Future hearings will not only focus on the persecution 
of Christians but also that of other religious minorities in 
the Middle East.
    As I mentioned at the last hearing, I believe that as 
Americans, we have a unique obligation to speak out against 
religious persecution. The right to freely practice the 
religion of one's choice is a freedom central to our republic. 
We must not fail to defend a principle that our founding 
fathers viewed as fundamental to our democracy.
    We have Dr. Bennett, who is co-director of Empower America, 
who has done a number of very good things for the United States 
on cultural renewal and cultural reform and has now taken up 
the picture and the issue of religious persecution who will 
soon be holding a forum through Empower America on the issues 
of religious persecution.
    He is joined by Senator Joe Lieberman, and Joe and I have 
been kidding each other about whether he is becoming a 
Republican or I am a Democrat. We agree on so many issues any 
more that it gets embarrassing to both of us. But he has spoken 
out strongly as well on the issue of religious persecution.
    So, we are delighted to have them as a panel laying out 
this issue first to us overall, and we appreciate them coming. 
As I understand by previous agreement, Senator Lieberman, you 
have some other obligations you need to go to and so we would 
put you forward first and invite your testimony in front of the 
committee. Thank you for being here.

   STATEMENT OF HON. JOSEPH I. LIEBERMAN, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Lieberman. Thanks very much, Mr. Chairman, for your 
kind introduction, for your interest in this problem, and I am 
delighted to be here and share this table with my friend and--
well, occasionally I refer to him--I hope he does not mind--as 
my rabbi, Bill Bennett.
    Secretary Bennett and I, under the sponsorship of Empower 
America, as you indicated, recently committed ourselves to lead 
an effort to raise public awareness about ongoing religious 
persecution around the world. These hearings that you have 
chosen to hold are a welcome and very important step toward 
addressing this very serious problem by raising public 
awareness of it.
    I am very grateful for the opportunity to speak about those 
who literally today around the world are dying for their faith. 
The fact is that in too many corners of the globe innocent men, 
women, and children are being suppressed, tortured, imprisoned, 
and murdered simply because of their religious beliefs. They 
number at least in the thousands, perhaps in the tens and 
hundreds of thousands. The persecution they suffer is familiar 
and it is often fatal.
    It did not stop, sadly, with the defeat of Nazism or the 
cease-fire in Bosnia. It goes on today. The fact is it goes on 
today mainly targeted against Christians and mostly occurring 
in a few remnant communist countries in what I would describe, 
choosing my words carefully, as fanatical Islamic states. In 
fact, it seems to be gaining strength as the millennium 
approaches.
    Some of the most awful persecution is being perpetrated 
against, for instance, Coptic Christians in Egypt, the Bahais 
in Iran, and Christians in Sudan, Saudi Arabia, and other parts 
of the Middle East, that region which this subcommittee you 
chair focuses on.
    According to knowledgeable observers, including Amnesty 
International and the U.N. Special Representatives, and as 
documented by Nina Shea of Freedom House and others, the 
persecution of Christians and others who refuse to convert to a 
fanatical brand of Islam is on the increase in too many 
countries in the Middle East. While much of the evidence is 
anecdotal--these governments, after all, are not anxious to 
catalog and share this damning information--it is nonetheless 
compelling.
    Where we can quantify this problem, it is shocking enough. 
For instance, we have enough evidence to conclude that in Saudi 
Arabia more than 1,000 Christian expatriates have been arrested 
and imprisoned since 1990 for simply participating in private 
worship services. And where we can only describe it without 
quantifying it, it is a call to action, branding Christian 
children in Sudan, driving Copts from their homes in Egypt, 
beating and then murdering evangelical pastors and Bahais in 
Iran.
    But the question will be asked naturally, why should we 
care? Why should this subcommittee care? Why should you as 
chairman of this distinguished subcommittee care?
    I think the answer is contained in what you suggested in 
your opening remarks. We Americans cannot help but be repulsed 
by the kind of savagery that turns faith into a death sentence. 
Our Nation was founded by religious people seeking freedom to 
follow their faith. Their political vision, as expressed in the 
Declaration of Independence and the Constitution, was based on 
their spiritual conviction that freedom and especially freedom 
of religion is an endowment from our creator, not a gift to be 
granted or taken away by governments. This is at heart of what 
it means to be an American, and it has to be at the heart of 
what it means to be America, a nation leader of the world. As 
Americans we have a unique obligation I think to speak out and 
to act against religious persecution wherever we find it.
    We are here to ask you to help put an end to this tragedy. 
Persecution of people of faith must stop and America by her 
very nature and convictions must lead the effort to stop it.
    Raising public awareness, which is what we are about here 
today under your leadership, will clearly do part of the job, 
and so will energizing the churches and synagogues and temples 
of the United States to stand up and cry out against the 
persecution of our brothers and sisters around the world.
    Part of the effort we must make is to collect reliable 
information about this issue and to disseminate it widely. We 
need to marshal the facts here, to get them reliably, and then 
to make them known.
    But public awareness is not enough. We also need to make 
sure that the many arms of our Government become more actively 
involved in this fight to put it at the center of our relations 
with the countries of the world in multilateral and bilateral 
discussions from the President and Secretary of State to 
Ambassador or a consular officer or an INS inspector or even 
intelligence analyst. We need to make sure that the people who 
set and enforce and implement our foreign policies understand 
that one of their priorities must be to take seriously these 
claims of religious persecution and thereby to help stop the 
flow of innocent blood.
    Congress needs to establish that expectation through 
hearings of this kind and, if necessary--and I believe it will 
be--through legislation. The legislation introduced by Senator 
Specter and Congressman Wolf is a very strong and comprehensive 
beginning in that regard.
    Mr. Chairman, finally I believe it was Ambassador Paul 
Wolfowitz who suggested a while ago that the main goal of our 
foreign policy in this hour of our history should be to make 
sure that the 21st century is not a repeat of the 20th century. 
Two World Wars, a cold war, several genocides, and a host of 
smaller conflicts makes the last 100 years among the bloodiest 
in our history, although in many other ways it was a glorious 
century for this country.
    A frightening number of the victims of the 20th century 
have been perversely singled out because of their faith. In 
fact, according to reports that I have seen and believe, more 
Christians have died because of their religious beliefs in the 
20th century than in the first 19 after the birth of Jesus.
    For too long the world has ignored the plight and pain of 
these victims. It is time now for us to make clear once again, 
if I may paraphrase the words from Genesis, that God spoke to 
Cain that we in fact do hear the blood of our brothers and 
sisters crying out from the ground. It is time for us once 
again to embrace our most fundamental values and to put an end 
to the innocent suffering of the faithful.
    Mr. Chairman, I thank you for the leadership role that you 
are playing in that effort.
    Senator Brownback. Thank you very much, Senator Lieberman 
for your testimony, and I look forward to some questions here.
    Dr. Bennett, thank you very much. You honor the committee 
by joining us and by being willing to be here as well today, 
and the microphone is yours.

  STATEMENT OF HON. WILLIAM J. BENNETT, CO-DIRECTOR, EMPOWER 
                   AMERICA, WASHINGTON, D.C.

    Dr. Bennett. Thank you very much. Mr. Chairman, I want to 
thank you as well for convening this hearing or meeting, 
whatever you determine it will be. It is very thoughtful of 
you, and as I will say several times in the next 4 minutes of 
my remarks, attention must be paid, and this is a very good 
place to start.
    I am delighted to join my friend, collaborator, colleague, 
Joe Lieberman again. I am delighted to be called his rabbi, 
though I am not worthy. The other day, after I finished a 
speech, someone came up to me and said, ``I knew you were 
Catholic, but I did not know you were that Catholic.'' I will 
now tell that person that I am your rabbi just to add further 
to the confusion. But we appreciate the ecumenical nature of 
this get-together.
    As far as you and Joe Lieberman collaborating so often that 
it is becoming indistinguishable, let me suggest that this is 
not only very good for each of you, it is also very good for 
the country. Where Joe Lieberman and Sam Brownback meet might 
be a very good place for the country to be, and we may want to 
think about that as the next couple of years unfold.
    I will be very brief. Could I ask, Mr. Chairman, if we 
could present the advertisement that Senator Lieberman and I 
made? It has now played. It has played some in different parts 
of the world. It has played principally in the United States, 
and we went to some trouble to present it. It will set up my 
remarks. If we could. It lasts 1 minute.
    Senator Brownback. Yes, please. [Videotape shown.]
    Dr. Bennett. Many people are playing many parts, Mr. 
Chairman, in this drama, attempting to get this story told. I 
think Joe would agree with me that in many ways our part is the 
easiest. There are people who are surviving this story and some 
who are not, suffering persecution daily, people who are dying 
for their faith, people whose names we do not know, names we 
may not ever know, and they are indeed the real heart of this 
story.
    Second, there are people who have worked long and 
anonymously in the vineyards on this issue, trying to identify 
it, trying to bring it to people's attention, trying to 
persuade a sometimes indifferent, even hostile world of the 
nature of this. In a few minutes you will get to the important 
part of the proceedings, which is talking to some of them, 
people behind me to my right and to my left. To stay with the 
religious allusion, I see our angel Michael here on my left 
shoulder who has been one of those people who has been so 
laboring.
    Joe Lieberman and I come to this late, and we admit we come 
to it late, but we hope, coming to it late, we have at least 
tried to come to it loud. We have tried to raise our voices as 
best we can using whatever microphones or megaphones or means 
we have at our disposal, and one of the great means is this 
hearing today. Again, attention. Attention must be paid.
    It was Lincoln who said that if you have public opinion on 
your side, you have everything. Get the public opinion of the 
American people and your answer will be found.
    Our job, as Joe Lieberman and I see it, is to try in 
whatever way we can that seems sensible and hopeful to bring 
the message, to bring the word of this tragic and horrible 
story to the American people. In this we are aided by the 
people from whom you will soon hear. Indeed, without them we 
would have nothing to say.
    It seems to me that in all the things that compete for the 
attention of the American people, there must be some sorting 
out. People must decide what merits attention today, what can 
wait till tomorrow, what can wait till next year, what can be 
deferred and what deserves attention immediately.
    Saint Augustine talks about the ordo amorum, the order of 
the loves. It seems to me in the ordo amorum of today, there 
can be no higher priority. Much competes for our attention but 
little, it seems to me, could compete in terms of importance 
with the issue that we address today.
    The blood of the faithful is being spilled around the 
world. It is an offense not only to the law of God and to the 
law of man, but to every reasonable person wherever he or she 
may live. It cries for justice. It cries for punishment in many 
cases, and it cries for resolution.
    There are three main targets, it seems to me, as we go 
forward in our deliberations. I will just mention them briefly.
    One is the media. One of the ways we get stories told in 
this country is for them to be told not one at a time, but 
through the mass media. It has been difficult frankly, Mr. 
Chairman, to get this story out. We have not been as successful 
as we would like in getting this story on the TV screens of 
America and in the newspapers of America. There are some 
notable exceptions, but it seems to us more efforts must be 
made.
    We do not suggest an order of the Government. That would 
not be appropriate. That would not be right and certainly would 
not be constitutional. But what we would ask of the media is to 
look at the various things in their day book this week and next 
week and the week after and decide how they stack up in 
importance to this question.
    Second is the political realm and there we would urge the 
President of the United States, we would urge your colleagues 
in the Senate and House to take up this issue, to have more 
hearings, to bring in more testimony, and to make this issue an 
ingredient in the discussions that we have with our Ambassadors 
with representatives from other nations, with the heads of 
other nations, and to make it part and parcel of all our 
deliberations on the international front.
    Third, of course, is the churches. This issue must be 
spoken out from the pulpit, the real pulpit, by those in 
position of authority. The faithful must come to the aid of the 
faithful around the world who are suffering for that faith, and 
we think in the end that will be the most important, the single 
most consequential kind of action that we can take.
    Then finally just to come full circle, it is the American 
people, led by their political leaders, informed by the media, 
and instructed and counseled by their religious leaders as to 
what to do who will in the end I think take up this issue and 
see to its resolution as best they can.
    It is in Death of a Salesman that Linda Loman says to her 
two boys about their father, ``boys, attention, attention must 
be paid.'' Again, it is a world where so many things cry out 
for our attention. All of us have priorities. All of us have 
issues. All of us have things we need to do, but as we sort 
them out, can we fairly say, can we honestly say that there are 
many things more compelling and more demanding for our 
attention resolution than the problem we present to you and 
others will present to you more eloquently today? ``We hold 
these truths to be self-evident that all men are created equal 
and endowed by their Creator with certain inalienable rights.'' 
That is not just something of 200 years ago. That issue is a 
life and blood issue today.
    Thank you very much.
    [The prepared statement of Senator Lieberman and Dr. 
Bennett follows:]

           Prepared Statement of Senator Joseph I. Lieberman

                       and Dr. William J. Bennett

    Mr. Chairman and Members of the Committee:
    It is a pleasure to address this Committee on a subject of enormous 
importance. We commend the Committee decision to focus attention on 
this issue, and the commitment expressed by some Members to find ways 
to combat this widespread and terribly underreported problem of 
religious persecution.
    More persecution of religious believers has taken place in this 
century than in any other. And instead of abating, the problem is 
intensifying. We are not talking about ``persecution'' as many 
Americans think of it (i.e., as biased or unfavorable news coverage, or 
ridicule of conservative Christians); we are talking about unspeakable 
acts of horror, including the imprisonment, slavery, starvation, 
torture and murder of many thousands of people. The vast majority of it 
is directed against Christians.
    There are, of course, less gruesome but still serious forms of 
persecution. Paul Marshall, author of Their Blood Cries Out, has 
written that around 200 million Christians are suffering the denial of 
the basic human right of religious freedom and live under the threat of 
violence if they practice their faith. Other persecuted groups include 
the Bah'is in Iran and Buddhists in Tibet and Vietnam, among others. 
According to the International Campaign for Tibet, growing numbers of 
monks and nuns who have protested religious expression have been 
arrested and tortured. In Iran, Baha'is are denied the right to 
organize and worship, and as ``unprotected infidels'' have no legal 
rights.
    These are some of the terrible realities of the late twentieth 
century. Unfortunately, the issue has been largely ignored by much of 
the political class, by mainstream journalists, and by many churches 
and religious institutions. Indeed, with a few honorable exceptions, 
virtually no attention has been paid to this issue.
    What accounts for this indifference? One explanation is that there 
is a reluctance among some people in influential positions to rally 
public opinion behind the issue of Christian persecution. To many 
opinion-makers in this country, there is a little sympathy for 
Christians as an oppressed group. They are not de rigueur. Other 
religious faiths do not have the influence to make their concerns 
known. Religious suffering is therefore neglected in ways that other 
kinds of suffering are not.
    Today, many people look back at past generations and wonder how 
they could passively allow terrible atrocities to go unchallenged. But 
of course it is easier for us to muster condemnation against past 
generations than it is to muster moral resistance to present evils. 
Ultimately, however, we must answer for ourselves. And we cannot say 
that we do not know, for we know quite a bit.
    We know, for example, that the worst religious oppressors include 
China, Cuba, Egypt, Laos, Nigeria, North Korea, Pakistan, Saudi Arabia, 
Sudan, Uzbekistan and Vietnam. According to Nina Shea of Freedom House, 
Sudan is waging a jihad against its Christian and non-Muslim 
population. Christians in southern Sudan are sold into slavery; 
Catholic Bishop Macram Max Gassis from the Nuba mountains has 
determined that Khartoum's campaign against the Christians in his 
diocese has reached genocidal proportions. Egypt's Christian Coptic and 
evangelical community is the target of violent aggression by Muslim 
extremists. Between 60 million and 100 million Christians in China 
violate government edicts by worshipping in underground ``house 
churches.'' Since 1979, more than 200 Baha'is in Iran have been 
executed because of their religion. And there is much more.
    Recently we have begun a campaign with our colleague Jeane 
Kirkpatrick, under the auspices of Empower America, to draw attention 
to these and other examples of worldwide religious persecution. We hope 
this campaign, combined with the efforts of others, will help make this 
issue a prominent part of our national political debate. For 
philosophical and historical, as well as humanitarian reasons, this 
subject deserves our concentrated attention. This republic, after all, 
was founded on the self-evident truth that ``all men are created equal, 
that they are endowed by their Creator with certain unalienable 
rights.'' These are not just words; they are the American creed. When 
these ``unalienable rights'' are systematically violated, abroad as 
well as at home, we have a moral obligation to speak out. And because 
many of the first immigrants to set foot on American soil came to this 
nation in order to seek refuge from religious persecution, it is an 
issue to which we should be particularly sympathetic.
    What, then, should be done? We recognize that there are intrinsic 
limits to what the United States can do to influence the internal 
policies of other nations. At the same time, there are practical, 
concrete actions available to the world's mightiest nation. We need to 
press the many arms of our government to become more actively involved 
in the fight against religious persecution. In multilateral and 
bilateral discussions, from President to Secretary of State and 
Ambassador, to consular officer, INS inspector, and intelligence 
analyst, we should insist that the people who set and execute our 
foreign policies understand that one of their priorities is to take 
seriously claims of religious persecution. Right now, that is not being 
done. Ambassadors and diplomatic officials should meet regularly with 
church and religious leaders. There should be comprehensive and updated 
reports on religious persecution. And where appropriate and effective, 
we should restrict trade and non-humanitarian aid to nations that 
sponsor religious persecution.
    President Clinton would do tremendous good by delivering a major 
address on the problem and significance of religious persecution. When 
a president uses the ``bully pulpit'' to name names and cite specific 
examples, it has the effect of concentrating the mind of persecuting 
nations. Consider the remarkable influence Ronald Reagan exercised when 
he uttered two simple words: ``evil empire.'' We should not hesitate to 
speak truth to power, and to tyrants.
    We also need to energize the faithful themselves. They--we--are the 
natural American constituency to support a sustained campaign against 
worldwide persecution. The churches, synagogues, and temples of the 
United States have the resources and the moral authority to lift their 
congregations to the challenge. Religious leaders should speak out 
publicly on this issue; they should maintain contact with overseas 
believers who are persecuted, and regularly inform their congregations 
of the state of persecution abroad. And we should regularly pray for 
those enduring the real cost of discipleship.
    Finally, we need to educate and illuminate, to let the American 
citizenry know what is happening. Here the media are critical; they are 
the ones who do so much to determine the issues that we talk about and 
care about. We hope the media pursues this story with the same 
intensity they pursued the story of apartheid in South Africa, or human 
rights violations in Central America, or, say, the ``coming out'' 
episode of the television comedy ``Ellen.'' Attention must be paid.
    In the fourth chapter of Genesis, the Lord asks Cain, ``What have 
you done? Listen. Your brother's blood cries out to me from the 
ground.'' Today, in many parts of the world, the blood of Abel's 
descendants still cries out from the ground. Do we have the ears to 
hear? Do we have the courage to act? Now, as then, these questions need 
to be answered.

    Senator Brownback. Thank you, Dr. Bennett, I appreciate 
that testimony, and yours, Senator Lieberman, as well.
    One thing that I was struck by, when we held the first 
hearing on this, is the thousands of people that have been 
murdered last year, and it just did not seem like there was 
anything out there on it or that anybody even noticed that any 
of this was going on. I was just struck by the amount of 
silence for how long.
    I guess I am searching with this as to why has there been 
silence for so long, and working with you, how do we break 
through that silence? Hearings are one thing. Are there others 
that you see? You both have worked on issues of forming public 
opinion which seems like part of what this is about. If you can 
identify other specifics of what we can do in Congress using 
the pulpits that we have to try to get these issues on forward. 
Would you care to address that? Why the silence for so long?
    Senator Lieberman. Part of the problem here I think, Mr. 
Chairman, is that some of the worst perpetrators of persecution 
based on faith are dictators or despots who are running closed 
societies, so the proverbial CNN cameras do not get in there. 
Reporters do not cover it too much. So, that is a real problem 
and we have to try to break through it.
    The other problem is--people in the media have been 
extremely courageous when they have been motivated to do so. 
Part of what I think we want to say here is that there is a 
story that has not been told. There is a need for some 
aggressive reporting to bring the truth back to the United 
States and the rest of the world from these closed societies. 
Maybe in some sense it was not fashionable. I do not know why, 
but it is a desperate situation. And you are right. Thousands 
of people are suffering or being killed as a result of it.
    Part of what I hope we can do, and again maybe with the 
leadership of this committee, is to push the agencies of our 
Government to be aggressive themselves in seeking out the truth 
and assembling that information and disseminating it. That may 
include not only the formal diplomatic branches, but 
intelligence analysts as well to get them into the business of 
preparing reports on persecution based on faith and then 
publishing reports on a regular basis to Congress and to the 
public.
    Those are two thoughts that I have about why this is 
happening.
    The other part of it is a lot of us just have not known. 
What Bill said before--Mike Horowitz who is here, Nina Shea, 
these folks have issued a clarion call. They have opened our 
eyes. They have shown us something we had not seen. They have 
made us listen to cries that we had not heard. Now it is our 
obligation, having seen and having heard, to echo their cry 
until something is done about this.
    Dr. Bennett. I think there is some laziness on the part of 
the media born of indifference. That is the only account I can 
give.
    At the press conference that Joe Lieberman and I had on 
this, a member of the press said--a perfectly good question--
well, you have talked about the Sudan, but we hear from people 
in the Sudan that it is not a problem. What do you say to that? 
Well, there is a lot to be said to that, but I think the real 
answer is go. Go and find out.
    If we were talking about South African apartheid, when that 
was going on, many Afrikaners said things are fine here for 
blacks. There is no problem. What was the media's response to 
that? They went on their own.
    If you had one case reported of one more case of sexual 
harassment at an Army base, the press would be there in force, 
as they should be.
    If you had an incident of racial bigotry or of defamation 
or vandalizing a synagogue, the press would be there, as they 
should be.
    Well, why when we hear reports of 50,000 or 60,000 or 
100,000 people killed, is the press not in its busy and 
aggressive and nosy way that it can be--we all know that. We 
have all experienced that--getting into those places and 
finding out?
    This country--what--3 months ago, 4 months ago, whenever it 
was, a large part of this country watched Schindler's List on 
television and said, never again, never again. Now, I am not 
suggesting what is going on now is of that scale because it is 
not of that scale, but when you are talking about the kinds of 
numbers we are talking about, when you are talking about 50,000 
deaths perhaps, 100,000 deaths of Christians, you are not 
talking about something that is an inconvenience. You are 
talking about something that is real and present and must be 
addressed.
    Again, what is the answer? Go there. Look. Talk to people. 
Bring back the pictures. Bring back the stories. Let us have 
debate about this topic.
    I finally got some reaction. I was on CNN, which Joe 
referred to, the other night on the news, and talked about some 
problems in Saudi Arabia where Bibles are not allowed and other 
things, and I heard from some friends, or maybe former friends, 
from Saudi Arabia about this. So, I think we need to push.
    Flannery O'Connor said once you need to push as hard as the 
age that pushes against you, and this age, in terms of 
religious persecution, is pushing pretty hard. We need to push 
back pretty hard.
    Senator Brownback. Legislative vehicles?
    Senator Lieberman. Well, I mentioned before, Senator 
Specter and Congressman Wolf have legislation which I have 
spent some time working on and discussing with them. A real 
good beginning I think. I hope that Mike Horowitz can talk to 
you more about it. He has worked on it. I hope that perhaps 
this committee--did it go to this committee? It was sent to a 
number of committees, but perhaps this is the appropriate one 
to take the lead on this with a series of requirements for fact 
determination and then a series of sanctions.
    I think it is time to put this concern into law as a 
measure of our seriousness.
    Senator Brownback. Dr. Bennett, you would agree with that?
    Dr. Bennett. Yes, absolutely.
    Senator Brownback. Gentlemen, thank you both very much for 
coming. Sorry about the inconvenience as to what we call this. 
But the important thing frankly I think, as both you 
identified, is we have just got to get some visibility to this 
so people understand the clear and present issue that this is, 
and we have turned our head the other way for too long. So, 
thanks for stepping up. Thanks for the commercial. I hope it 
gets lots of airings across the country.
    Dr. Bennett. Thank you, Mr. Chairman.
    Senator Brownback. The second panel will be Mr. Michael J. 
Horowitz. He is a senior fellow at Hudson Institute, 
Washington, D.C., has been an outstanding educator of what has 
taken place in this field and on these issues as well. Along 
with him will be Father Keith Roderick. He is with the 
Coalition for the Defense of Human Rights out of Illinois. 
Father Roderick will also be testifying in this panel.
    Gentlemen, I am looking forward to your testimony. You are 
both well known advocates and, as I say, educators of the 
American public about what has taken place in these areas 
regarding religious persecution. I do not know if the two of 
you have agreed upon an order of presentation. Mr. Horowitz, I 
look forward to your testimony and some questioning afterwards. 
Thank you for joining us.

    STATEMENT OF MICHAEL J. HOROWITZ, SENIOR FELLOW, HUDSON 
                  INSTITUTE, WASHINGTON, D.C.

    Mr. Horowitz. Thank you, Senator, and thank you for 
conducting the hearing today, the second in a series that you 
have conducted. As I said in my prepared testimony, one of the 
reasons I have a sense of optimism--an important reason--is 
that we have got a young Senator, sure to be a leader in the 
Senate for years to come, whose feelings on this are those of 
implacable hostility to the kind of persecution we have been 
talking about.
    I want to give this testimony on an optimistic note, 
because while it is possible to talk about how little has 
happened--I have earned what gray hairs I have in 20 or so 
years in Washington--I have never seen a movement come so far 
so fast as this one has. We are not much more than a year, year 
and a half or so from the time that some of us started to make 
a blaze of the flames that were just barely flickering, lit by 
the human rights advocates like Father Roderick over years when 
nobody did listen. The fact is the country is listening.
    I think I would like to start my brief remarks, Senator, by 
addressing, if I may, the question you put to Joe Lieberman and 
Bill Bennett, why the silence to date. Silence is always there 
or there is a period of time before the terms of national 
consciousness, the terms of any national debate on great 
subjects begin. Nobody can wave a wand and make it happen 
overnight for nothing.
    But we have had to saw some wood before we could get to the 
point now, and it is a point, Senator, where there is a prairie 
fire of passion within the Christian community. You do not see 
it reflected in the front pages of the newspapers, but they are 
not indicative, as we know from elections and lots of other 
respects, sadly, of what the country is feeling, what it is 
thinking, and most importantly where it will shortly be going. 
That level of interest is extraordinary and growing and growing 
by orders of magnitude.
    To put it simply, I think the American Christian community, 
whatever it is, the 30 percent of the American electorate, is 
in the process of raising the issue of Christian persecution as 
perhaps one of the two or three signature issues that define 
this movement. And it is very exciting for the Christian 
community because this issue is one that elicits followership 
and gratitude from the rest of the country. The feedback has 
been extraordinary, thereby building up the confidence of this 
community, that if they say something, people will listen.
    That really brings me to the point of responding to your 
question. I think when some of us began this a year, year and a 
half ago to start to blow the trumpets, there were two problems 
we confronted. The first was in the media itself there is this 
caricature view of who Christians are. Are they not the ones 
who burned people at the stakes? Are they not the retrograde 
bigots? We do not like them much. They are not our kind of 
crowd.
    They also could identify with the kid in front of the tank 
at Tiananmen Square as a symbol of bravery, but if you told 
them that there were people who were daily risking exactly the 
same kinds of threats and tortures for witnessing a belief in 
Christ and going to church on Sunday, they would look at you as 
if you were wrong because they did not know anybody of that 
kind, and if they did, they thought that these people probably 
brought it on in some way themselves.
    So, separating the blind from the bigots about who 
Christians are and what Christianity is has been an important 
task. I can tell you, Senator--and you know this--the blind 
overwhelmingly outnumber the bigots and we are opening up their 
eyes.
    The second thing I think we had to do was generate a 
measure of self-confidence within the Christian community, that 
they could ask on behalf of their own, and that if they did, 
they would not be caricatured; and that if they did, the people 
in the pulpits and the ministers and the people in the pews 
would follow. There was some fear that if the trumpet blew, 
nobody would respond and it might make matters worse.
    I think that we now know that that is not so, that the 
ministers, that people, whether it is on the Christian radio 
shows or in a whole variety of ways, are hungry for information 
and for some leadership, some sense of where to go and how to 
make non-utopian, reasonable demands that our Government could 
meet that would begin to turn this one around and impose 
impossibly high prices on the thug regimes who were murdering 
their fellow believers.
    So, we have cleared the field, as it were, over the year, 
created the hunger for information and for action on the part 
of the American Christian community and begun to open the eyes 
of the major national media so that you now begin to see 
interest. You have been around, Senator. I have in my own way 
been around. I have seen stories develop from nothing to front 
page stories. This cannot miss. It is happening now and it is 
going to happen, and they ain't seen nothing yet because this 
is a story that touches us in terms of who we are as a people, 
what our history is, and the one point I wanted to make in this 
testimony, our self-interest as well is very much implicated by 
this whole undertaking.
    Now, I want to give a couple of indices. I just want to say 
that as one looks at the indices of what is happening here, 
leadership like yours, like Bill Bennett's, Joe Lieberman's, 
much of it began with a very eloquent statement issued by the 
National Association of Evangelicals about a year and a half 
ago, a statement of conscience, again to give a sense of how 
this can be a bridge that will unite Jews and Christians and 
others in this country. If you believe in miracles, Senator, 
here is a statement of the National Association of Evangelicals 
that has been adopted not only by the Southern Baptist 
Convention but by the Episcopal and the Presbyterian churches. 
That is an index of where we are headed and the unity that is 
theirs. This issue has been posed.
    The other thing that is exciting is this little explosion 
of books and articles. None of them make the establishment 
media's best seller list yet, but the book by Paul Marshall, 
referred to in today's Abe Rosenthal column, Their Blood Cries 
Out, is shaking up matters. If and as this book sells, as I 
expect it to, in the hundreds of thousands of copies, ministers 
will not know peace in their pulpits from their own congregants 
unless they address this issue and deal with it.
    We have talked about the Wolf-Specter bill, and I expect, 
by the way, Senator, on this there is a timing issue that is 
taking place. This issue of Christian persecution is being 
debated in the context of the MFN China matter at this time, 
and by design of all of us, it is its time for center stage 
now. But after that issue is dealt with and the President's 
veto threat gives us some index of what will happen, whatever 
one thinks, on this much more complicated question of MFN, 
Wolf-Specter as amended, as modified, as strengthened, I hope, 
will be the vehicle in the fall. The chairman of the House 
International Relations Committee has indicated that there will 
be major hearings on that bill in September. China will be a 
focus, but not the only one. But Jiang Zemin will be here in 
October.
    Then, Senator, I want to come to the last and the critical 
point and I think the exciting thing about this movement. This 
is not a political movement in its ordinary sense. When some of 
us started it, we could have gotten more publicity than we had 
by going to the usual sources, even to Bill Bennett whose 
capacity to draw media, given his eloquence and his passion, is 
real. Many of us chose not to do it in the immediate sense out 
of fear that it would be the story of the day without any base 
built into the movement. So, by design I think we tried to 
create a movement that was rooted in the churches of this 
country.
    We had last year organized at the 11th hour a day of prayer 
in which thousands of churches participated. The key to this 
whole movement, Senator--and it is coming in November--is the 
day of prayer being planned on an interdenominational basis for 
November 16th. It will be a day of action, education, and 
prayer on behalf of persecuted Christians. Church bells will 
ring across the country. Other non-Christian groups will, I 
think, join, but modeled in part on the campaign against Soviet 
anti-semitism. You remember those signs in front of every 
synagogue that said Save Soviet Jewry. I think the churches are 
going to act, and that is as it should be. The world is going 
to be watching.
    As important as this hearing is, there is a young man in 
Wheaton, Illinois now, Steven Haas. He is the coordinator of 
the day of prayer. He has done an extraordinary amount in 
organizing churches to participate. They are getting together 
primers, video material, model sermons, scripture passages, all 
for this explosive day on November 16th which will be a 
culminating day. What we need to do is follow that wave. It 
will be there, and I think we will make history in the process.
    So, my note is one of optimism not of pessimism. The press 
is coming along. We do not need the press to get the press. 
They are there. They know it is a big story. You see columnists 
beginning to write about it. It has not quite crashed the front 
pages as news yet. Senators, as the night follows the day it 
will happen, and if the day of prayer is what I expect it to 
be, men like you who have led when there were not big parades 
that were visible will thrill, as we all will. You will not be 
able to do enough to make a difference on this score, and your 
colleagues who are indifferent to this issue will not be able 
to vote against the kind of legislative initiatives that you 
will be proposing as this day of prayer forms. This is a 
prairie fire, and it is growing.
    Now, I wanted to make, if I might, Senator, one last point 
pertinent particularly to the jurisdiction of this committee. 
It is the one thing I would add to Senator Lieberman and Bill 
Bennett's otherwise customarily superb testimony.
    We talked about this issue in terms of our moral obligation 
to care for the lambs, to protect the underdog, of our American 
tradition of being a country that was a haven for victims of 
religious persecution, of our moral obligation. All this is so, 
but it is interesting to me that when we pursue our moral 
obligation and do what is right, right gets done by us as well.
    One of the things that inhibited this effort at the 
beginning was this presumptive charge, sometimes explicit, oh, 
this is Muslim bashing they are engaged in here. One of the 
things I want to tell you in particular, Senator, as chairman 
of this subcommittee, is that the most poignant expressions of 
gratitude that we have received since beginning this effort 
have come from Muslims. What is going on today in the world is 
a battle for the soul of Islam between the modern day 
Kharajites who struggled and lost for control of that great 
faith in the first century of Islam's history. We are now 
trying again to capture the soul of Islam.
    We patronize that faith when we say, oh, that is the way 
they are. They kill people. The faith requires them to kill 
people they disagree with. Historically Islam has been as 
hospitable to strangers as Judaism and Christianity. There are 
sins committed in the names of all of our faiths, but Islam is 
a great faith that the thugs are looking to take over right 
now.
    One of the things I understand as a Jew and one of the 
things that has moved me in this is an understanding of how 
thugs use scapegoats. The thugs need to get those Christian 
communities who are beyond the reach of the bribes and threats 
on which they rely to stay in power because a vibrant Christian 
community by itself poses a threat to them.
    But there is another thing that goes on at the same time. 
As they are persecuting the Christian communities, as they are 
burning churches, as they engage as they do in murder, rape, 
torture, assassination, crucifixion, starvation, the whole 
litany of persecutions of the lambs, of the vulnerable 
Christian communities, they are saying to the moderate Muslims, 
look the West is silent as we kill their own. What do you think 
they are going to say when we turn to you? You best start 
saluting right now.
    That is how Hitler made it. He did not attack the 
Protestant churches first. He attacked the lambs, and the world 
was silent, and everybody else fell into his arms.
    That is really the message, and that is the good news about 
this undertaking; and it is the story of the campaign against 
Soviet anti-semitism. We focused on the Jews particularly who 
were being tortured in the Soviet Union even though they were 
torturing everybody else. But it is almost a leverage device. 
When the word went out that those big, powerful communists 
could not even beat up a bunch of Jews, walls that the 
communists had built around the churches and around political 
dissidents started to crumble. They were cut down to size.
    That is why the moderate Muslims have come to us and said 
thank you. You are developing a political domestic constituency 
in this country that recognizes who these people are. They are 
not the Muslims. Anwar Sadat--his brand of Islam did not think 
of them as the radicals.
    Now, I may say, Senator, that as we remain silent, as we 
patronize the faith of Islam and say that is who they are and 
how dare we intrude as they murder anyone they disagree with, 
we empower the radicals; and we force even good men, as in 
countries like Egypt, to appease the radicals, because the 
radicals are the only voices being raised. We have gotten some 
extraordinary back channel comments from senior officials of 
governments now engaged in appeasement of radicals saying keep 
it up. We cannot say so publicly. That will give us the means 
to take on the radicals who are the only voices, and the 
loudest voices at least, being heard.
    So, Senator, we are in the midst today of an extraordinary 
phenomenon. It is the largest, greatest explosion and rise in 
Christianity in all of its history. Twenty years ago the 
Christian model would have been a white Western male. Today it 
is probably a Philippine or a Pakistani woman. This is a 
religion that is disproportionately female, even when you 
assume that there are more women than men. It is perhaps the 
largest religion in the world today, surely the most widely 
distributed. It is growing explosively and in areas 
particularly subject to the jurisdiction of your committee, 
Christians--Paul Marshall numbers them at about 225 million--
largely in the radical Islamic territories, live under threat 
of literal torture of the sort we have spoken.
    So, you are addressing the national interests. We are 
stepping in and stopping the thugs from beating up the lambs 
and offering possibility for everybody else there. If we let 
them go, if we appease them now, if we say, oh, the Christians 
are not our crowd, or they do not really count, we only put 
back the day when we are going to have to confront that kind of 
radicalism, and as history teaches us, it is going to be a 
darned sight harder to do it then. These are people on the 
margin in the battle between staying in the dark ages and 
entering the 21st century.
    This would be a great lesson to some of the media who put 
down Christians. Christian communities are today the greatest 
forces for modernity, for dignity in that world. That is what 
they really stand for beyond their own security, dignity for 
all of us.
    So, I thank you. I commend you for your leadership. With 
the aid of an aroused conscience in this country, I think we 
are going to make history over the course of this year. Thank 
you.
    [The prepared statement of Mr. Horowitz appears in Appendix 
E on page 108.]
    Senator Brownback. Thank you very much, Mr. Horowitz, for 
that uplifting suggestion; because as I first started into 
this, I was stunned by the silence, but the perspective that 
you give is an encouragement.
    Father Roderick, thank you very much for joining this 
committee and for being here and for your work that you have 
given, and the microphone is yours.

 STATEMENT OF FATHER KEITH RODERICK, COALITION FOR THE DEFENSE 
               OF HUMAN RIGHTS, MACOMB, ILLINOIS

    Father Roderick. Well, thank you very much, Senator 
Brownback. On behalf of the Coalition, I want to thank you for 
providing this opportunity that you have provided for witnesses 
to testify in the subsequent sessions because indeed they are 
the faces of persecution, and their personal histories, more 
than any analysis or overview or statistic that we might be 
able to offer here, really pale in comparison to the betrayal 
of the suffering that they faced themselves.
    The Coalition consists of 60 human rights and ethnic-
national organizations which are Roman Catholic, Orthodox, 
Protestant, Jewish, Hindu, and Muslim. Members include 
nationalities such as the Assyrians, Armenians, Copts, 
Lebanese, Pakistanis, Kashmiris, Indonesians, Iranians, and 
Sudanese.
    What we are doing is advocating basic human rights in areas 
where the cultural and political process of Islamization, not 
the religion, but the process which Mr. Horowitz spoke about, 
is creating great tension not only between Muslims and non-
Muslims, but also within the Muslim community itself.
    The character of this persecution may be personal or it may 
be corporate. Some of the persecution is a product of 
government policy. Some governments perpetuate discriminatory 
practices which create environments that nurture religious-
based hatred against minorities, and in others persecution is 
perpetrated by radical ideological movements themselves.
    Christians of the Near East are the indigenous inhabitants 
of the countries of the region. Their Christianity was not 
imported by Western colonial movements or missionaries. In most 
parts of the Near East, the Christian culture predates the 
expansion of the Islamic empire by 7 centuries, and today that 
population, which is a minority in all the countries of the 
Near East, is that risk of extinction.
    The ministry, Open Doors, reported dramatic changes in the 
Christian population which have occurred in this century since 
1900. The average Christian percentage of the general 
population in the countries of the Near East was over 20 
percent. Today it is just about 7 percent. The most dramatic 
changes have occurred in Turkey. Here the Christian population 
dropped from 22 percent to .15 percent, largely as a result of 
this century's first genocide in the early part of the 1900's 
when 1.5 million Armenians were murdered and 750,000 Assyrian 
Christians lost their lives.
    In Lebanon, the only country which did have a majority 
population prior to 1980, Christians comprised 67 percent of 
the population in 1900. Today it is under 40 percent.
    In the Holy Land, the Christian population is estimated to 
be only 125,000, or 1.8 percent of the population, as compared 
to 2.3 million Muslims, or 34 percent, of the population.
    So, in every country of the Near East, the Christian 
population has decreased, and there are a number of factors for 
this occurring, and one of the factors is the intensification 
of religious persecution.
    A number of the countries of the Near East such as Iran and 
Saudi Arabia are instrumentally involved in a systematic 
persecution of religious minorities. Other governments such as 
Egypt and Turkey and Pakistan facilitate persecution de facto 
by allowing the radical Islamic groups to terrorize Christians 
without fear of prosecution.
    There are identifiable problems which contribute 
systemically to persecution and which detrimentally affect the 
minority religious ethnic groups of the Near East, and I would 
just like to review those. I will be very disciplined in my 
report. You have the written document before you.
    Apostasy laws, laws which arise from Islamic law itself, 
prohibit the legal/social recognition of a person's conversion 
to Islam to another religion. In countries of the Near East, 
with the exception of Pakistan, there is a requirement for 
religious identity to be put on everyone's identification card. 
What this does is encourages discrimination, intimidation, 
virtually makes intermarriage between Muslims and non-Muslims 
illegal.
    Most recently, October 29, 1996, a Christian Lebanese 
national was convicted by a Shari'ah court in the UAE for 
marrying a Muslim woman. He was sentenced to 39 lashes and 1 
year's imprisonment. He had already served a year of 
imprisonment before his sentence; and, as reported by Amnesty 
International, had suffered several beatings and been flogged 
before the formal sentence was pronounced.
    Islamic law prescribes death as the punishment for 
apostasy, but only in Saudi Arabia and Iran is the full penalty 
imposed on offenders. Nevertheless, in other countries such as 
Egypt, there is the denial of civil rights directly related to 
the charge of apostasy. In fact, in Egypt the Emergency Law is 
oftentimes invoked as a pretext for arresting those who have 
converted from Islam to other religions.
    In Iran a Bahai was sentenced last year in a Revolutionary 
Court for being a Bahai. The charge was national apostasy. He 
was sentenced to death. Most recently, in fact last year, May 
1996, Iran initiated an expansion to its penal code which was 
approved by the Islamic Assembly adding espionage as an area 
which was covered under the section enmity against God clause, 
and it specified a mandatory death penalty. A number of Bahais, 
as well as Christians, who have been arrested for apostasy have 
also experienced the fact that the charge of espionage has been 
levied against them.
    Iran has perpetrated a systematic effort to eradicate the 
leadership of the Iranian Council of Protestant Ministers, 
murdering most of its leadership and virtually silencing its 
leadership today. Last September, a Christian pastor was found 
hanged in a forest near Tehran and the government stated it was 
suicide. However, those who prepared his body for burial noted 
that he had 20 stab wounds in his body. An order for death had 
been issued by the Islamic Revolutionary Court judge Sheikh 
Reza Rezaian, and this seems to be a fairly persistent pattern 
in Iran.
    The second area of problems which arise in persecution 
include blasphemy laws. Pakistan retains an insidious law which 
prescribes the death penalty for anyone convicted of insulting 
the Quran or the Prophet Mohammed. Oftentimes religious 
fundamentalists use this to incite mobs to violence against 
Christians on the pretext that Christians are described as 
blasphemers, because they believe that Jesus Christ is the son 
of God, which is contrary to Islamic teaching. So, the 
following cases which I have reported in the written form of 
the testimony illustrate the terror that this legislation 
continues to hold over the 15 million Christian Pakistanis.
    Saudi Arabia instrumentally persecutes non-Muslims more 
comprehensively than any country of the Near East. No religion 
other than Islam is allowed to be practiced within its borders, 
and there is even great pressure upon Shi'ites in the north of 
Saudi Arabia.
    However, it has been estimated that 27 percent of the Saudi 
population consist of expatriate guest workers, three-fourths 
of whom are non-Muslim. The religious police closely monitor 
foreigners for the public expression of their Christian faith; 
and those who seek to practice their faith, even within the 
private confines of their own home, are subject to harassment, 
beatings, arrests, or deportation.
    Unfortunately, Saudi Arabia is a closed society in which 
accurate statistics for documenting the effects of this kind of 
policy is very difficult to obtain, but it is severe. But it is 
important to note that there are indigenous Saudis who are 
Christian, but their churches must remain hidden. They are at 
the most risk, because they are considered apostates and 
subject to the full penalty of death if they are discovered.
    The third area of persecution involves promotion of 
religious-based hatred and violence. The violence has 
intensified in many places in the Near East in this past year. 
In the Arab Republic of Egypt, which has the largest Christian 
population in the Middle East, the Copts number between 8 
million and 10 million, or 12 to 15 percent of the population. 
Targeted violence perpetrated by Islamic fundamentalists has 
increased.
    In March, 13 Christians were killed in the village of 
Dawood.
    On February 12th, a most horrendous act and unprecedented 
act was carried out by four to five masked gunmen who broke 
into the St. George's Orthodox Coptic Church in Abu Qurqas. A 
group of 50 students, ranging in age from 13 to 22, had 
gathered for a prayer meeting, for fellowship. Some were having 
their confessions heard. Others were there preparing for 
marriage. After the aftermath of the massacre, over 200 bullet 
holes were found in the church. Nine students were immediately 
killed. Three others died from their wounds, and three other 
people were found dead later probably killed by the fleeing 
gunmen.
    More Christians have been murdered by Islamic extremists in 
the first 6 months of 1997 than in the past 25 years in Egypt, 
and I have those statistics.
    Even though the Egyptian Government has made claims that 
they have, in fact, opposed the surge of violence, there tends 
to still be a continuing problem of security for the Coptic 
Christians. During the past 5 years, in fact, a number of 
government reports and newspaper reports have shown that the 
infiltration of police by extremists has increased to as much 
as 60 percent and of that 60 percent, 80 percent had been 
involved in actions of violence perpetrated against minorities.
    In Pakistan, 80 percent of the Christian population still 
live in small villages, and there is a systematic destruction 
of many of these villages and the confiscation of the poor 
farms and agricultural lands which has been underway for the 
past 20 years. I outline several of the villages which have 
been confiscated or destroyed.
    Most recently in January 1997, a Christian village of 
Shanti-Nagar was attacked by 10,000 radicals. The villages were 
alerted of the impending attack and requested police 
assistance. The police withdrew from the village. Nearly 1,500 
homes were destroyed. The women suffered most gravely. Over 70 
Christian women and girls were kidnapped, and because of the 
mistreatment by their captors, their emotional scars will be 
much more difficult to heal than the rebuilding of their homes. 
The Government of Pakistan has promised to assist in the 
rebuilding of their homes, but as of this date only $20 per 
family has been received from the government.
    This is also happening with the Assyrians. The Assyrians 
are an indigenous Christian minority who live amongst the Kurds 
in northern Iraq, and they have also reported the systematic 
confiscation of traditional Assyrian lands by well-armed 
Kurdish groups, and there have been at least 52 Assyrian 
villages since 1991 who have had their lands confiscated.
    Some of these confiscations lead to violence. In fact, on 
February 10th, a father and a son were both murdered by radical 
Kurds, and so it continues to be a problem there as well.
    In Lebanon, the government has chosen to shut down a number 
of church-operated radio stations and television stations, 
which is in contradiction to its own constitutional guarantee 
of freedom of religion. In south Lebanon, the area which is 
occupied by Syria, Christians have been subjected to escalating 
threats by Islamists associated with Hizbollah; and the 
Christians of south Lebanon presently operate the only 
independent television station in Lebanon.
    Also in other areas there are other forms of discrimination 
and persecution which creates tension in Egypt. Churches 
continue to be denied the permission to build or rebuild or 
repair, even paint or repair a bathroom, unless they receive a 
Presidential decree. This continues to be a problem.
    Perhaps the most insidious form of persecution which has 
arisen over the past 5 years are the kidnappings and shame 
rapes of Christian women, seeking their conversion to Islam. 
This has occurred in many parts of the Middle East. In 
Pakistan, I outline in the testimony a number of cases; in 
Egypt, the Coptic Orthodox Church is presently investigating 
200 cases. There are reportedly upwards of 1,000.
    Mr. Chairman, in conclusion, the persecution of Christians 
and other minorities does exist in such countries as Algeria, 
Egypt, Iran, Pakistan, Saudi Arabia, Syria, Lebanon, Turkey, 
United Arab Emirates, Morocco, and Kuwait. The religious 
persecution in the context of the examples which have been 
presented stands out as something which is tragically unique. 
The discriminatory policies, the arrests, the destruction of 
property, violence, torture, or murder are targeted against 
certain groups solely on the basis of their belief and their 
religious culture.
    Even though governments which are normally friendly to us 
do not officially condone the violence against minorities, they 
do bear responsibility for it by their de facto support of the 
Islamists by failing to prosecute sufficiently those who 
perpetrate the acts of violence and to promote full integration 
of their societies. Their own callous support of the very 
attitudes and institutions that perpetuate an environment in 
which religious bigotry flourishes and where unruly mobs, 
motivated by radical ideologues, hurt and kill those whose 
beliefs are different than their own truly must be challenged.
    I think of the victims which have arisen in the last year, 
and I think how long will it be that the blood has to flow 
through the churches, through the small villages of the 
countries which we have mentioned before we say it is enough. 
How long will the screams of the innocent victims be muffled by 
indifference or political expediency before it becomes an 
unbearable din in the ears of our moral conscience and we join 
their cry and say it is enough?
    It is important for this legislative body to incorporate as 
part of its foreign policy perspective the fact that the 
countries of the Middle East are not homogeneously Arab or 
Islamic, that there are sizable and vibrant indigenous 
Christian cultures throughout the region, and that the 
Christians in the Middle East do not want to abandon their 
homelands. They want to feel secure in them. They want to be an 
integral part of the cultural, political, and economic life in 
their own country, and they do not want to be second class 
citizens subjected to a form of religious apartheid by their 
government or societies at large.
    So, Mr. Chairman, we must not allow the U.S. to make 
accommodation with this evil. God help us if we settle for 
anything less than justice from our friends. The United States 
enjoys important interdependent relationships with a number of 
the countries such as Saudi Arabia and Egypt, and it is 
sometimes difficult to criticize our friends, but it is time 
that we begin a serious engagement of these countries because 
friendship depends upon similar values and like-mindedness. By 
our silence and unwillingness to demand the highest form of 
civility from these countries we give tacit permission for them 
to impose even graver hardships on those minorities who are 
already suffering.
    Thank you, Mr. Chairman.
    [The prepared statement of Father Roderick appears in 
Appendix F on page 111.]
    Senator Brownback. Thank you, Father. Although I have to 
say your testimony is not encouraging, it certainly is 
enlightening and appreciated, the work you have done and what 
you have focused on.
    We have another panel that is coming up and I am concerned 
a bit about time. What I would like to do, if I could, is ask 
you a couple of very narrow questions and then if you could, I 
would appreciate it if you could stay around and hear the next 
panel and maybe we could bring you back up at that time for a 
more direct question or two.
    What were the numbers last year? How many Christians were 
murdered last year?
    Father Roderick. The number is very difficult to determine 
because it is a broad area, but I think the number which has 
been discussed as 1,000 may be in the general realm considering 
Sudan in the mix as well. There are other areas which----
    Senator Brownback. What was the number you used? 100,000?
    Father Roderick. 1,000.
    Mr. Horowitz. Senator, I used to be the general counsel of 
the Office of Management and Budget, so numbers just can flow 
very easily and I have grown mistrustful of them. I have tried 
very, very hard--because I think the numbers are soft for the 
reasons Senator Lieberman indicated. These are not open 
societies. It is sometimes hard to know whether you are being 
murdered as a Christian if a Christian village is targeted or 
whether there is a more ambiguous explanation.
    I think the critical number is Paul Marshall's number and 
that one is a hard number. We are talking 400 million 
Christians around the world live subject to intense 
discrimination and somewhere around--and I think this is a 
conservative number--225 million Christians live subject to 
intense persecution, murder, assassination, rape, forced 
resettlement, and the like. In those societies, particularly 
when nobody is listening to what goes on and there is a sense 
that the world out there does not care, it does not take many 
murders for the thugs to keep everybody in line.
    I am not satisfied at this point with any count other than 
the 225 million number, which I think is quite a conservative 
number.
    Father Roderick. I do have some statistics in here in 
regards to a couple of the countries which may be helpful. Mr. 
Horowitz is correct. It is very difficult to determine because 
there is such great silence.
    Senator Brownback. When did the systematic policies to rid 
some of these countries, particularly in the nations that we 
are interested in in this subcommittee, begin?
    Father Roderick. I think it began really with the 
renaissance of the Islamization as a political movement in the 
Middle East. I think that in a sense set in motion a process 
which, even though it is ideological in its nature, 
incorporates religious attitudes as well as other cultural 
attitudes in a detrimental fashion. So, I would say probably in 
the early 1980's.
    Senator Brownback. 1979, 1980 and through that?
    Father Roderick. Yes.
    Senator Brownback. And is this continuing to grow? Is it 
subsiding? Is it leveling?
    Father Roderick. It is intensifying, yes. The stakes are 
higher. It is intensifying.
    Senator Brownback. Would you anticipate more murders in the 
future with the intensity and the expansion of this?
    Father Roderick. Of course.
    Mr. Horowitz. I do not, Senator, for this reason, and it is 
in your hands in part, but in the end, as I indicated, it is in 
the hands of the American Christian community, what signs they 
show on November 16th, because it is possible for us to make 
the price for that kind of policy impossibly high, particularly 
in those countries where they feel the need to appease the 
radicals and there are no counter force pressures put on them.
    I have seen signs myself from some of the governments in 
Pakistan and Saudi Arabia and elsewhere, Egypt. The first sign 
is that they are hiring lobbyists, lots of them, on this issue. 
There was a time, Senator, where I could not walk into a 
supermarket without being bumped into by an old high school 
classmate who would tell me he had heard about the wonderful 
work I was doing and, oh, by the way, he was working for the 
Saudis and would I meet with Prince So-and-So. So, that is a 
sign that they know change is coming and they have got to try 
and manage that change.
    If we keep the demands non-utopian, if we are shrewd in 
applying the pressure, we have the leverage to cut it back. I 
think it intensifies and gets worse as silence meets it, and 
the more silence there is in the face of this persecution, the 
more murder that goes on.
    One thing that David Forte has pointed out that is 
particularly true is that these are countries that think of 
America as a Christian country and they see our silence, would 
that we were, but they see our silence and say, gee, Americans 
are hypocritical materialists. They do not believe in anything 
because if they did, they would be jumping to the support of 
their fellow believers that we are murdering.
    So, I think there is a kind of openness and almost 
anticipation and, in the case of the moderates, an invitation, 
sometimes explicit, for us to come in because they are ready to 
take charge of the country if they have got some support and 
sensible pressure placed on them to do so.
    The President of Egypt, Mr. Chairman, is a man that, 
whatever the radical Muslims may think of you, they are out to 
murder him. He knows that and they have tried it, and yet he 
has got to appease them I think, in significant part, because 
we have been silent.
    So, I anticipate that the numbers are going to go down but 
only if hearings like this and days of prayer continue.
    Senator Brownback. If we intensify here.
    Mr. Horowitz. Yes.
    Senator Brownback. Thank you, gentlemen, very much. If you 
could stay around, I would appreciate it, with the possibility 
of bringing you back up.
    We have our third panel. We stated at the outset the 
hearing was titled Faces of the Persecuted and we bring forward 
several of those who have faced persecution. We are going to 
need a little bit of time because one person has requested 
anonymity and we are going to have to accommodate and put up a 
screen for that particular individual.
    I want to emphasize as well, that we have done a lot of 
calling and searching around; and there are a lot of people who 
have faced the persecution and many of which have just not been 
willing to come forward, because of what it would do to their 
family, what it would mean to them and the threats that they 
are under. The people that have stepped forward here today are 
absolutely bold and convicting and willing to put their lives 
and their fortunes on the line to say the truth and to say it 
out in public and to say it to the world. I absolutely commend 
them and recognize them for their boldness and for their heroic 
stand that they are taking. We really appreciate it. We need to 
put this forward.
    We are going to need a couple of minutes here I understand 
to get this all set up, so we might just want to take a very 
short break and then when we come back, we will be ready to go 
with this. So, we will be in recess for about 3 minutes here.

    [Recess.]

    Senator Brownback. We will reconvene the hearing. As you 
know and as you can see, we have got a third panel up that is 
testifying; and we have a witness who, because of fear for his 
own family, and rightfully so unfortunately, has requested 
anonymity. He is a gentleman from Pakistan. I have asked him to 
be here to testify, and he will be up here and testifying. We 
will take his testimony first and then excuse him, and we will 
go on with the rest of the panel.
    Again, I want to say these are not only people who have 
been persecuted, they are heroes for being willing to step 
forward and to testify in a most difficult circumstance.
    So, I would ask the gentleman here in front of me to please 
proceed with his testimony and what he has faced in 
persecution. Sir, please speak directly into the microphone, if 
you would.

          STATEMENT OF ANONYMOUS WITNESS FROM PAKISTAN

    Anonymous Witness. I am Christian male and I am from 
Pakistan.
    I attend a Christian school until the Pakistan Government 
took control of the schools and colleges. I was denied 
admission to government school because I was a Christian.
    I was admitted to a private Muslim school with a Muslim 
teacher who forced Christian students to study education Islam.
    Same problem in college. I request separate Bible study for 
the Christian students and was refused by the principal. I was 
then beaten by several Muslim students and warned by the 
principal that I will expelled I will ever mention Christian 
studies again.
    The Muslims believe that America is a Christian country 
filled by the people who want to kill the Muslim people. Some 
Muslim preachers say Pakistan is a Muslim country for Muslim 
people not for Christian people.
    This happened with me. Four men--they come to church, 
evening prayer, and I answer the knock on the door and was 
ordered to remove the cross and speaker from outside the church 
building. They force their way inside and ripped out the 
speaker wires. When I protect their actions, they beat me and 
left.
    I called Pakistani police who arrest me and put in jail and 
beat me continually all night. I was released the next day and 
warned never to state anything against the Muslim people. I 
will be put back in jail forever.
    One week later, as I found my way home from work, a car 
stopped me and two men jumped out and grabbed me. They hold me 
while another man tied my hands and grabbed me. They pushed me 
into their car and used chloroform soaked cloths over my mouth 
and nose until I lost consciousness.
    When I wake, I was in an unfamiliar part of my country. I 
had been stripped down to my undershirt and my wallet was gone. 
One of the three men held a gun on me as the other two men 
threw me out from the vehicle.
    The people in this area speak different language, make it 
nearly impossible to communication. I was taken by several 
people to a house where I was locked a small room, given very 
little food, frequently beat me and forced to work, cutting of 
wood from early in the morning until late night.
    After 2 weeks, I was able to escape by climbing up through 
the chimney in my room to the outside. I was able to get a ride 
with a passing truck driver who was giving me food and let me 
stay at his farm for the night. And the following day, I made 
my city and attempt to report to Pakistani police. I was told, 
Christian, we will kill you if you tell us lie.
    Shortly after, I get a visa and come in the United States.
    There are a lot of problem with Christians in my country 
right now. They are wanting to change the ID for Christian 
people. They want to change the ID. They mention that they are 
Christian. They want to change the--to the uniform if they know 
that they are Christian, and all the college and school is 
already taken. In the medical college, we have one seat. So, we 
do not have really education. We do not have really jobs. So, 
our future is going to die. So, we request for give us 
attention for these problems.
    Thank you.
    Senator Brownback. Thank you very much for testifying. Let 
me ask you a couple of questions if I may.
    Do you know of many other Christians who have been treated 
as you have, beaten, kidnapped, imprisoned in Pakistan?
    Anonymous Witness. Yes, I know there is some on my area 
they have it happened, that is the same things, but is a 
different way.
    Right now, after 3, 4 months, they have burned a village in 
Shanti-Nagar. This is very new news and a lot of people, you 
know, they have no home. They are sitting in the farm and no 
food, no nothing. So, they have a lot of problem going on 
there.
    Senator Brownback. And the village, was it a Christian 
village that was burned?
    Anonymous Witness. Yes. It is called Shanti-Nagar.
    Senator Brownback. It was called what?
    Anonymous Witness. Shanti-Nagar.
    Senator Brownback. Shanti-Nagar?
    Anonymous Witness. Yes.
    Senator Brownback. Was anybody prosecuted in Pakistan for 
burning the village?
    Anonymous Witness. They say that they are making allow for 
Christian people if anybody says something against for Mohammed 
and Muslim so they can kill, they can give punishment, whatever 
they wanted. So, they have a problem with that, so they action 
for the religion and they say that he said for Mohammed against 
something. So, they take the action and whole community, whole 
country is, you know, against that person.
    Senator Brownback. The village that was burned----
    Anonymous Witness. Yes, sir.
    Senator Brownback [continuing]. Did the police arrest 
anybody for burning the village?
    Anonymous Witness. No. There is a lot of Muslim groups. 
They come there and they burn it. So, actually I am here. I 
really, you know, do not know about very much, but I hear that, 
you know, they have a lot of problem there. And they have no 
food. They have no clothes, and police, they do not take any 
action for nothing. They did not take action for that peoples--
what they did.
    Senator Brownback. Has the persecution of Christians 
increased in recent years in Pakistan or is it about the same 
as you have always seen it or decreased?
    Anonymous Witness. Until I left that country, every day is 
going a problem, every day. So, it is just going increase every 
day.
    Senator Brownback. Why was it increasing so much here in 
recent times?
    Anonymous Witness. They are thinking that a Muslim country 
is just for Muslim not for Christian. If they have a law, it is 
a law for Muslim law, no nothing for Christian law, anything. 
No right for anything. If there is anything, it is for rights 
for Muslim people. If they give a donation, something, so that 
donation just can be go for Muslim, not for Christians.
    Senator Brownback. Do you raise these issues with, say, for 
instance, some of the elected officials in Pakistan? Has the 
Christian community raised this with people who are elected in 
Pakistan to represent all of the people?
    Anonymous Witness. I do not understand.
    Senator Brownback. Has anybody in the Christian community 
talked with somebody that was elected in Pakistan about these 
problems?
    Anonymous Witness. Actually we have some member in our 
Congress, but they do not listen for that, for that people. So, 
that is nothing happened, you know, whatever they say that.
    Senator Brownback. Are more Christians leaving Pakistan now 
and being forced out like you left because of the persecution?
    Anonymous Witness. Yes. There is have a problem for--
because poor people, they have no good job, they do not have a 
good education, and they have no good job, so they do not have 
very much money. Another problem, they try to get the visa and 
it is very hard to get the visa for coming to--go to the 
Christian country right now.
    Senator Brownback. What can we do in the U.S. Senate to 
stop this persecution from happening?
    Anonymous Witness. I think if they can force that, they can 
change the rules, regulations for they give the rights for 
Christian people. So, I think that is the best so that people 
can live freedom and happy like in the United States. So, no 
take like a person what his religion about.
    Senator Brownback. So, for us to encourage the Government 
of Pakistan to ensure religious freedoms for all people?
    Anonymous Witness. Yes. And if can be possible, you know, 
to give to the chance to Christian people for education, and if 
they want to come here, if they do not starve for their 
problems, so give opportunity that they can come--go to 
Christian country.
    Senator Brownback. Thank you very much and thank you for 
your willingness to come forward in spite of having been beaten 
and kidnapped and taken to jail for what you have done. We 
deeply appreciate your willingness to speak out for those who 
have been persecuted in Pakistan.
    Anonymous Witness. Thank you, sir, for your attention.
    Senator Brownback. Thank you.
    Our next two members of this panel are Colonel Sharbel 
Barakat from Lebanon, and I hope I am pronouncing these names 
correctly, Colonel. I very much appreciate your willingness to 
be here and to testify. And from Iran, Esmaeil Ebrahimi?
    Ms. Carrera. Ebrahimi.
    Senator Brownback. Ebrahimi is here to testify as well.
    I want to thank again both of you in advance for your 
courage and your willingness to come forward to testify. It is 
very important that we get information from those who have seen 
and witnessed this firsthand.
    With that, Colonel, we would turn the microphone over to 
you first. Please speak, if you would, very slowly and clearly 
into the microphone so we can gain the information. Thank you 
for coming.

         STATEMENT OF COLONEL SHARBEL BARAKAT, LEBANON

    Colonel Barakat. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you. I want to thank you for giving me this 
opportunity to testify about the persecution of the Christian 
population in south Lebanon. This historic achievement will 
allow me to share with you, the representatives of the American 
people, a truth which was hidden for years by both the 
oppressors in the Middle East and their protectors in the 
Western world.
    My name is Sharbel Barakat. I was born and raised in the 
Christian village of Ain Ebel in south Lebanon. I became an 
officer of the Lebanese army, got married, and had four 
children. I currently live in my village which is under siege 
by terrorist groups such as Hizbollah. I cannot travel in my 
country, nor I can go to the capital Beirut. I cannot leave my 
country through the airport nor through seaports.
    Hizbollah has issued death sentences against large numbers 
of Christians in south Lebanon. We live under the constant 
threat of shelling, roadside explosions, kidnapping, and 
torture in an area, home to 150,000 Christians and other 
minorities. Our fault: We are Christians surrounded by Islamist 
fundamentalists.
    In order to respond to your invitation, Mr. Chairman, I had 
to cross the border into Israel and leave the Middle East 
through the only airport that connects us to the free world.
    Throughout my life, my relatives, friends, and community 
have been subjected to various forms of oppression and 
persecution for the mere reason that we are Christians. Today I 
would like to testify about my own experience, the experience 
of my community, the present state of harassment, and what we 
expect in the future. I would like also to make few suggestions 
to the United States and world governments.
    My experience. Throughout my young years, I was raised in 
the fear of massacres, as our village's population was 
butchered in 1920 by Muslims. At the end of 1958, and before 
the U.S. Marines intervened to put an end to the Islamic 
uprising, backed by Abdel Nasser of Egypt, then I lost my 
eldest brother, a young Lebanese army officer. When Benoit was 
killed, I was 6 years old.
    In the 1970's, the PLO systematically brutalized the youth 
and elders of Ain Ebel and other villages, installing terror 
checkpoints, arresting, kidnapping, and killing some of the 
villagers. On many occasions, graffiti were written on the 
walls such as ``no place for Christians in this land.''
    Since 1977, our village was encircled by the PLO. Our world 
shrank to less than 3 square miles. We were in a collective 
prison, more like a Christian ghetto surrounded by Jihad 
forces.
    On New Year's Eve of 1979, the day my wife gave birth to my 
older son, her two parents were kidnapped by the elements of 
Abu Nidal for 3 months.
    On Christmas Day of 1981, my brother-in-law, a middle 
school teacher, was kidnapped to the Ain El Helweh Camp and 
tortured for a whole month by the armed elements of Abul Abbas.
    In 1984, a new organization, Hizbollah, took over from the 
PLO. Manipulated by the Iranians, protected by the Syrians, 
legitimized after 1990 by the current Lebanese regime, the 
terrorists of Hizbollah were bolder in their designs. They 
openly called for the establishment of an Islamic republic.
    For 6 years, we had to use fishing boats to exit Ain Ebel's 
region in order to reach Beirut before it fell to the Syrians 
in 1990. Children, women, and elderly were packed like cattle 
under Hizbollah's fire. In 1985 a ship carrying 200 Christians 
sank off Beirut's shores. I personally was on many of these 
horror trips. Life was forbidden to us, so was freedom.
    During the time we were oppressed by the fundamentalists, 
other Christians suffered as well: the Western and American 
hostages held by the same Hizbollah in Lebanon.
    In 1990, three civilians were kidnapped from my village, 
were kidnapped by Hizbollah. Marun Nassif Atmeh was killed and 
his body was left in the valley of Wadi el-Sluki for 15 days. 
The United Nations soldiers founds him defaced and maimed. We 
were able to recognize him with the help of the x-rays taken of 
his leg a few weeks prior. Butros Nassif Atmeh died months 
after his release as a result of severe beating to his head 
during the kidnapping. The third Christian was reduced to a 
living martyr. This environment of extreme violence caused us 
to live in constant fear. We even considered emigrating, 
emptying the villages. However, we remained on our land.
    Since 1979, under Syrian pressures, our wages from the 
Lebanese Army were suspended by Beirut's government. 
Furthermore, a great number of us are denied passports.
    The experience of my community. The Christian community in 
that area was submitted to a number of massacres throughout 
this century. Since the massacre of 1920, incidents occurred 
frequently. Mr. Chairman, the present Speaker of the House in 
Lebanon, Mr. Nabih Berri, who is considered as a moderate 
Shi'ite, publicly threatened by reminding us of this 1920 
massacre three times.
    Targeting Christians is not specific to south Lebanon. The 
Lebanese Christians have been resisting the tide of Islamism 
since the 7th century. Our ancestors have paid the price for 
their faith. Lebanon is the only country in the Middle East 
where Christians from all denominations have been able to form 
a safe haven for over 13 centuries.
    In modern times, attempts were made to create a coexistence 
between Lebanon's religious communities. Successful for a short 
period of time, this peaceful coexistence fell under the 
terrorism of the PLO, the Syrian occupation, and the rise of 
Islamic fundamentalism.
    Professor Walid Phares, an expert of the Middle East, said 
the ``Christians of Lebanon were and are still targeted because 
of their Christians identity and their determination to remain 
Christians.''
    Since 1975, about 150,000 Christians were killed during the 
war. Thousands of Lebanese Muslims died as well. Entire 
Christian villages were erased and their populations were 
ethnically cleansed. In Damur, south of Beirut, for example, a 
thousand Christian civilians were killed while the armed bands 
shouted Allahu Akbar and Jihad. Churches were burned down by 
dozens. An account of the horrors is too long to include in 
this testimony. Here are a few examples of massacres.
    1975: Beit Mellat, Deir Eshash, Tall Abbas in north 
Lebanon, Damur, Mount Lebanon.
    1976: Chekka, north Lebanon, Qaa, Terbol, Bekaa Valley.
    1977: Aishye, south Lebanon, Maaser el-Shuf, Shuf Mountain.
    1978: Ras Baalbeck, Shleefa, Bekaa Valley.
    1983: major massacres in Aley and the Shuf Mountains, in 
addition to the 241 U.S. Marines and 78 French paratroopers 
savagely assassinated by Hizbollah.
    1984: Iqlim el-Kharrub, Mount Lebanon.
    1985: East Sidon, south Lebanon.
    1990: Matn district.
    The present state of harassment. Here are some of the 
flagrant abuses of human rights against Christians around the 
country.
    Constant and arbitrary arrests of young men and women. 
Armed elements break into their homes by night and kidnap them 
to security centers. In December 1996, 450 young Christians 
were thrown in jail and beaten for days. They spent Christmas 
alone in helplessness.
    Christians are tried by military courts for forming 
Christian associations, opposing Syria, or allegedly for 
contacting Israelis or Jews.
    Christians are severely tortured in Lebanese or Syrian 
jails or in detention centers by Hizbollah. Some of them died 
under torture.
    In the so-called security zone of south Lebanon, Christians 
live under the fear of Hizbollah's terror. In 1996, Hizbollah 
issued a public fatwah, religious edict, calling for the murder 
of all those who have been in contact with Jews. As we know, 
there are thousands of Christians who work inside Israel. All 
of these civilians will be put to death if Israel withdraws. As 
of today, neither the Lebanese nor the Syrian Governments have 
issued a rebuttal to this fatwah. We, therefore, assume that 
Beirut and Damascus are endorsing the massacre of the 
Christians in south Lebanon by Hizbollah.
    What to expect in the future. Mr. Chairman, it is certain 
that my community is under present and real danger. Christians 
are presently safe because of the presence of Israeli troops 
and the local defense force known as South Lebanon Army, SLA. 
However, in the case of an Israeli unilateral withdrawal from 
the area and disbanding of the SLA, we expect a generalized 
massacre and de-christianization of south Lebanon. This 
potential holocaust of Christians will have a tremendous impact 
on the region's Christians, for Lebanon has always been the 
hope for Middle East Christianity.
    Suggestions. For the short term, I present the following 
suggestions aimed at saving the Christians of south Lebanon as 
long as Hizbollah and the Syrian occupation forces are present 
in that area.
    One, that the U.S. Government formally ask the Israeli 
Government not to withdraw from the security zone before a 
solution is found for the protection of the Christian community 
in south Lebanon.
    Two, that the U.S. Government help the Christians of south 
Lebanon to form a local authority which will enable them to 
face the administrative, economic, social, and security 
challenges.
    Three, that the U.S. Government extend a direct 
humanitarian support to the encircled Christian community in 
south Lebanon and help them establish a safe haven until the 
regional problem is solved.
    Four, that the U.S. Congress extend invitations to the 
Maronite Patriarch of Lebanon and other Christian leaders in 
south Lebanon and in exile to testify about the fate of their 
community. Such message can bring about the truth of 
persecution to the American people and allow Christians 
worldwide to extend their support to their brethren in faith in 
our tormented country.
    Thank you, Mr. Chairman.
    [The prepared statement of Colonel Barakat appears in 
Appendix G on page 118.]
    Senator Brownback. Thank you very much, Colonel. I 
appreciate that.
    I have just been buzzed that we may have a vote in the next 
10 minutes. So, what I would like to do is go to our next 
witness, and we will see how long we can go before we would 
have to take a short recess and come back, but we may have a 
vote coming up here. So, let us go ahead and we will get 
started with this, and then let us see how long we can go. 
Thank you very much for coming, Mr. Ebrahimi.

 STATEMENT OF ESMAEIL EBRAHIMI, IRAN, THROUGH HIS INTERPRETER, 
                        FANNOOSH CARRERA

    Mr. Ebrahimi. I wanted to thank you for giving me an 
opportunity to speak on this subject. It is very encouraging to 
me to know that the Government of the United States cares for 
the persecution of Christians in other countries. And I thank 
the Government of the United States to give me the refugee 
status to come to the United States where I can be a free 
Christian.
    Due to the lack of time, I will summarize my testimony. Of 
course, a written statement has been submitted for your review.
    When I was born in a strict Islamic family in Iran, when I 
was a child, there were a couple of incidents where I was close 
to death. However, I was saved and I knew there was a force 
protecting me. I even joined the military because of the draft; 
and during the intensive Iran-Iraq war, however, I was still 
protected, and I did not die.
    In 1985 my brother invited me to a church that he attended 
in Tehran after I got out of the military because he had 
already come to the knowledge of Jesus Christ.
    After I viewed the movie Jesus of Nazareth, I came to 
realize that I had found what I was looking for all my life.
    A few weeks later I met another Christian who spoke to me 
further about God, and I then surrendered my life to Jesus, and 
I became a Christian.
    In 1988, with 12 other Iranian Muslims, with the leadership 
of Reverend Sepehri, in Emmanuel church in Tehran I was 
baptized.
    Due to the extreme joy that I had found in Jesus Christ, I 
wanted to share my faith with others, and this was the 
beginning of the persecution that came my way by the Government 
of Iran.
    I was warned many, many times not to speak about Jesus to 
others. Even though I was careful about this, however, two 
government officials came to my shop [he was a tailor] and they 
arrested me. Even though they were very careful so no one else 
would recognize that they were arresting me, they put me an 
unmarked car and took me to jail.
    Three days later I was interrogated again but this time in 
the Revolutionary Court building. They were interrogating me 
further. They said because you had left Islam and had 
converted, you will be put to death.
    My family had no idea where I was, and an unrecognized 
person called one of the believers in the church and said that 
we had killed Esmaeil.
    Three days later again, even though my family had no idea 
what was going on with me, again they interrogated me. They 
took me to the Revolutionary Court building. After more 
interrogation and about 3 months of imprisonment and much 
psychological and physical abuse, I was forced to sign a 
statement not to preach Christianity and was released on 
October 1990.
    He was wondering why they let him go. I found out that my 
release was due to the intervention of the late Bishop 
Hovsepian-Mehr, then Superintendent of the Assemblies of God 
Church and the President of the Council of Protestant Churches 
in Iran, and to the upcoming visit to Iran of Mr. Galindo Pohl, 
the U.N. Special Representative of the Commission on Human 
Rights.
    Bishop Hovsepian-Mehr, who was killed by the government 
agents in January 1994 after he led an international campaign 
to free Reverend Mehdi Dibaj, Iranian Muslim, convert, 
evangelist who had been imprisoned for nearly 10 years and 
sentenced to be executed for apostasy. Reverend Dibaj and 
Reverend Tatavous Mikaelian were killed by the government 
agents in June 1994. Reverend Mikaelian took over the position 
of President of the Council of Protestant Churches in Iran 
after Bishop Hovsepian-Mehr's death.
    I married my wife, also a convert from Islam to 
Christianity, in 1991. When my wife converted to Christianity, 
her neighbors learned about it and began to persecute her by 
saying unkind things. When she converted, a government 
official, who was dressed in civilian clothes, came to the home 
and threatened her that I have the power to kill you.
    When our son was born in 1992, we had a difficult time to 
get his birth certificate identification card.
    Later we went to Turkey and worked with the Iranian 
Christian organization in that country.
    When we returned to Iran, we lived in a basement for 2 and 
a half years because we had to be under cover. The persecution 
of the Christians, the converts, had increased at this time. We 
feared that it would only be a matter of time before I would be 
arrested, imprisoned, and charged again with abandoning Islam; 
because the government no longer even brought these cases to 
the courts, because they would have paper-trail evidence that 
they were doing these persecutions.
    The Iranian Christians were warning us and encouraging us 
to leave the country because our life was in danger. We were 
told that all the ground borders had our names on their lists. 
They believed that we would probably cross the border to Turkey 
because there was no need for a visa.
    We found out that the Embassy of India was granting visas, 
and that is where we went. Without informing any of our family 
and relatives, we quietly left Iran.
    Prior to 1986, my older brother Ebrahim had converted from 
Islam to Christianity. He received instruction from Transworld 
Radio in Monte Carlo that broadcasts Persian Christian programs 
into Iran, and he worked for the Iran Bible Society. After the 
government authorities closed the Iran Bible Society in 1990, 
Ebrahim worked for Campus Crusade for Christ. That is an 
American organization. He was imprisoned in Kermanshah in 1992 
because of his conversion from Islam to Christianity and 
because of his evangelistic activities. Ebrahim and his wife 
were forced to flee Iran in 1994 and were accepted as refugees 
in Canada.
    My younger brother, also a Muslim convert to Christianity, 
had to discontinue his graduate studies in Iran. Because of the 
persecution he received for his Christian faith he fled Iran in 
1994 and was accepted as a refugee in Canada.
    My mother also who was Muslim born and converted to 
Christianity is living in Canada now.
    Seven months after arrival in India with the help of 
Iranian Christians International, Incorporated, a Colorado-
based organization who assists Iranian Christian refugees, my 
wife, son, and I were recognized by the UNHCR in New Delhi as 
refugees. Because the UNHCR monthly stipend is so little, we 
were forced to live in a one-room apartment in a poor and 
fanatically Muslim part of New Delhi.
    A number of Iranian government agents and embassy personnel 
lived near us, including embassy officials who lived in the 
apartment below us. Because I did not receive any mail that had 
been sent to me since these officials moved into our building, 
I believe that they had asked the postman to deliver all my 
mail and perhaps the mail of other Iranian tenants to them.
    Other Iranian and Afghan refugee Muslim converts to 
Christianity in New Delhi were severely persecuted by Iranian 
and Afghan government agents while I lived in India. There were 
several kidnapping attempts, severe beatings requiring 
hospitalization, attempts to run over the converts with 
motorcycles and automobiles, and death threats--death threats. 
The motorcycles and the cars had Iran/Afghanistan embassy 
license plates. Although reports of these incidents were 
submitted to the U.S. Immigration and the UNHCR, the truth of 
these reports had not been accepted by the U.S. INS and the 
UNHCR.
    After being recognized as a refugee by the UNHCR in July 
1995, I immediately applied to the U.S. Immigration and 
Naturalization Service, INS, at the American Embassy in New 
Delhi. Although most U.S. INS interviews at refugee processing 
posts are scheduled within 2 months of filing, I was not 
interviewed until 8 months later. I was told that since my 
mother lived in Canada, although I had a U.S. sponsor, I must 
apply to Canada.
    In May 1996, Iranian Christians International, Inc. 
contacted U.S. Congressman Frank Wolf's office requesting his 
intervention for another Iranian Christian refugee and me. 
Congressman Wolf faxed a letter to the Honorable Frank G. 
Wisner, U.S. Ambassador to India, requesting detailed 
information why the other family and mine were rejected.
    A month later Mr. Johnson, U.S. INS officer, gave me a 
second interview. However, he was very hostile and abusive. Now 
I submit the description and content of my interview with the 
U.S. INS in New Delhi for your information.
    Senator Brownback. Without objection, we will accept that. 
Please proceed.
    Mr. Ebrahimi. I went to the U.S. Embassy with my wife and 
son at 10 a.m., June 6, 1996. At 10:30 a.m., Mr. Manouch, an 
employee of the U.S. INS, took us to the U.S. INS section of 
the embassy and the office of Mr. Johnson. My wife and son were 
directed to the next room, and only I was allowed into Mr. 
Johnson's office.
    Mr. Johnson was standing in his office with a very angry 
expression on his face. After I sat down, Mr. Johnson said, why 
did you not apply to the Canadian Embassy?
    I thought he was referring to July 1995 when I first 
applied for immigration to the U.S. So, I said, as soon as I 
was recognized as a refugee in July 1995, I applied to the U.S. 
INS.
    Mr. Johnson became angry and screamed, did I not tell you 
to apply to the Canadian Embassy?
    I responded, it is illegal to concurrently apply to two 
countries for resettlement as a refugee.
    Mr. Johnson shouted, how do you know it is illegal? Have 
you been in contact with an immigration officer?
    I replied, no. I asked the receptionist at the information 
desk.
    Mr. Johnson said, who is the receptionist? You must have 
obtained information from an officer.
    I responded, that is not the case as refugee applicants are 
not allowed inside to obtain such information from an officer.
    Mr. Johnson angrily said, who do you think you are that you 
are trying to teach me immigration law? When I ordered you to 
apply to Canada, you should have done it. Who do you think you 
are? You are nobody. You have no status. Who gave you the right 
to complain about the U.S. INS, New Delhi?
    I said I did not complain to any place. Before my response 
was translated, Mr. Johnson said with anger, I am independent 
person here. No one in America can write to me and tell me what 
to do. I can decide whom to accept and who to reject as 
refugee. No one is allowed to tell me what to do. This 
statement was evidently in response to Congressman Wolf's 
letter to Ambassador Wisner.
    He then looked at my file and asked the date of my baptism. 
I gave him the date, 1989. Then he said, where were you 
baptized? I said in Tehran, Iran. He said, why then the letter 
affirming your baptism is from a church in Germany? I 
responded, Reverend Sepehri who wrote the affirmation letter 
was formerly my pastor in Iran and the Director of the Iran 
Bible Society. Due to danger to his life, he fled from Iran to 
Germany.
    Senator Brownback. Could I just interrupt here a second, 
because I am really getting worried about time constraints of 
what we are going to hit? If there is a way we can shorten in 
on what specifically we could do from the United States that 
would be helpful as Mr. Ebrahimi would see, I would appreciate 
that so that we could have a few minutes to talk with some 
questions, if possible, because I am afraid we are going to be 
buzzed for a vote and I think we only have the committee room 
until 4:30 as well. So, if you can, I would appreciate that and 
that way we can get to a few questions as well.
    Ms. Carrera. OK. I believe there is a conclusion here. Am I 
allowed to read that?
    Senator Brownback. Oh, please, please. I do not want to 
stop you. You have been very kind to come here and very bold in 
coming here. I want to make sure we get some chance to be able 
to have a dialog back and forth to----
    Ms. Carrera. OK. I will read the conclusion, if you do not 
mind.
    The adversarial attitude of the U.S. INS officials and the 
inconsistent refugee processing has led to Iranian Christian 
refugees finding themselves between a rock and a hard place. 
They cannot go back to Iran, yet spend months or years in 
limbo, living in hostile and impoverished conditions before 
being processed to the U.S. First a refugee must go through a 
long and difficult ordeal to obtain UNHCR status and financial 
assistance and then go through another lengthy and arduous 
process with the U.S. INS to be accepted for resettlement as a 
refugee in the U.S. During the time I was going through this 
process, an Afghan refugee set herself afire because the UNHCR 
refused to provide adequate medical care for her family.
    Many of the refugees are financially destitute and cannot 
survive unnecessarily drawn-out appeals. The complete refugee 
processing procedures at the U.S. INS in New Delhi must be 
thoroughly investigated and changes made so that other Iranian 
Christian refugees currently stranded in India can be speedily 
processed to the U.S. and so that other fleeing refugees in the 
future will not need to go through the severe hardship that my 
family and I faced.
    This subcommittee must continue to pressure the Iranian 
Government to discontinue its persecution, arrest, 
imprisonment, torture, and killing of Iranian Christians, to 
reopen churches and the Iranian Bible Society, and to allow 
Muslim converts to attend church and pastors to preach in 
Persian, the language of 90 percent of Iranians, and to allow 
Iranian Christians to leave Iran. This subcommittee must take 
the lead in applying international pressure.
    Thank you.
    [The prepared statement of Mr. Ebrahimi appears in Appendix 
H on page 121.]
    Senator Brownback. Thank you very much, and thank both of 
you for testifying here today that you have done at both risk 
and expense to both of you gentlemen. I appreciate that a great 
deal.
    If I could in asking some questions of specifically what 
all we can do from here--and both of you have been very good 
about being specific on some items that would be helpful to 
you. It strikes me that you are both in situations where there 
is religious cleansing that is taking place and in a region of 
the world where there is a great deal of religious cleansing 
that is taking place.
    What are the most helpful things we can do from here to 
stop that from occurring? Are hearings--is that a key thing 
that we should do? In Lebanon, is it trying to get more people 
in there? Is it opening up the travel ban in Lebanon? Or is 
that a harmful thing to do? You have identified some things, 
Colonel, that you think would be good. Are these the most 
helpful things that we can do to try to stop this from 
occurring?
    Colonel Barakat. I think the hearing that you are doing let 
the people believe that the United States, which is the power 
now worldwide, became interested about what is happening to the 
Christians in Lebanon. It will give them more hope.
    The other side is that the Syrian and the Hizbollah and the 
puppet government now in Lebanon will feel that they are not 
free to do whatever they are doing against the freedom of the 
people, against the persecution of the Christians.
    What you are doing, these hearings, are helpful.
    On the other side what we ask for is for south Lebanon 
specifically. It is clear I think.
    Senator Brownback. Should we have more Americans traveling 
to Lebanon? Would that be helpful?
    Colonel Barakat. I do not think.
    Senator Brownback. You do not know?
    Colonel Barakat. At this time I do not think it is safe yet 
because Hizbollah is still there. Nobody knows from a day to 
tomorrow if they will come and catch 5 or 10 other Americans 
and they will kidnap them as they did in the first time.
    Senator Brownback. Because we did just, I think, get buzzed 
for this vote, Senator Robb, if you would care for either a 
statement or a question to ask of these gentlemen, I would be 
happy to turn it over to you for that at this point.
    Senator Robb. Mr. Chairman, I appreciate it and I 
apologized to you earlier because of the late notification as 
to when this hearing was going to take place; I had others, 
including several groups of international visitors from the 
region and the jurisdiction of this subcommittee, as it turns 
out. I will rely on the record. You shared with me some of the 
testimony, and it is certainly important.
    I think that the point that you have made and the two 
witnesses here have made as to the importance of giving public 
exposure to practices that the international community can make 
independent judgments as to whether or not they want to take a 
position or attempt to influence.
    I might ask Mr. Ebrahimi, with the recent election in Iran, 
which is approximately 90 percent Shi'ite and about 10 percent 
Suni, is there any prospect in your judgment of a change with 
respect to the persecution of religious minorities or 
Christians based on the election that has just taken place in 
Iran?
    Ms. Carrera. He doesn't believe so, because this new prime 
minister is continuing on with the same hard line that the 
previous leaders have had.
    Senator Robb. Is there anything that the international 
community can do in your judgment to influence the actions that 
the government in Iran takes toward religious tolerance or 
religious persecution? It is not dissimilar to the chairman 
asked.
    Ms. Carrera. He says this is definitely a political issue 
and he is not a man of much political knowledge. However, the 
fact that you are listening to the cries of the people who are 
being persecuted and if the people of America and other 
governments are willing to listen and know that these things 
are happening, he believes that people themselves can make the 
difference and put pressure on governments like Iran.
    Senator Robb. Let me just ask one other question to both of 
our witnesses. This hearing has focused on persecution of 
Christians in Islamic countries. Are you aware of specific 
instances where Muslims or members of other religious faiths 
have experienced persecution that is at all similar to the 
kinds of persecution that you have faced?
    Mr. Ebrahimi. There are Jewish citizens of Iran who have 
been under major persecution to the point that they had to 
leave Iran or they were certain to die, so are the Bahais in 
Iran, they just like the Christians. The government has given 
any Muslim in Iran the right to kill any Bahai or Christian 
converts, and as a matter of fact, they will receive much 
exultation by doing so.
    Senator Robb. Colonel Barakat, could you respond to that 
same question with respect to Lebanon?
    Colonel Barakat. I did not understand the question.
    Senator Robb. Are there instances of persecution of those 
who profess a faith other than Christianity that is similar to 
the kinds of persecution that you have experienced as a 
Christian?
    Colonel Barakat. In Lebanon?
    Senator Robb. In Lebanon.
    Colonel Barakat. Yes, all the Jewish people are in some way 
persecuted in Lebanon. They are denied anything in Lebanon now, 
these times, not before the war. But also all those who are 
against Hizbollah, for example, against those fundamentalists, 
suffer sometimes from them.
    Senator Robb. But it is based on religion or on political 
opposition?
    Colonel Barakat. It is based sometimes on beliefs because 
they believe differently from them. They think they are 
heretics, something like this. They do not believe like they 
believe.
    Senator Robb. One final question. Are either of you aware 
of persecution of the type that you have described against 
Christians in either Iran or in Lebanon that has been used 
against minority members, i.e., Suni or Shi'ites or whatever 
the case might be in the countries, in other words, the non-
majority Muslim faction?
    Mr. Ebrahimi. The Muslims who convert to Christianity--it 
is very obvious that they will be persecuted. However, among 
the Muslims themselves, the majority of the trouble that comes 
their way, you cannot call persecution; but you can call it 
that they are economically held back, jobs, trouble that has 
caused them with schools and their children and their family, 
but not so much persecution to the way that they persecute 
people of other faiths.
    Senator Robb. Thank you.
    Colonel Barakat, any persecution of Muslims by a different 
sect that you have observed?
    Colonel Barakat. No. And the case in Lebanon is different. 
It is more political between Muslims. It is not religious.
    Senator Robb. I join the chairman in thanking you both for 
coming and testifying this afternoon, and Mr. Chairman, I thank 
you.
    Senator Brownback. Thank you, Senator Robb, and thank you 
both for your heroism in coming forward and standing up for 
your faith. I appreciate your doing that.
    This is the second of a number of hearings we are going to 
be holding and looking at this subject and moving forward. If 
any other country in the world, America must stand up to this 
religious cleansing that is taking place. We were founded by 
people fleeing religious persecution and we must stand up for 
that around the world. We are trying to shed a light on this 
now to bring this issue on more in front of the American people 
and to move forward as a Nation on it.
    Thank you very much for joining us. I thank all of you for 
being here today.
    The hearing is adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   A. Documents Detailing Efforts of the Chinese Communist Party to 
                Supress ``Illegal'' Religious Activities

 A Document of The Donglai Township Committee of The Chinese Communist 
                                 Party

Translated and Released on January 1997 by The Cardinal Kung Foundation

         [embargoed for release 2000 hrs gmt january 10, 1997]

                                 ______
                                 

                         Document (1996) No. 42

 For The County Committee of Chongren Xian in the Fuzhou District (of 
                           Jiangxi Province)

                      referencing the dispatch of

   ``The Procedures Legally to Implement the Eradication of Illegal 
       Activities/Operations of the Underground Catholic Church''

                                   to

  The Donglai Township Leadership for Legally Eradicating the Illegal 
             Activities of the Underground Catholic Church

The Objective of the Notice:
    (1) The Religious Administration;
    (2) ``Struggle'' on Eradication of the Illegal Activities, 
(Underground Catholic Church) and
    (3) Implementadon Procedures

Copy To:

The County Committee of the Communist Party

The County Political & Judicial Committee of the Communist Party

November 20, 1996

80 Copies Made (in China)
                                 ______
                                 

                           Translator's Note

  <bullet> Words in between parenthesis are the translator's note. 
        These words are not included in the original text.
  <bullet> When the text was illegible and/or the phrase was not 
        understood, the words were replaced by a string of x's 
        (xxxxxxxxxxxx).
  <bullet> A few sentences or phrases were printed in bold characters 
        or placed within quotation marks when the translator felt the 
        message conveyed was critical.
  <bullet> A few paragraphs were divided into sub-paragraphs for easier 
        reading.
  <bullet> Copies of the Chinese text are available upon request.

                                 ______
                                 

To: All units of the village branch of the Party, and All units 
directly under the Township Authority:

    In accordance with the approved study, attached herewith for your 
use is Donglai's--

``Procedure to Legally Implement the Eradication of Illegal Activities 
                  of the Underground Catholic Church''

    Please be practical, thorough, and serious in your implementation.
    In recent years, the population of religious believers in our 
villages has increased due to the intensified infiltration of overseas 
religious enemy and opposition forces, and due to the influence of the 
illegal activities of the underground religious force in our country. 
Some have used religion to commit criminal activities, seriously 
disturbing the social order and affecting political stability. 
Therefore, every unit in this entire township must be highly vigilant 
in and politically attuned to the gravity and danger of the overall 
situation. You must strengthen the leadership, and, with resolute, 
decisive and organized measures, to legally develop this special 
``struggle'' in order to eradicate the illegal activities of the 
underground Catholic Church.
    Eradicating the illegal activities of the underground Catholic 
Church is a decisive and critical political work. In developing this 
special ``struggle'', we will proceed according to the facts, abide by 
the law, recognize two different types of contradictions (Note: The two 
different contradictions are (1) contradiction among people and (2) 
contradiction between enemy and defender--Mao's Thought), be vigilant 
of the enemy's power and of public instigation by religious believers, 
assure smooth development of ``Eradicating Illegal Activities'' work, 
and achieve the projected objectives. Any important and sensitive 
issues as well as the progress of all units' assignment must be 
reported promptly for directives.

November 20, 1996

 Procedures to Legally Implement the Eradication of Illegal Activities 
                   of the Underground Catholic Church

    In order to truly unify the thorough enforcement of the Party's 
religious policy, to strengthen the administration of religious affairs 
in the township, to standardize the conduct of religious activities, 
and to reflect closely the circumstances of this town, effective 
immediately, we have decided to employ a united action to destroy the 
organization of the underground Catholic Church in Shanbei, Leifang, 
and Donglai, and to stop its illegal assembly activities. The following 
operation procedures are proposed:
A. Guidelines
    In the spirit of the 6th meeting of the 14th Party Conference, and 
in order to mobilize the vast number of people including religious 
believers, we learn from the document: ``Decision of the Central 
Communist Party on Certain Important Resolutions Relating to the 
Strengthening of the Spirit of Socialism to Establish Civilization''
    For promotion of social stability and for successful eradication of 
the illegal religious activities by law, we must:
    (1) Raise the banners: ``Protect the Dignity of the Law'', and 
``Self Administer an Independent and Autonomous Church'',
    (2) Achieve the objectives: ``Protect the Legal (Official Patriotic 
Association), Stop the Illegal (Unofficial underground Roman Catholic 
Church), Strike the Illegal, and Resist the Infiltration'',
    (3) Use the strategy of ``Conversion Through Re-Education, 
Disintegration, Unification of the Majority and Attacking the 
Individuals'', and
    (4) Proceed steadily and proactively with meticulous planning, and 
decisive attitude to avoid major problems.
B. Objectives
  <bullet> Destroy the organization of the Catholic underground forces 
        in the township.
  <bullet> Cut off foreign contacts with local illegal elements
  <bullet> Destroy the Church's illegal assembly place
  <bullet> Thoroughly clear all religious propaganda posters
  <bullet> Strengthen the establishment of spiritual civilization and 
        grassroots organization
  <bullet> xxxxxxxxxxxxxx
  <bullet> Coordinate all security implementations.

    Three stages are necessary to achieve the above objectives.
(I) Planning Stage: (November 20 to 25)
    (1) Establish a strong organization for each rank. All personnel 
should report to duty and start working.
    (2) Carefully plan a highly secured procedure for overall 
implementation in this township.
    (3) Combine the township's workforce to organize six teams of 
``spiritual civilization propaganda force'' to be stationed and put to 
work in those villages where the underground Catholic Church has the 
most influence.
    (4) Define propaganda policy and customize the propaganda campaign 
to target different groups of underground believers: religious, core 
elements, and general public believers. Utilizing the authority of the 
government, print announcements of prohibition. Adopt a unified 
propaganda approach and prepare its materials.
    (5) Be mentally and materially prepared to handle any unexpected 
incidents. Promptly report any such incidents to your supervisor.
(II) Implementation Stage (November 25, 1996-March 31, 1997):
1. Before November 25, 1996
    All village ``Spiritual Civilization Promotion Teams'' must be 
stationed in the villages where the underground Catholic church 
believers live. The primary objective of the team is to develop an 
education propaganda offensive by utilizing radio broadcast to 
propagate the ``Decision of the Central Communist Party on Certain 
Important Resolutions Relating to the Strengthening of the Spirit of 
Socialism to Establish Civilization''
    We must propagate the Party's religious policy and the code of law 
in addition to patriotism.
            (a) Laying the Foundation:
    In order to accomplish conversion through education, the team 
members should
    (1) Eat, live and labor together with the people,
    (2) Perform good public relations act by visiting every family, and
    (3) Sincerely offer them solutions to their practical production 
problems.
    The above steps will re-educate the attitude (of the Catholics) to 
work for us (our favor).
            (b) Investigation
    In order to insure that this campaign of eradicating illegal 
religious activities is fully implemented,
    (1) Thoroughly understand all basic characteristics of the vast 
group of religious believers. In cooperation with the local police 
department, develop a complete headcount of both local and transient 
populations. Register and set up a file for each one of them.
    (2) Investigate and clearly understand the background of those out-
of-town Catholics visiting the villages.
    (3) Fully and legally utilize the grassroots organization of the 
Party as the center of operations for this campaign by:
    (a) Strengthening the establishment of the leadership class for 
those villages most populated by religious believers, and
    (b) Performing a thorough evaluation of the Party's village branch. 
Make any adjustment or reinforcement to insure that the branch can 
serve as the fortress of this campaign.
2. Before November 30, 1996
    (a) Thoroughly investigate and understand the underground Catholic 
religious, the core members of the underground force, the number of 
Catholics and the basic circumstances of the illegal activities.
    (b) Investigate each one of the following groups, understand its 
activity schedules, overseas connections, the degree of its 
stubbornness, the traits that could be taken advantage of, and its 
psychological characteristics:
    (i) Underground Catholic religious
    (ii) Catholic believers in the Communist Party, Communist youth 
league, government cadre, militia, staff and their families, and
    (iii) The people responsible for illegal activities,
3. Develop different class levels
    Each team must strengthen the target of education. Tailor the 
classes to the varying needs of the public audience.
    (a) The first objective is for the Party. Its objective is to use 
the constitution of the Party to unify the thoughts of the member of 
the Party so that they could develop the influence as a model to stop 
the underground Catholic illegal activities.
    (b) The second objective is to create a reserve force of zealous 
young people for the Party's undertaking. This class is to help them:
    (i) to cultivate the life and world outlook of the proletarian 
thoughts,
    (ii) to be aware of the capacity of different ideas which could 
have infiltrated them from the non-proletarian people, and
    (iii) to be capable of resisting these ideas.
    (c) The third objective is to induce underground Catholic religious 
and its core members to carry on their religious activities normally 
and legally by making them aware of those activities which are in line 
with ``theology'', those which are unreasonable and illegal. This class 
is to indoctrinate them about the policies and objectives of the Party, 
and the law of the nation.
4. Make a big effort to disintegrate the underground religious 
        influence
    Underground religious activities are illegal and dangerous. This 
should be explained clearly in the class.
    The policy of the government is to protect and support the 
autonomous church. Only through the autonomous church will there be 
hope.
    Break up the underground religious influence by:
    (a) Uniting the majority through education,
    (b) Isolating and attacking the extremist,
    (c) Developing overall education,
    (d) Organizing specialists, and
    (e) Using any other conceivable means.
    With the exception of the few stubborn and core members (of the 
underground Catholic Church) who must be prosecuted according to law, 
the remainder will be indoctrinated by education. Persistent effort 
should be applied to convince the believers to obey the government and 
no longer to join illegal religious activities. Settle those who join 
legal religious activities and provide them with a suitable assembly 
place.
    Using the principle of uniting the majority and isolating the 
extremist, prompt the workers to take care of each person (underground 
Catholic), forcing him (the underground Catholic) to write a statement 
of repentance (apostasy letter), to recognize the policy of 
independence and autonomy (of the church), and to join the legal 
religious activities (the Patriotic Association).
5. Thoroughly and legally eliminate the assembly locations for illegal 
        activities by the following means.
    (a) Public relations,
    (b) Reliance on Party's grassroots organization,
    (c) Harvesting the power of the public (opinion), and
    (d) Adopting the procedure of settling the religious issue as non-
religious.
    Seal those places used for comparatively less serious illegal 
activities, and, through the workers, register them so that they could 
practice legal religious activities, and be brought into normal 
administration. In the mean time, if any underground seminary is 
discovered, it must be categorically eliminated.
6. Firmly eliminate large scale illegal assemble activities such as on 
        (the Christmas day) ``December 25''.
    (a) Control underground religious and core members' illegal 
activities.
    (b) All religious believers in the village must be well prepared 
for the task of interception. Firmly warn religious believers not to 
leave the village.
    (c) The procedure must be prepared early, and the propaganda must 
be completed early. Licenses or permits for vehicles and equipment used 
for religious activity are not only to be confiscated, but also their 
users be fined. In the meantime, be prepared to handle any sudden 
unexpected incidents.
7. Infiltrate Schools
    Must have a very strict policy. Adjust and strengthen the power of 
teachers in the religious believers' village.
    (a) Those teachers performing illegal religious activities must be 
punished, or even dismissed.
    (b) Do not allow any missionary activities in the school
    (c) Do not allow the study, observation, or visits of any form of 
religious activities.
    (d) Do not allow students to carry any religious goods and 
propaganda materials.
    Disobedience must be punished most severely. Stop firmly the use of 
religion to interfere with this directive and with other policies such 
as birth control, Take care of these issues on a case by case basis.
    Through implementation of the above procedures, the objective of 
destroying the organization of underground Catholics and their assembly 
places must be achieved. Breaking up the underground Catholic 
influence, preventing the underground Catholics from participating in 
large scale assemblies on Shitangshan, cutting off the relationship 
between the criminal elements and overseas enemy force are steps to 
normalizing legalized religious activity.
II. Consolidation Stage (April 1, 1997-June 30, 1997)
    In order to consolidate the hard-won results and to prevent the 
repetition of the illegal activities, we must make the struggle of 
stopping the illegal Catholic activities a long term political 
objective. After this unified and concentrated action, we must take 
advantage of these three months to consolidate the result, to insist on 
additional work on this project, and to insure that the illegal 
underground Catholic influence and the illegal assemblies in our 
township are eradicated. Each village must also strengthen its systems 
and regulations.
C. Leadership Organization
    Establish ``Donglai Leadership Team to Stop the Underground 
Catholic Church Illegal Activities According to the Law''

    Officer-in Charge: Yang Shusen
    Vice Officer in Charge: Chen Zemin
    Team workers: Li Xianchang, Xong Yiaoqiu, Huang Lusun, Xiao 
Jingxing, Chen Guimin, Lu Yaomin, Huang Rongshun, Sun Guangrong, Zhou 
Kaiwu, Huang Xinmin.
    Office Manager: Huang Xinming
D. Matters Demanding Special Attention
    1. Having a good grasp of policies, being particular about tactics, 
and strictly managing affairs according to the laws, the leaders of 
various levels must carry out the assignment of ``stopping illegal 
activities'' as an important ``Engineering Task'' by strengthening the 
spiritual build-up in order to manage and to put society in order. They 
must be firm and proactive in the strategy; active and steady in 
tactics. Political matters should be treated as non-political ones 
while the problems of religious character should be so solved as non-
religious ones. Do not agitate the already conflicting situation; 
thereby irritating the restless factors and causing very serious social 
disturbances as the result of erroneous problem management.
    2. Discipline must be observed, and commands must be obeyed. 
Decisions made by the leadership group of the county and township 
government must be carried out firmly. Mistakes caused by negligence 
must be investigated and dealt with seriously. Reporting and feedback 
systems must be strictly enforced. Each week, the working unit is to 
report to the township leadership group about its work in progress. In 
the meantime, confidentiality is to be strictly observed. Do not 
disclose the undisclosable. Those who negatively impact the overall 
strategy as the result of compromised secrets will have to be 
dismissed, or, if the situation is serious, criminally prosecuted 
according to the law.
    3. In order to accomplish this difficult and glorified assignment 
from the county committee of the communist party and the county 
government, responsibility oriented systems must be put in place and 
enforced. Each village committee and unit should clearly understand its 
assignment in conformity with local practice. One must clearly 
understand and be responsible for one's own obligation. Serious 
unfavorable consequences arising from disobedience, irresponsibility, 
and resulting in the undermining of the strategically planned objective 
must be conclusively investigated. All village committees and township 
units must work and support each other by coordinating all initiatives.

The Propaganda Slogans of the Special Struggle of ``Eradicating Illegal 
                    Activities'' in Donglai Township

    (1) All religious activities must only be conducted within the 
scope of the national constitution, laws, regulations and policies!
    (2) Actively expand the special struggle of eradicating illegal 
religious activities in accordance with the laws!
    (3) Firmly attack and eradicate the unlawful and criminal 
activities committed through religion!
    (4) Firmly attack and eradicate illegal missionary activities and 
unlawful assemblies!
    (5) Do not offer sites, supplies for illegal religious activities! 
Offenders will be punished severely!
    (6) Out of town religious visitors are not to be allowed! Offenders 
will be punished severely!
    (7) Protect the lawful, stop the unlawful, and attack the illegal 
offenders!
    (8) Gatherings are not permitted on Yujiashan, Shitangshan and 
Zen's House. Offenders will be punished severely!
    (9) Conducting religious activities are not allowed at the sites 
forbidden by the government. Offenders will be punished severely!
    (10) Firmly eradicate all illegal religious activity sites!

 Donglai Township Spiritual Enhancement Propaganda Team Membership List

Shanbei Village Committee
    Group Leader: Li Yian Chang
    Group Assistant Leader: Yiao Jing Ying
    Members: Chen Zhengsun, Zhou Xiaogiu, Li Yonggen
 Leifang Village Committee
    Group Leader: Xong Xiaoqiu
    Group Assistant Leader: Chen Guimin
    Members: Le Guixiu, Zheng Xiaoping, Sun Guangrong
Donglai Village Committee
    Group Leader: Huang Lusun
    Group Assistant Leader: Chen Zeming
    Members: Luo Chunfa, Deng Dongyu, Zeng Yonggao
Tangren Village Committee
    Group Leader: Huang Rongshun
    Members: (xxx) Shuiming
Chenjia Village Committee
    Group Leader: Lu Yaoming
    Members: Yuan Youxing
Caochang Village Committee
    Group Leader: Zhou Kaiwu
    Members: Dai Xinsheng

   The Planning of ``Eradicating the Illegal Activities'' in Donglai 
                                Township

I. Propaganda & Initiative Stage (11/20/96-11/25/96)
    (1) The committee of the communist party and the government of the 
township summons a council meeting to strategize the ``Eradicating the 
Illegal Activities'' initiative and to set up definitive procedures.
    (2) The government of the township convenes a meeting of all the 
township Party cadres.
    (3) The village committee convene meetings of the Party Branch 
Committee, Party members and all the villagers.
    (4) The village committees set up special subgroups.
    (5) The units and committees of all villages produce banner - sized 
slogans (2 to 3 slogans per village unit).
II. Investigation Stage (11/26/96-11/30/96)
    (1) Research and count the exact population of religion believers.
    (2) Locate the key village committees (30 or more Catholic families 
in the village) and the key families (2 or more Catholics in the 
family).
    (3) Clearly ascertain the locales of religious activities, i.e. the 
religious gathering sites.
    (4) Fully investigate the background and illegal activities of the 
underground Catholic clergy population as well as key and active 
Catholics.
III. Education and Transformation Stage (12/1/96-12/15/96)
    (1) Prepare the propaganda literature and ``the three courses'', 
i.e. the policy on religion, laws and regulations, and build-up of 
spiritual civilization.
    (2) Establish the learning classes for Catholics.
    (3) Convene mass meetings. Educate them in accordance with their 
(required) standards.
    (4) Establish township regulations and civil disciplines.
    (5) Account for the responsibility between the village subgroups 
and the village committee.
    (6) Complete and sign an accountability system for mutual support 
between village committee and village subgroups.
    (7) Strengthen the establishment of grassroots Party branch 
committee and the government.
IV. Legal Control Stage (12/16/96-12/31/96)
    (1) Blockade the exits. Guarantee that no one leaves the village 
and township on December 25.
    (2) Forbid out-of-town Catholics from entering the township.
    (3) Tighten the surveillance and control of the area.
    (4) Clamp down and seal the sites of illegal religious activities.
    (5) Strictly forbid unlawful gatherings and activities in schools.
V. Conclusion and Consolidation Stage (1/1/97-6/30/97)
    (1) Consolidate the achievement of ``Stopping Illegal Activities'', 
undertake and implement the special struggle of lawfully eradicating 
illegal religious activities as a long-term political project.
    (2) Strengthen the regime's infrastructure. Establish a permanent 
religious surveillance group.
    (3) Meticulously execute the phases of consolidations and re-
examinations.

                                Glossary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________

   Document of the Tong Xiang City Municipal Public Security Bureau/
Chinese Communist Party, Tong Xiang City Committee, United Front Works 
                               Department

                                                    Secret Document

 Opinions concerning the implementation of the Special-Class Struggle 
   (zhuan xiang dou zang) involving the Suppression of Catholic and 
             Protestant Illegal Activities According to Law

Municipal CCP Committee, Municipal Government:
    In the last few years, under the correct leadership of the 
municipal Chinese Communist Party committee and the municipal 
government, the religious policy of the Party has been implemented to a 
further degree. The regulation of religious affairs in our city have 
moved toward a more legal and institutionalized process. In general, 
the situation concerning religion is stable. But there also exists some 
problems which cannot be ignored. In terms of the overall situation, 
there has been a steady increase, and no decrease, on the part of 
hostile forces outside our country, which uses religion to undergo 
subversive and destructive activities such as ``westernization'' and 
``division'' (fen hua), to aggressively cultivate anti-government 
forces, to realize the ``evangelization'' (fu yin hua) of China, and to 
vainly seek to bring about the changes which occurred in the former 
Soviet Union and Eastern Europe.
    Inside our country the underground forces of Catholicism and 
Protestantism have responded to these, and worked together with these, 
to resist against the government and the government's patriotic 
religious organizations. The illegal and criminal activities of 
Protestants in our city are more prominent. Some of the illegal, self-
ordained preachers have stirred up the believers and masses to attack 
the ``Three Self'' patriotic organizations, to oppose the leadership of 
the government; they prevent the government from implementing its 
regulations, and control and influence almost 1,000 Protestant 
believers. They go everywhere and say ``Don't go with the Three Self,'' 
and write all kinds of essays concerning the spiritual and the worldly. 
They spread the ideas that ``To believe in Three Self is worldly, not 
spiritual,'' ``Once you believe in Three Self you will not be saved, 
and will definitely go to hell.'' Mainly this concerns the ``three-
struggle, three-churches, and sixteen points'' problem.
    The Three Struggles are: struggle against materialism . . ., using 
illegal means, to go to homes and hospitals etc. to draw (la long) 
believers; struggle against ``Three Self'' patriotic organizations, 
establishing illegal meeting points near open churches. The struggle 
between factions (jiao pai). Protestant Christians and . . . Church of 
Christ in China (zhong hua ji du jiao) and True Jesus Church; they 
fight against one another to grab power.
    The Three Churches are: . . . to be against ``Three Self'' 
patriotic organizations; to be against the Tong Xiang and Shi Men 
Christian Churches led by the government; to ask for . . . Three Self, 
but not submitting to the Wu Tong Christian Church which it (Three 
Self) regulates.
    The Sixteen Points are: Lu Tou, . . . , Qian Lin, Qie Tang, Shi 
Qiao, Min Xing, . . . etc. sixteen places, where there are Christian 
meeting points illegally established. These illegal activities have 
affected the orderliness of the proper religious activities of our 
city, and the socialist spirit, and the construction of civilization 
and social stability in some of the regions.
    The Catholic Churches in our city are dispersed at Wu Tong Cheng 
Nan, Niao Zhen, . . . , Shi Men, Tu Dian, Hu Xiao, Yong Xiao, Yong Xiu, 
Lu Tou etc., these eight fishing villages. There are 448 believers. 
Since there is a Catholic activity point only at Pu Yuan, most are 
dispersed in their homes . . . Chang An, . . . . . . Catholic Churches. 
Those under age and Party members . . . individual Catholic believers . 
. . oppose religious . . . organizations . . . . . .
(2 lines illegible)
    According to the requirements of the Provincial Party Committee 
Office, Provincial Government Office's ``Memorandum of the Opinions on 
Implementation of the Launching of the Special-Class Struggle against 
the Catholic and Protestant illegal Activities According to Law'', (we 
are to) integrate with the realities of our city, in the first half of 
this year, to begin the special-class struggle involving the 
suppression of Catholic and Protestant illegal activities according to 
law. We now report the opinions on the concrete implementation:
1. Basic Mission
    Insist on eliminating the illegal meeting points (i.e. churches) 
which have background of foreign subversions, conduct illegal 
activities, and are controlled by underground clergy. Divide and 
dissolve the Protestant underground forces; strike (da ji) against the 
illegal and criminal activities which are conducted in the name of 
religion, according to law. According to law, suppress the illegal 
activities of the three churches in Tong Xiang, Shi Men and Wu Tong. 
Divide and isolate the minority of self-ordained (zi feng) preachers 
who oppose ``Three Self.'' Absorb these three churches into the ``Three 
Self'' structure. Strengthen the regulation of religious activities. 
Promote the work of registration of religious activity meeting points. 
Launch out an in-depth propaganda campaign concerning the Party's 
religious policy and the Government's regulations (concerning 
religion). Correct and turn around the opinion orientation of some of 
the believer masses who have been misled by the minority anti-Three 
Self forces. Unite believers and the masses around the Party and the 
Government. Use healthy, civilized, progress thought and moral mores to 
educate the great masses, to promote the stability of society.
2. Implementation Procedures
    In order to strengthen the leadership of the special-class struggle 
involving the suppression of Catholic and Protestant illegal and 
criminal activities, (we) suggest the establishment of a Leadership 
Team (ling dao xiao zhu) including a chairman and leaders from Public 
Security, United Front, Religion, Propaganda, Inspectorate, Courts, 
Executive (shi fa), People's Rule (min zheng), educational committee 
member (jiao wei), municipal construction (cheng jian), . . . , women's 
league (fu lian) etc. This will be responsible to lead, coordinate, 
supervise, inspect the concrete situation of all the measures. Also 
establish a zheng-zhi-ban to eliminate illegal meeting points, and 
zheng-zhi-ban to deal with (?) the work of the three churches: Wu Tong, 
Shi Men, Niao Zhen, Lu Tou, Shi Qiao, Min Xing, Qie Tang, Pu Yuan, etc. 
In these locations, establish ``Suppress the illegals Work Committee'' 
(zhi fei gong zuo zhu), and concretely implement the various measures 
of ``suppressing the illegals'' work.
    According to the overall plan for our province, this ``suppress the 
illegals'' special class struggle will be carried out in three stages.
    Stage 1: Preparation Stage. From now to the end of February, do a 
good job in fully preparing for this special class struggle. The public 
security organizations and religion departments in all localities 
should consolidate all your energies and concentration to do an in-
depth investigation of the Catholic and Protestant illegal religious 
activities in your locality. Clarify the present conditions of 
Catholicism and Protestantism; the situation concerning foreign 
subversion; illegal and criminal activities; and the illegal activity 
locations controlled by underground bishops, priests and Protestant 
self-ordained clergy, an those meeting points which did not register, 
or refuse to register in the year 1996. Collect and sort out evidences 
and data which has legal efficacy. Upon this foundation, and according 
to local concrete situations, design workable work plans, and convene 
``suppress the illegals'' leadership team meetings, to make clear the 
functions, responsibilities, measures and requirements for each 
department.
    Stage 2. Zheng zhi (taking measures) stage. From March to May, have 
a centralized arrangement, and concentrate all energy to proceed with 
this special-class measure. The work should be grasped well in terms of 
three focal points:
    (1) Through patriotic religious organizations, start working on 
winning people over. Religion should be ``united front-ed,'' (tong 
zhan), propaganda . . . (illegible) Convene and mobilize the Three Self 
Patriotic Movement committee and the China Christian Council, publicize 
the Party's religious policy and the related Government laws and 
regulations, through the pulpits of open churches and meeting points. 
Educate the believing masses concerning the regulations on the use of 
religious activity points. Lead those believers in illegal religious 
activity points to come to . . . churches and meeting points. . . . 
Clarify the boundary between proper, legal religion and illegal 
religious activities. Divide and destroy illegal meeting points.
    (2) Eliminate, according to law, the illegal religious meeting 
points. With great determination, suppress illegal religious 
activities. Strike (da ji) illegal and criminal conduct (April). 
Determinedly suppress and eliminate the large scale illegal meetings, 
both Catholic and Protestant illegal training classes; illegally 
published and printed propaganda (evangelistic?) materials; and 
activities and meeting points with foreign subversion . . . according 
to the ``Assembly, Demonstration and Parade Law'', ``Regulations 
concerning the Management of Religious Activity Points.'' . . . Conduct 
``education classes'' for the self-ordained clergy and moderators of 
illegal religious activity points; such classes shall be conducted by 
the People's Municipal Government. Concentrate on transformation 
through education (jiao yu zhuan hua). Rebuke them to stop illegal 
activities. Deal with illegal and self-erected religious meeting points 
according to law. Implement long-term control measures through the 
local police offices . . . Collect evidence of all kinds of illegal and 
criminal activities under the banner of religion. Punish according to 
law.
    (3) Penetrate and fan out in a multi-faceted measure. Deal with the 
Protestant churches in Tong Xiang, Shi Men and Wu Tong who, after many 
efforts of education, still refused to register, and refused to obey 
regulations. First, the Religious Affairs Bureau will take the lead to 
organize ``Three Self'' patriotic organization members to temporary 
take over the approval of restoring the churches in Wu Tong and Shi 
Men. Announce that Wu Tong Ba-zi-qiao church would not be given 
registration, it will not be protected by law. Rebuke it to stop 
activities. Concerning the church buildings which were built illegally 
on their own initiative, close up and deal with them according to 
regulations. Proceed to educate and control those minority clergy and 
moderators of churches which do not obey, who are obstacles to the 
implementation of regulations, and who oppose ``Three Self.'' Strictly 
prevent them to stir up trouble. When legally suppressing the illegal 
religious activities, educate, unite and win over the believing masses 
who worship at Tong Xiang, Shi Men and Wu Tong -make this the focus of 
your work. Religion, propaganda and other departments should do their 
work with different formats. With great effort, proceed to educate and 
spread propaganda among this segment of the believing masses. Help them 
be clear on the distinction between proper religious activities and 
illegal religious activities. Strengthen the self-initiative (zi jue 
xing) of believing masses to boycott illegal religious activities, that 
they may be good citizens and good believers who love their country, 
love their religion and abide by the law. Dispatch work teams, and 
fully depend on the basic party and government structures, and upgrade 
the scope of work. Approach this with leading and helping masses to 
develop economic . . . small business. Unite this with the construction 
of spiritual civilization. Broadly, and deeply spread the propaganda 
concerning the Party's religious policy and related laws and 
regulations. Shake out sharply reduce the influence of illegal 
religious activities.
    Stage 3. In June, summarize . . . , and receive the takeover by the 
city and local authorities. The standards for inspection: (1) That the 
Catholic and Protestant underground forces have been divided, and the 
absolute majority of believing masses have been won over by education 
and unification to of the way of ``love of country and love of church'' 
(ai guo ai jiao). (2) Illegal activities basically are suppressed, and 
illegal criminal elements have been punished according to law. (3) 
Illegal structures in religion are destroyed. The illegal meeting 
points which have subversive foreign background, and conduct illegal 
and criminal activities will be suppressed and supplanted. (4) List the 
underground Catholic bishops, priests, and Protestant self-ordained 
ministers who have not sufficiently been dealt with legally, into 
``primary-point management'' (zhong dian guan li), and implement 
measures of investigation and indictment (zeng kong cao si). (5) At the 
most local/basic level of the Party, strengthen regulating of religious 
activities according to law; concretely have personnel to be 
responsible for it. Those responsible for religion work understand the 
basic religious situation at the local level, have some basic knowledge 
of religion, have a basic grasp of the Party's religious policy and 
related legal knowledge. They should dare to really regulate religious 
activities; know how to regulate; and regulate well (gan guan, hui 
guan, shan guan).
3. The Requirements of Work
    In all localities, the special-class struggle of legal suppression 
of Catholic and Protestant illegal activities should be a concrete 
measure to thoroughly implement the spirit of the 14th six-way combined 
Congress, and the 9th provincial party congress. Combine with the basic 
strategy of peasant education which our party in our province is 
launching out . . . We must fully understand the significance, the 
complexity of this special-class struggle; and strictly take hold of 
the Party's religious policy and the related laws and regulations. 
Correctly distinguish and handle the two categorically different kinds 
of contradictions. Guarantee the successful operation of the special-
class struggle. As this struggle is implemented in various localities, 
the following points must be heeded and grasped:
    (1) Work hard to do a good job in investigation (diao cha) and 
issuance of certificates (qu zheng). Fully make use of laws and 
regulations. The work of striking an suppressing should proceed 
legally, so that it may be accurate and powerful.
    (2) The legal suppression of illegal religious activities should 
not affect the proper points of religious activities and meeting 
points. Those who are within the realm of this regulation, but are slow 
in registering, should not be considered within the target of 
elimination. Concerning the three churches (Tong Xiang, Shi Men, and Wu 
Tong) where the underground self-ordained pastors are in control, when 
legal measures are taken, . . . conditions should be created, and 
patriotic clergy should be selected and sent to organize committees of 
church affairs to take charge of religious life, and to take over 
religious strongholds.
    (3) Strengthen the work of intelligence and information. In fact, 
those who control Ton Xiang, Shi Men to conduct illegal religious 
activities are the same bunch of self-ordained clergy as those who 
struggle for power with ``Three Self'' and who establish . . . meeting 
points. Have a firm grasp of the activities and movement of this bunch 
of core elements who conduct illegal activities. Strictly prevent them 
to stir up trouble. Once there are traces of stirring up trouble (gao 
shi), deal with it decisively under the united leadership of the party 
committee and the government. Suppress it while it is still in the 
budding stage.
    (4) Encourage the patriotic religious organizations to become more 
effective. Educate and encourage patriotic clergy to positively work 
with this special class struggle, and take initiative to help the 
government do a good job in educating, uniting the believers and masses 
through religious sentiment and religious consciousness.
    (5) As the special class struggle proceeds, all villages, cities 
and departments should coordinate with each other closely, strengthen 
communication, exchange information, and help each other in war.
    (6) The situation of the work of this special class struggle will 
not be reported by the news media.
    If there are no improper measures in the above opinions, please 
issue this to the various localities and departments for 
implementation.

                             Tong Xiang City Public Security Bureau
        Chinese Communist Party Tong Xiang City United Front Works 
                                                         Department
                                                  February 27, 1997

                               __________

               B. Prepared Statement of Steven J. Coffey

    Mr. Chairman, I welcome the opportunity to appear before you today 
to testify on the question of religious freedom in the Middle East.
The Foreign Policy Context
    Religious freedom is an issue to which the Department of State has 
been devoting increasing attention. It is a complex problem. Issues of 
religious freedom are often laden with emotion, misunderstanding, 
political overtones, ethnic implications, and deep historical wounds. 
From Northern Ireland to Bosnia to Tibet, the world is replete with 
examples of continuing religious intolerance and conflict, often 
spilling graphically on to the evening news and the front pages of our 
newspapers. Unfortunately, problems of religious persecution seldom 
lend themselves to simple remedies or easy solutions. This is 
especially true in the Middle East, where three of the world's major 
religions trace their origins, and where it is often difficult to 
separate religion and politics.
    The promotion of religious freedom in the Middle East and elsewhere 
is a growing priority in our foreign policy. Religious liberty is, 
after all, a core American value. Our nation was founded in large part 
by refugees from persecution. The Framers of our Constitution enshrined 
religious freedom among the most sacred of the rights guaranteed to our 
citizens. And America today is a country where people freely worship 
and where hundreds of religions flourish. In fact, the United States 
today is a multi-religion society where more than twenty separate 
religions or denominations have over a million adherents each. 
Americans provide a living example of our conviction that people of 
diverse religions can coexist happily and that religious minorities can 
live together in harmony.
    Our religious liberties don't thrive in a vacuum, however. They 
thrive in the context of a free society, a society that guarantees full 
personal liberties to all its citizens--freedom of conscience, freedom 
of speech, freedom of assembly. These are among the basic elements of 
any democratic society. As we look around the world, we see that where 
political freedom, individual rights, and democracy are on the rise, so 
is religious freedom. We need to look no further than the revival of 
the religious activities in Russia and central Europe following the 
fall of Communism to see how increased political freedom leads to 
increased religious activity.
    This, then, is the context in which we must formulate and implement 
our policy in the Middle East and around the world: where political 
freedoms thrive, so do religious freedoms; where political freedoms are 
constrained or repressed, the same is often true for religious freedom. 
Religious freedom can only truly flourish in free societies.
    One of our operating principles, therefore, is that as we work to 
expand the family of democracies around the world, to build free 
societies, to encourage tolerance, and to defend all fundamental human 
rights, we are also working to promote religious freedom. Our global 
policy seeks to build a framework of peace, freedom and respect for law 
in which all human rights can thrive, including religious liberty.
The Context in the Middle East
    The region we're focusing on today is huge. It stretches from the 
Atlantic Ocean to the Indian Ocean. It comprises some twenty countries. 
Its systems of government range from democracy to theocracy to monarchy 
to dictatorship. It is a region of prosperity and of poverty, of vast 
resources and of barren deserts. It is a region that features economic 
growth in some areas and stagnation in others. Some of its governments 
have been stable for decades, while others have been much less so. In 
sum, the Middle East is not easily defined. It is a region of 
contrasts. We should be wary of drawing generalizations.
    It is not my intention today to attempt a country-by-country 
analysis of the Middle East. I would, however, like to offer a very 
brief overview of U.S. interests and the policy that guides our 
activities in the region. U.S. goals in the Middle East are far-
ranging.
  <bullet> First, securing a just, lasting, comprehensive, Arab-Israeli 
        peace is a cornerstone of U.S. policy. This is no longer a 
        dream; it is attainable. The agreements reached over the last 
        three years between Israel and Jordan, and between Israel and 
        the Palestinians, the expansion of political and economic 
        contacts between Israel and its Arab neighbors, and the long-
        standing peace between Israel and Egypt form the foundation of 
        a comprehensive settlement of the conflict. While much work 
        remains ahead, building a basis for lasting peace will remain 
        at the center of our Middle East policy.
  <bullet> Beyond the Arab-Israeli peace process, the U.S. is committed 
        to maintaining full and secure access to the energy resources 
        of the Persian Gulf. It is in this context that we work to 
        contain the threat to regional stability posed by Iran, Iraq, 
        and Libya.
  <bullet> We are working to contain regional conflicts and prevent 
        hostilities.
  <bullet> We are working to counter the proliferation of weapons of 
        mass destruction.
  <bullet> We are actively combating the threats of terrorism, 
        narcotics, and international crime.
  <bullet> We are expanding trade and investment opportunities for the 
        U.S. private sector.
  <bullet> We are providing humanitarian assistance to aid millions of 
        refugees and displaced persons throughout the region.
  <bullet> And finally, but certainly not least, we are working 
        throughout the region to encourage movement toward democratic 
        political processes, strengthened rule of law, greater respect 
        for human rights, improved opportunities for women, and 
        expansion of civil society institutions. Democratization, human 
        rights and political reform are important elements of our 
        dialogue with governments of the region. They are a major focus 
        of USIS activities and a central element in many of our AID 
        programs. We have launched democracy-building assistance 
        programs in seven Middle Eastern countries. In addition, the 
        U.S. encourages and supports through IMET programs the 
        development of professional, apolitical military forces trained 
        to respect human rights. And, the Middle East Democracy Fund, 
        inaugurated this year, will seek opportunities for developing 
        democratic institutions in countries receiving little or no 
        peace process-related economic assistance or AID-administered 
        development assistance.
    This, then, is the broad context in which we pursue our Middle East 
policy. Let me now focus more specifically on the question of religious 
freedom in the Middle East.
The Religious Context
    Very serious issues of religious restrictions, discrimination, 
persecution, and conflict exist in the Middle East. The region is 
diverse, however, and, as I have pointed out, we should be careful not 
to make sweeping generalizations. In most of the Middle East there is 
little or no separation of religion and state as we practice it in the 
United States. Although this is manifested differently in each nation, 
the close association of religion and the state--and the lack of 
tolerance and pluralism--poses a special challenge to protect adherents 
of religions other than the state religion. In most countries of the 
Middle East, Islam is the official, state religion. In some countries, 
such as Jordan and Morocco, the King derives his legitimacy, in part, 
because his heritage is traced back to the Prophet Mohammed and the 
beginnings of Islam. In many countries, religious law is imposed by the 
state; in others, civil law and religious law exist side by side. In 
some, such as Israel, religious political parties are active in 
government; in others, such as Algeria, religious parties are banned. 
In Lebanon, the most senior government positions are allocated 
according to religious affiliation.
    With these variations in mind, it is worth highlighting the 
following issues:
  <bullet> Most Middle Eastern states impose significant legal 
        obstacles to religious freedom, contrary to the provisions of 
        the Universal Declaration of Human Rights. Some governments, 
        such as Saudi Arabia, prohibit entirely the practice of 
        religions other than Islam. This prohibition on non-Muslim 
        religions forces Christian and other expatriates who seek to 
        worship to do so only at great personal risk and under 
        extremely discrete circumstances. In others, from Israel to 
        Kuwait, religious affiliation is a prerequisite of granting 
        citizenship to new immigrants.
  <bullet> One of the most serious issues concerning religious freedom 
        in most Middle Eastern countries is a strict prohibition on 
        proselytizing. Conversion of Muslims to other religions is 
        often illegal. Apostasy can carry heavy penalties including, in 
        some countries, death. Iran, for example, has issued a decree 
        seeking the death of the writer Salman Rushdie, who is called 
        an apostate for authoring The Satanic Verses. In addition, the 
        government of Iran has decreed all Bahai's to be apostates, 
        regardless of whether they were born Baha'i or are converts. 
        Two Baha'is have been sentenced to death for apostasy, and 
        Christian evangelists have died in Iran under extremely 
        suspicious circumstances. Most countries in the region prohibit 
        or restrict proselytizing, and there is serious societal 
        discrimination and intolerance against converts. This, of 
        course, is contrary to the Universal Declaration's provision 
        that protects the right of all people to change their religion 
        or belief.
  <bullet> In some states, specific religious groups are persecuted or 
        their practices restricted. For example, in Iraq the government 
        has severely restricted its majority Shi'a Muslim population, 
        banning the broadcast of Shi'a programming on government 
        television and radio, the publication of Shi'a books and even 
        the commemoration of Shi'a holy days. The Assyrian Christian 
        community has suffered various forms of persecution and abuses 
        by Iraqi forces, including harassment and killings.
  <bullet> Even where legal obstacles do not exist, societal 
        discrimination on a religious basis does. Jews throughout the 
        Middle East, especially since the creation of the State of 
        Israel, have experienced societal discrimination or repression, 
        resulting in the large scale emigration of traditional 
        communities. Anti-Semitism remains a widespread problem in many 
        Middle Eastern countries today. The Coptic Christian community 
        in Egypt is subject to discriminatory practices, in addition to 
        a number of legal restrictions. And, discrimination against 
        women remains a pervasive problem throughout much of the Middle 
        East; in some instances discriminatory actions against women 
        resulting from societal traditions are incorrectly explained as 
        resulting from traditional Islamic practice.
  <bullet> Some Middle Eastern states legislate in ways that 
        discriminate against religious groups. In some cases, legal 
        restrictions on a particular community exist but are not 
        enforced in practice. In Israel, Orthodox religious authorities 
        have exclusive control over marriage, divorce, and burial of 
        all Jews, regardless of the individual's orthodoxy. In Iran, 
        Baha'is are legally restricted in their educational and 
        employment opportunities, as well as in other ways.
  <bullet> Violence which chooses religion as its standard bearer is 
        all too common in the region. The sixteen-year Lebanese civil 
        war included elements of sectarian violence. In Algeria and 
        Egypt, armed groups have carried out acts of terror on both 
        Muslims and Christians in the name of religion. In Algeria 
        alone, thousands have been murdered--hundreds in just the past 
        two weeks--purportedly to advance a certain Islamic agenda. 
        And, of course, the Arab-Israeli conflict, while not a 
        religious conflict per se, is laden with religious overtones 
        and has provided grist to extremist groups, some of which--such 
        as Hamas--use religion to rally supporters.
    Given the absence of separation of religion and state, it bears 
highlighting that Middle Eastern governments are often active in 
regulating and restricting the practice of Islam, as well as of other 
religions. This is an important element of the religious context in the 
region that is sometimes overlooked. For example, it is common in many 
Middle Eastern states for governments to be involved in appointing 
Islamic clergy, funding mosques and religious workers' salaries, 
providing guidance for sermons, and monitoring Islamic religious 
services for unacceptable content. Such restrictions on Islam sometimes 
exist even in states that accept the free and open practice of other 
faiths. I raise the issue of restrictions on the practice of Islam in 
the Middle East to underscore that it is not just religious minorities 
in the region which face constraints on religious liberty. In some 
instances the restrictions placed on minorities are mirrored by similar 
restrictions or regulations of the Islamic majority. Some of these 
restrictions, moreover, overlap with constraints on other freedoms--
such as freedom of speech or freedom of assembly--reinforcing the key 
point that religious freedom is only likely to thrive in free 
societies, and where political freedoms are restricted or repressed, 
the same is often true for religious freedoms.
What Are We Doing About It?
    In my remarks so far, I have tried to lay out for you the general 
basis of our policy on religious freedom, the context and priorities of 
our Middle East policy, and the nature of the problem of religious 
intolerance in the Middle East. The remaining question I wish to deal 
with today is really the critical one: what are we doing about it? In 
fact, we are trying to deal with the question of religious freedom on 
several fronts.
  <bullet> First, we're speaking out for religious freedom. President 
        Clinton has issued several proclamations on religious freedom 
        and Secretary of State Albright, soon after taking office, 
        stated that freedom of religion is a priority human rights 
        concern for her and made it clear that it should be treated as 
        an important issue in our human rights policy. Religious 
        freedom is one of the core human rights basic to American 
        values. And it's more than just an American value--
        international human rights instruments and the Universal 
        Declaration of Human Rights enshrine religious freedom as one 
        of the basic, internationally recognized rights of all men and 
        women. One of the reasons I'm pleased to be here today is the 
        opportunity it affords to reiterate our message on religious 
        freedom and to do so in a way that it will be heard around the 
        Middle East and elsewhere.
  <bullet> Second, we're making it clear when there's a problem in a 
        country. Our annual human rights reports to Congress each 
        contain a section on freedom of religion; these spell out in 
        detail the situation in every country in the world, 
        highlighting the problems we see. This is a public document 
        that gets wide distribution. And we bring the reports and our 
        concerns directly to the attention of the governments 
        concerned. This year we will also be presenting a report to 
        Congress on persecution of Christians around the world, which 
        will include portions on Middle Eastern countries. And beyond 
        these reports, the State Department comments regularly and 
        publicly on instances of religious intolerance and persecution 
        that come to our attention in all countries, including in the 
        Middle East.
  <bullet> Third, we have begun to take a much more activist approach 
        in the field to questions of religious freedom. In December, 
        the Department of State instructed all U.S. embassies around 
        the world, including in the Middle East, to be alert to the 
        high priority we attach to religious freedom. We asked our 
        posts to report more actively on these issues, to identify 
        religions, denominations, or sects being discriminated against 
        or persecuted, and to provide suggestions about how the U.S. 
        might most effectively address questions of religious freedom 
        and religious persecution in their countries. This initiative 
        has already begun to show results, with more information coming 
        our way, and some useful suggestions on how to approach certain 
        governments on this issue.
  <bullet> Fourth, in February we convened the first session of the 
        Secretary of State's Advisory Committee on Religious Freedom 
        abroad. This new committee brings together twenty of America's 
        most prominent religious leaders, activists, and thinkers to 
        help us forge new policy directions on religious freedom. The 
        creation of the Advisory Committee reflects our recognition 
        that more can and should be done to promote religious freedom 
        abroad. Already the Committee's members are hard at work, and 
        have formed sub-groups on religious persecution and on conflict 
        resolution. By this summer we hope to have the Committee's 
        first recommendations for action.
  <bullet> Fifth, we have taken an increasingly active approach in 
        raising with Middle Eastern and other governments specific 
        cases of individuals and groups who are suffering 
        discrimination or persecution on religious grounds. Generally, 
        we have done this quietly and through diplomatic channels. We 
        have also encouraged governments to state publicly their 
        opposition to acts of violence and discrimination aimed at 
        individuals or groups because of their religion or belief. In a 
        number of cases we have seen positive results.
  <bullet> Sixth, we have been active in multilateral fora in raising 
        questions of religious freedom. In the UN Human Rights 
        Commission earlier this month, for example, we cosponsored a 
        resolution on religious intolerance and delivered a strong 
        statement on religious freedom. The United States was 
        instrumental in the creation of a Human Rights Commission 
        Special Rapporteur on Religious Intolerance, and we have been 
        strongly supportive of the Special Rapporteur's activities. We 
        have also drawn attention to specific cases of gross abuse, 
        including Iran's treatment of its Baha'i community and Iraqi 
        persecution of several religious groups.
  <bullet> Seventh, we have sponsored and funded programs to promote 
        religious liberty and tolerance. Some of these programs are 
        specifically targeted at the issue, while others are broader in 
        scope but still impact positively on the problem. For example, 
        USIS posts in Arab countries have sent clerics, journalists, 
        politicians and academics to the United States to participate 
        in an annual International Visitor program on ``Religion in 
        America,'' in which they meet with American Christian, Muslim, 
        Jewish and ecumenical groups to discuss ways of promoting 
        religious tolerance. Participants have returned impressed with 
        the extent of religious freedom in the U.S. and the 
        possibilities for cooperative relationships among people of 
        different faiths. Through the National Endowment for Democracy 
        we are funding several programs to support tolerance and 
        secularism; for example, a project to enable an independent 
        literary journal to organize debates on religion and democracy 
        among theologians, historians, and lawyers, and another project 
        to translate into Arabic and publish important works on 
        democracy, tolerance and pluralism. Beyond programs focused 
        specifically on religious issues, we are also actively pursuing 
        democracy-building programs around the region, on the basis 
        that building open democratic societies will lead to improved 
        respect for all human rights, including religious freedom. We 
        have such democracy-building programs in Algeria, Egypt, 
        Jordan, Yemen, Lebanon, Morocco, and the West Bank and Gaza; 
        some additional programs also focus on related issues such as 
        conflict resolution and the human rights of women.
  <bullet> Eighth, we have reached out to religious groups and leaders 
        throughout the Middle East. Our embassies maintain close 
        contacts with a broad spectrum of Middle Eastern religious 
        leaders, especially those representing groups suffering 
        discrimination, to reassure them of American interest and see 
        how we can be helpful.
    Finally, our overall policy toward the Middle East--while not 
determined by questions of religious freedom--in fact is aimed at 
creating the kind of conditions under which religious freedom has a 
chance to emerge, and to prosper.
  <bullet> I've spoken, for example, about how the Arab-Israeli 
        conflict has given rise to extremist groups such as Hamas, and 
        has exacerbated religious tensions and intolerance in the 
        region. I have pointed out that our chief policy emphasis is on 
        the Middle East peace process. By establishing peace in the 
        region and building bridges between communities previously at 
        war, we are also establishing a framework for greater 
        tolerance.
  <bullet> Likewise, our effort to build open societies and encourage 
        the growth of democratic institutions in the Middle East will 
        contribute over time to a climate for greater religious 
        freedom.
  <bullet> Our efforts to fight terrorism also help strike at the roots 
        of intolerance and religious persecution.
  <bullet> And, our work to isolate rogue regimes will help weaken many 
        of the leaders most responsible for severe repression in the 
        region.
    In these ways, our general approach to Middle East policy is 
helping to build a framework in which religious tolerance will be more 
likely to emerge, and to grow.
    Mr. Chairman, there is a long way to go to resolve the many aspects 
of religious intolerance, restriction, and persecution in the Middle 
East. I cannot tell you today that we have all the answers. Nor can I 
assert that the United States has the power to bring about changes in 
religious practices abroad even if we did have the answers. What I can 
tell you, however, is that we are committed to making the effort. We 
have structured a broad policy toward the Middle East that is helping 
to lay the framework for peace and democratic societies, which are 
essential components of an atmosphere conducive to religious freedom. 
We are speaking out for religious freedom. We are raising the issue 
with governments. And we are undertaking a range of policy initiatives 
to advance our goal of a world where every individual will be at 
liberty to follow their beliefs and to practice their religion freely. 
We appreciate your interest in this issue, and would welcome your 
comments and suggestions. As I said at the outset, freedom of religion 
is a basic American value; I believe it is an issue on which the 
Administration and the Congress can see eye to eye, and one on which we 
can cooperate together effectively.
    Thank you, Mr. Chairman.

                               __________

                   C. Prepared Statement of Bat Ye'or

           past is prologue: the challenge of islamism today
    Mr. Chairman, Members of Congress, Ladies and Gentlemen:

    ``Past is Prologue.'' These words are engraved on the pediment of 
the Archives building in Washington. The English source is probably 
Shakespeare's The Tempest, and the original perhaps Ecclesiastes (1:9). 
I have chosen this motto for my statement today and shall first give an 
historical overview of the persecution of Christians under Islam.

    To fully understand the present tragic situation of Christians in 
Muslim lands, one must comprehend the ideological and historical 
pattern that is conducive to violations of human rights, even though 
this pattern does not seem to be a deliberate, monolithical, anti-
Christian policy. However, as this structure is integrated into the 
corpus of Islamic law (the shari'a), it functions in those countries 
that either apply the shari'a in full, or whose laws are inspired by 
it.
     The historical pattern of Muslim-Christian encounters developed 
soon after the Prophet Muhammad's death in 632. Muslim-Christian 
relations were then regulated by two legal-theological systems: one 
based on jihad, the other on the shari'a. A Jihad should not be 
compared to a Crusade--or to any other war. The strategy and tactics of 
jihad are minutely fixed by theological rules, which the calif or 
ruler--wielding both spiritual and political power--must obey. The 
jihad practised now in Sudan is conducted according to its traditional 
rules. One could affirm that all ``jihad'' groups today conform to 
these decrees.

     It is an historical fact that all the Muslim countries around the 
southern and eastern Mediterranean were Christian lands before being 
conquered, during a millenium of jihad under the banner of Islam. Those 
vanquished populations--here I am referring only to Christians and 
Jews--were then ``protected,'' providing they submitted to the Muslim 
ruler's conditions. Therefore, ``protection'' in the context of a 
conquest is the consequence of a war, and this is a very important 
notion.

     In April 1992, for instance, religious leaders in Sudan's Southern 
Kordofan region--who were ``publicly supported at the highest 
government level''--issued a fatwa, which stated: ``An insurgent who 
was previously a Muslim is now an apostate; and a non-Muslim is a non-
believer standing as a bulwark against the spread of Islam, and Islam 
has granted the freedom of killing both of them.'' This fatwa appears 
in a 1995 Report to the United Nations Commission on Human Rights by 
the U.N.'s Special Rapporteur on Sudan, Dr. Gaspar Biro. [ECOSOC, E/
CN.4/1996/62, para.97a]

    This religious text gives the traditional definition of a harbi 
(someone living in the Dar al-harb, the ``region of war''], an infidel 
who has not been subjected by jihad, and therefore whose life and 
property--according to classical texts of Islamic jurists--is thus 
forfeited to any Muslim. (It also gives a definition of an apostate who 
can be killed--the cases of Salman Rushdie in 1989, Farag Foda in 1992 
and Taslima Nasreen 1994 are other examples where the death sentence 
was decreed.)

     Non-Muslims are protected only if they submit to Islamic 
domination by a ``Pact''--or Dhimma--which imposes degrading and 
discriminatory regulations. In my books, I have provided documents from 
Islamic sources and from the vanquished peoples, establishing a sort of 
classification so that the origins, development and aims of these 
regulations can be recognized when they are revived nowadays. I am only 
referring to Christians and Jews, because they share the same Islamic 
theological and legal category, referred to in the Koran as ``People of 
the Book''--the word ``people'' is in the singular. If they accept to 
submit to a Muslim ruler, they then become ``protected dhimmi 
peoples''--tributaries, since their protection is linked to an 
obligatory payment of a koranic polltax (the jizya) to the Islamic 
community (the umma).

     This protection is abolished:--if the dhimmis should rebel against 
Islamic law; give allegiance to non-Muslim power; refuse to pay the 
koranic jizya; entice a Muslim from his faith; harm a Muslim or his 
property; commit blasphemy. Blasphemy includes denigration of the 
Prophet Muhammad, the Koran, the Muslim faith, the shari'a by 
suggesting that it has a defect, and by refusing the decision of the 
ijma--which is the consensus of the Islamic community or umma (Koran 
III: 106). The moment the ``pact of protection'' is abolished, the 
jihad resumes, which means that the lives of the dhimmis and their 
property are forfeited. Those Islamists in Egypt who kill and pillage 
Copts consider that these Christians--or dhimmis--have forfeited their 
``protection'' because they do not pay the jizya.

     In other words, this ``protector-protected'' relationship is 
typical of a war-treaty between the conqueror and the vanquished, and 
this situation remains valid for Islamists because it is fixed in 
theological texts. But it should be emphasized that other texts in the 
Koran stress religious tolerance and peaceful relations, which 
frequently existed. [Nonetheless, early jurists and theologians--
invoking the koranic principle of the ``abrogation'' of an earlier text 
by a later one--have established an extremist doctrine of jihad, which 
is a collective duty.]

     The protection system presents both positive and negative aspects: 
it provides security and a measure of religious autonomy. On the other 
hand, dhimmis suffered many legal disabilities intended to reduce them 
to a condition of humiliation and segregation. Those rules were 
established as early as the 8th and 9th centuries by the founders of 
the four schools of Islamic law: Hanafi, Malaki, Shafi'i and Hanbali.

     The shari'a is a complete compendium of laws based on theological 
sources, principally the Koran and hadiths--that is, the sayings and 
acts of the Prophet. The shari'a comprises the legal status of the 
dhimmis: what is permitted and what is forbidden to them. It sets the 
pattern of the Muslims' social and political behavior toward dhimmis 
and explains its theological, legal and political motivations.

    It is this comprehensive system, which lasted for up to thirteen 
centuries, that I have analysed in my last book [The Decline of Eastern 
Christianity under Islam] as the ``civilization of dhimmitude.'' Its 
archetype--the dehumanized dhimmi--has permeated Islamic civilization, 
culture and thought and is being revived through the Islamist 
resurgence and the return of the shari'a.

    The main principles of ``dhimmitude'' are:

    (1) the inequality of rights in all domains between Muslims and 
dhimmis;

    (2) the social and economic discrimination of the dhimmis;

    (3) the humiliation and vulnerability of the dhimmis.

    Numerous laws were enacted over the centuries in order to implement 
these principles, which remained in practice throughout the 19th 
century and in some regions into the 20th century.

     Arab-Islamic civilization developed in conquered Christian lands, 
among Christian majorities which were eventually reduced to minorities. 
The process of the Islamization of Christian societies appears at all 
levels. It is part and parcel of the Christian suffering embodied in 
laws, customs, behavior patterns and prejudices that were perpetuated 
during many centuries. Christianity could survive in some countries 
like Egypt and the Balkans where their situation was tolerable, but in 
other places they were wiped out physically, expelled or forced to 
emigrate.

    [During the whole of the 19th century, European governments tried 
to convince Muslim rulers--from Constantinople to North Africa--to 
abolish the discriminations against dhimmis. This policy led to reforms 
in the Ottoman Empire from 1839--known as the Tanzimat--but it was only 
in Egypt, under the strong rule of Mohammed Ali, that real progress was 
made. Improvements in the Ottoman Empire and Persia, imposed by Europe, 
were bitterly resented by the populace and religious leaders.]

    European laws were introduced in the process of Turkish 
modernization, and in some Arab countries, but it was only under 
colonial rule that Christian and Jewish minorities were truly liberated 
from centuries of opprobrium. Traditionalists however resented the 
Westernization of their countries, the emancipation of the dhimmis and 
the laws imported from infidel lands. The fight for decolonization was 
also a struggle by the Islamists to re-establish strict Islamic law.
Why is this persecution ignored by the Churches, governments and media?

     The 19th century--and even after World War I--was a traumatizing 
period of genocidal slaughter of Christians, spreading from the Balkans 
(Greece, Serbia, Bulgaria) to Armenia and to the Middle East. In this 
context of death, the doctrine of an Islamic-Christian symbiosis was 
conceived toward the end of the 19th century by Eastern Christians as a 
desperate shield against terror and slavery. This doctrine--which also 
included anti-Zionism--had many facets, both political and religious. 
In the long term, its results were mostly negative.

     It is this doctrine--still professed today--that is responsible 
for the general silence about the ongoing tragedy of Eastern 
Christians. Any mention of jihad and of the persecutions of Christians 
by Muslims was a taboo subject, because one could not denounce 
persecution and simultaneously proclaim that an Islamic-Christian 
symbiosis has always existed in the past and the present. It is in this 
cocoon of lies and of a deliberately imposed silence, solidly supported 
by the Churches, governments and the media--each for its own reasons--
that persecution of Christians could develop freely, during this 
century, even until now, with little hindrance. Moreover, this doctrine 
also blocked the memory of dhimmitude, leaving a vacuum of thirteen 
centuries whose emptiness was filled with a myth that was useless as a 
means to prevent the return of old prejudices and persecutions.

     For this reason, dhimmitude--which covers several centuries of 
Christian and Jewish history, and which is a comprehensive civilization 
englobing legislation, customs, social behavior and prejudices--has 
never been analysed, nor publicly discussed. It is this silence--for 
which academia in Europe and America bear much responsibility--that 
allows the perpetuation of religious discrimination and persecution 
today. There are many factors that explain this silence of governments, 
Churches, academia and the media on such a tragic issue concerning 
persecuted Christians in the Muslim world; they are interrelated and 
although their motivations are different they have solidly cemented a 
wall of silence that has buried the historical reality.
Proposals for redressing these violations of fundamental human rights:

    I. To define the ways and means to end this tragedy:

    (1) Not to foster an anti-Islamic current which would be wrong, as 
the vast majority of Muslims are themselves victims of Islamists in 
Iran, Pakistan, Afghanistan, Sudan, Egypt, Turkey, Algeria, etc.

    (2) Christians must continue to live in their historical lands 
because it is their right, and only they can transform traditional 
Muslim mentalities. These dwindling communities should be encouraged to 
stay, as their presence will signify that Muslims have accepted that 
Jews and Christians also possess the right to life and dignity in their 
ancient homelands--and not under a dhimmi protection, but with human 
rights equal to those of Muslims. If they fail, it will be our loss in 
the West too. Islamic countries that once had a Judeo-Christian culture 
should not become monolithically Islamic--that is, Christianrein, as 
they have become virtually Judenrein--through a policy of ethnic 
cleansing that followed a long historical period of discrimination.

    (3) If the human rights--and the minority rights--of Christians are 
not respected in those countries that formerly had Christian 
majorities, then the rights of all non-Muslims will be challenged by 
the Islamists' resurgence. It is for Christians worldwide--particularly 
in America and Europe, and for the international community also--to 
assure that the human rights for all religious minorities are respected 
worldwide.

    II. We should realize that those populations are in grave danger 
and that even Muslim governments cannot protect them from mob 
violence--sometimes they pretend to be unable to do so, in order to 
stop foreign pressure or public campaigns. We should also remember 
that, from the late 1940's, the Jewish communities in the Arab-Muslim 
world--then more than a million, now 1 percent of that number, under 
10,000 and fast dwindling--were the victims of persecution, terrorism, 
pillage and religious hatred that forced them to flee or emigrate. 
Christians were left as the only non-Muslims on whom religious 
fanaticism and hatred could be focused. Each Christian community tried 
to resist the return of the old order, following the path of secularism 
or communism.

    The Islamists reproach Christians in their countries for:

    (1) being against the implementation of the shari'a;

    (2) demanding equal rights, basing themselves on International 
Covenants;

    (3) seeking foreign help to achieve equality with fellow Muslim 
citizens.

    For the Islamists, these three accusations alone are tantamount to 
rebellion. It was these same motives that had justified the first great 
massacres of the Armenians a century ago in 1894-96, punished for 
having rebelled and for claiming the reforms that were promised.

    This is why dhimmis communities were always careful to proclaim 
their enmity to Europe. An outward opposition to Christian countries 
being their life-saving shield against threats from their environment, 
they have interiorized this animosity to the point that they often 
strive for the triumph of Islam, some of them even becoming the best 
and most perfect tools of Islamic propaganda and interests in Europe 
and America. (The late Father Yoakim Moubarac and Georges Corm in 
France, and Edward Said in America, are but three examples out of 
many.)

    III. In order to avoid mistakes and be more effective, one has to 
realize the difference of contexts between the campaign for Soviet 
Jewry in the 1970's and 1980's, and the promotion of human rights for 
Christians in Islamic lands today. The main difficulty arises because 
the discrimination or persecution in some countries cannot be ascribed 
to a deliberate government policy. It is rather a fact of civilization: 
the traditional contempt for dhimmis--not so different from that of 
African Americans in the past--and irritation because they are 
outstepping their rights and must be obliged to return to their former 
status. Sometimes, however, it is imposed by the Islamists, and a weak 
government doesn't dare to protect the Christians, fearing to become 
even more unpopular, because anti-Western and anti-Christian prejudices 
have imbued Muslim culture and society for centuries.

    (1) There are many ways to persecute Christians; some are by legal 
means, like the laws concerning the building or the repair of churches; 
others, by terror. A Christian can be killed, not because he committed 
a crime, but simply because he belongs to a group of infidels, who, 
allegedly, are in rebellion. Or for reasons of ``spectacle-terrorism,'' 
that can serve as a deterrent policy to fulfill the terrorists' aims.

    (2) Another point concerns the use of a fatwa. If a fatwa is 
decreed against an individual, any Muslim is authorized to kill him, 
and by so doing he is the executor of what is considered the sentence 
of Allah.

    IV. The problem is multifarious; it is not only religious but also 
cultural. This aspect is more acute with Christian, than with Jewish, 
communities because Muslims conquered Christian lands and civilizations 
that were then subjected to a deliberate policy of Arabization and 
Islamization. Take, as an example, Christian pre-Islamic Coptic 
history: language and culture are a neglected, if not a forbidden, 
domain because it would imply that Muslim history had been 
imperialistic. But culture and history are important elements of a 
group's identity and there are many Muslim intellectuals who are proud 
of Egypt's Pharaonic and Coptic past. It is the Islamists who reject 
this past, as an infidel culture--a part of the jahaliyah, what existed 
before Islam, considered taboo.

    Therefore, I would also suggest further goals, such as:

    (1) Recovering ``Memory,'' the long history of the dhimmi peoples, 
of dhimmitude--the collective cultural patrimony of Jews and 
Christians--for without their memory, and their history, peoples fade 
away and die.

    (2) Preventing the destruction of Christians' historical monuments, 
either by local governments, or by Unesco, as was done with Abu Simbel, 
and other sites that now belong to the World's cultural legacy.

    V. Discussing ``dhimmitude'' in academia and elsewhere. This is a 
Judeo-Christian historical patrimony and those whose heritage it is are 
entitled to know about it. The discussion of dhimmitude with Muslims, 
however, is fraught with difficulties. In the eyes of Islamists, any 
criticism of Islamic law and history is assimilated to a blasphemy. For 
a dhimmi, it is forbidden to imply that Islamic law has a default, or 
to contradict the ijma, the consensus. Moreover, the court testimony of 
a dhimmi against a Muslim is not accepted. Therefore, as dhimmitude is 
the testimony of dhimmi history--of Christians and Jews--under Islamic 
oppression, it would not be considered valid in traditionalist circles. 
Besides, the unification of religious and political power transfers the 
political domain into the religious one, and therefore any criticism of 
Islamic civilization may become, for Islamists and others, a blasphemy.

    [The case of Farag Foda, an Egyptian Muslim intellectual, who 
defended the Copts and strongly criticized some Muslim religious 
authorities was exemplary: he was assassinated in 1992, after a fatwa. 
In giving his testimony, the late Sheikh Muhammad El-Ghazali implicitly 
justified his assassination on the grounds of apostasy; he stated that 
anyone opposing the shari'a was an apostate and thus deserved death.]

    VI. Encourage Muslim intellectuals to strive in their own 
countries, and in the West, for the defense of equal human rights for 
Christians and others. The 1981 UNESCO Declaration on Islamic Human 
Rights and that of Cairo in 1990, both conditional on the shari'a, are 
insufficient.

    VII. Creation of a team of experts and lawyers--and not 
apologists--in order to discuss the problem, always stressing that the 
aim is not to foster anti-Muslim or anti-Islamic feelings, but to 
create peace and reconciliation between religions and peoples, without 
which the next century will become a bloodbath and a clash of 
civilizations.

                                 ______
                                 

              Dhimmitude: Jews and Christians Under Islam

                             [by Bat Ye'or]

    Midstream/February-March 1997.--Except for Asia, all the countries 
that were conquered by jihad (Muslim holy war) in the course of 
history--from Arabia to Spain and the Balkans, including Hungary and 
Poland--were peopled by innumerable Christians and by Jewish 
communities. This geographical context is therefore the true terrain of 
interaction between the three religions. Actually, it was in Islamic 
lands that they opposed, or collaborated with, one another for up to 13 
centuries. I have called this vast political, religious, and cultural 
span the realm of ``dhimmitude,'' from dhimma, a treaty of submission 
for each people conquered by jihad.

    The historical field is generally studied in the context of 
``Islamic tolerance,'' but ``tolerance''--or ``toleration''--is an 
ambiguous word since it implies a moral and subjective connotation. 
Moreover, this word ``toleration'' cannot encompass the historical 
density and the complexities of the numerous peoples vanquished by 
Islam over the centuries, as it is a vague and general notion used 
irrespective of space and time.

    Instead of ``toleration,'' I have proposed the concept of 
``dhimmitude,'' derived from the word dhimma. The vanquished, subject 
to Islamic law, become a dhimmi people, protected by the dhimma pact 
from destruction.

    Islamic legislation governing dhimmi peoples was the same for Jews 
and Christians, although the latter suffered more from it--declining 
from majorities, at the dawn of the Islamic conquest, to tiny 
minorities in their own countries. The domain of dhimmitude comprises 
all aspects of the condition of the dhimmis: that is, the Jews and 
Christians tolerated under Islamic law. Dhimmitude as an historical 
category is common to, but not identical for, Jews and Christians under 
Islam.

    Islamic law governing Christian dhimmis developed from Byzantine 
Christian legislation enacted from the fourth to the sixth century. It 
aimed at imposing legal inferiority on native Jews of Christianized 
countries--lands that were subsequently Islamized. These early 
Christian influences on Islamic law are not limited to the juridical 
domain but also appear at the theological level.

    The study of the Jewish dhimmi condition necessarily encompasses 
the theological and political interaction between the three religions. 
During Vatican II (1963-1965), for instance, the Arab Churches--
yielding to pressure from their governments--strongly objected to the 
proposed suppression of the ``deicide'' accusation against the Jews. 
Yet the crucifixion of Jesus is not recognized in the Koran; therefore, 
the accusation of deicide is meaningless for Islam. Such interferences 
by Arab governments in a strictly Judeo-Christian theological matter 
were intended to maintain the delegitimization of the State of Israel 
in a Christian context. Indeed, it was the deicide accusation that had 
structured Byzantine policy of Jerusalem's dejudaization and the 
promulgation of a specific, degrading Jewish status. It was that same 
status that Muslim jurisconsults adapted to the jihad context with 
harsher modifications, imposing it equally on Jews and Christians. 
Clearly, Jewish-Muslim relations also comprise those Jewish-Christian 
relations that were transposed within an Islamic context--particularly 
the Jewish status in Christian legislation. Similarly, the Islamic-
Christian relationship cannot obscure its Jewish dimension because 
Islam associates Christians and Jews in the same dhimmi category--a 
specific category that was first enacted by Christians for Jews in a 
quite different theological context.

    The study of dhimmitude comprises these multifarious aspects and 
requires an approach devoid of apriorisms. One can try to define the 
ideology that imposes dhimmitude on non-Muslim peoples: their 
obligatory submission by war or surrender to Islamic domination. One 
could examine its origin, the legal and political means used to 
dominate other peoples, the causes of its expansion or of its 
regression. Actually, it is a study of the ideology of jihad, whose 
jurisdiction--based on the modalities of battles and conquest--must be 
imposed on the vanquished peoples. How this or that land or city was 
conquered will determine for all time the laws to be applied there. 
Centuries after the Islamic conquest, Muslim jurists still consulted 
ancient chroniclers to determine whether churches and synagogues were 
legal or forbidden in towns or regions that had formerly been 
conquered, whether by surrender or by battles and treaties. Such 
regulations concerning religious buildings are still enforced in many 
Muslim countries today. So one discovers, throughout the ebb and flow 
of history, that dhimmitude is composed of a fixed ideological and 
legal structure. It constitutes an ideological, sociological, and 
political reality, since it is integrated into every aspect of those 
human societies which it characterizes. This is proved by its 
geographical development, its historical perennialism, and its present 
resurgence.

    The body of law prescribing dhimmitude originated from a single 
source: Islamic power. Apart from a few minor differences regarding the 
shari'a's (Islamic law's) interpretation, the dhimmi status constituted 
a homogeneous unit applied in the dar al-Islam. But the peoples of 
dhimmitude comprised all the ethnic, religious, and cultural variations 
of the Islamized regions of Africa, Asia, and Europe--thereby implying 
regional differences. One must therefore study the local history of 
each dhimmi group in order to detect if the causes of differentiation 
were of a geographical or a demographical nature, or the result of pre-
Islamic local factors. Thus, dhimmitude should encompass the 
comparative study of all dhimmi groups, for territories were not just 
conquered; their Islamization could take three or even four centuries, 
while some regions had already been Islamized by migrations prior to 
their military and political conquest. The study of dhimmitude, then, 
is the study of the progressive Islamization of Christian 
civilizations. In this evolution, one detects permanent structures but 
also different local factors that facilitated or temporarily checked 
this process.

    The confusion of the political and economic domain is an important 
element in the development of the mechanism of dhimmitude. In exchange 
for economic advantages, non-Muslim rulers conceded to the Islamic 
power an essential political asset: territory. This policy appears at 
the start of the Islamic-Christian encounter. In modern times, the 
financial interests of Lebanese Christian politicians with the Muslim 
world were decisive in the intercommunal struggle that led to the final 
destruction of Lebanese Christianity. In this context of political 
concessions in exchange for financial gains, one should emphasize that 
the economic domain belongs always to the short term and the 
conjunctural, while the political sphere is long-term and implies 
power, notably military power. Hence, this feature of corruption--
paramount in the whole system of dhimmitude--which is, in fact, the 
surrender of political power (territorial independence) for the 
economic control by the dhimmi Church leaders over their communities.

    It is evident that the civilizations of dhimmitude are extremely 
complex. The process of Islamization of such societies rested on 
several factors, the most important being the demographical one that 
transformed Christian majorities into minorities. This result was 
achieved through several means that combined legal disabilities and 
economic oppression in times of peace; and destruction, deportation, 
and slavery in wartime and during riots or recurrent political 
instability. Such a transformation of civilization and of peoples also 
implied as extensive mechanism of osmosis, including collaboration and 
collusion by the elites of those Christian nations that were engaged in 
the painful process of their self-destruction. Without this perennial 
collusion, the Islamic state could never have survived. Christians had 
collaborated in its development on all social levels and in every 
field, either by free choice or otherwise.

    It was through Christian patriarchs and Jewish community leaders 
that the Islamic government imposed its authority, making of them its 
instruments in the control and oppression of their respective 
populations. Thus, entire dhimmi groups collaborated in the growth of 
the Islamic civilization. One could also investigate the way in which 
different Christian and Jewish groups reacted to dhimmitude. We know 
that there was a strong alliance between Arab-Muslim invading troops 
and the local Arab-Christian tribes, as well as with the Oriental 
Churches. Some members of the Christian clergy not only welcomed the 
Muslim armies, but also surrendered their cities. The Eastern Churches 
were always associated with Islamic rule and benefited from it, 
becoming thereby the sole administrators of millions of Christians. One 
can examine the role of the clergy, the military class, the 
politicians, and the intellectuals in assisting the Islamic advance 
that placed their own peoples under the yoke of dhimmitude. Documents 
of this kind abound concerning the later Ottoman conquest of the 
Balkans.

    The conflict of interests within the dhimmi populations indicates 
that different forces were at work in each community: forces of 
collaboration and forces of resistance. Thus, dhimmitude encompasses 
various types of relationships at all levels between the Muslim 
community and the dominated, tolerated, dhimmis--relationships that 
were regulated by laws ensuring Islamic protection and that embrace 
politics, history, and conjunctural situations. Modern studies on the 
Turkish advance in the Balkan peninsula have mentioned the mental 
climate that prepared a society for its surrender. One finds an 
evolution at all social levels, combining compromise, collusion, and 
the corruption that facilitated the final submission.

    A similar process could have been detected in the modern history of 
Lebanon from the beginning of the 20th century to the recent 
disintegration of Christian resistance. Here, the internecine conflict 
between the forces of collusion and resistance brought about the 
collapse of the targeted Christian groups. The situation in southern 
Sudan and in the Philippines provides contemporary examples of such 
internecine conflicts that could lead to similar situations.

    Dhimmitude also encompasses the relationship between each dhimmi 
group, the religious rivalry between Churches seeking to use the Muslim 
power in order to diminish or destroy rivals. This domain also overlaps 
with the dynastic, political, and national conflicts between Christian 
rulers who obtained power through Islamic help. Since the status of 
dhimmitude lasted from three to 13 centuries, depending upon regions, 
it allows one to study numerous cases of different peoples--all 
theoretically subject to the same Islamic jurisdiction, with 
differences here and there.

    What were the results of Muslim interference on the inter-community 
relationships between the dhimmi peoples themselves? Did it keep their 
conflicts alive? How did the Muslim power manifest its protection? (The 
dhimmis were, of course protected by Islamic law.) There is also the 
conflict between jurists, inclined toward a more severe interpretation 
of the law, and the caliphs or rulers whose policies were sometimes 
more lenient--a problem still topical today. Therefore, the domain of 
dhimmitude consists of the interaction of the dhimmi peoples among 
themselves, with the Muslim power, and with the outside world. What 
were the consequences of the protection afforded to each dhimmi group 
by the European Christian countries? How did their political and 
commercial rivalries affect the interrelationship of the dhimmi peoples 
and their situation within their Muslim environment? And to this should 
be added the consequences of proselytism among the various contending 
Churches.

    One might think that the history of dhimmitude had long since 
disappeared into a forgotten past, but this is not so. Specialists have 
called political Islamic radicalism a ``return,'' thus implying the 
existence in the past of a political ideology that had disappeared and 
is now resurfacing. Optimistic analysts focus only on the economic and 
political factors that have contributed to the emergence of Islamic 
radicalism, although its ideologico-religious causes and traditional 
roots are so obvious that they alone would justify the use of the term 
``return.''

    Jihad militancy and the reintroduction of some of the shari'a's 
provisions in countries where they had been abolished are now 
threatening indigenous Christians and other non-Muslim populations. The 
most tragic cases are found in Iran, Pakistan, Sudan, and Upper Egypt 
(by Islamists). Aspects of the dhimmi condition--abolished under 
European pressure from the mid-19th century on--is returning in these 
countries, and elsewhere.

    Even antisemitic statements made by Abbe Pierre in April 1996, 
firmly condemned by the French episcopate and public opinion, are a 
reminder of a pervasive Christian dhimmitude. Abbe Pierre--one of 
France's most popular public figures--reiterated that, because of their 
iniquities since the time of Joshua, the Jews had forfeited God's 
Promise. Apart from being a classic example of the Church's 
judeophobia, such a declaration was clearly aimed at pleasing the 
Muslims. Since the Judeo-Christian reconciliation initiated by Vatican 
II, the Arab Churches requested from the Vatican a strictly symmetrical 
attitude toward Jews and Muslims. This requirement establishes, in 
fact, a false symmetry between totally different theological, 
historical, and political contexts: the Judeo-Christian relationship 
and the Islamic-Christian relationship. The Jews were oppressed in 
Christian lands but never had any ambition to conquer them and impose 
their own laws there, whereas Islamic armies seized innumerable 
Christian lands in which only small, vulnerable, and scattered 
Christian communities survive today.

    Abbe Pierre's earlier meditations at Yad Vashem in Jerusalem were 
thus symmetrically balanced by a visit to Yasir Arafat in Gaza, where 
he begged forgiveness for the West's creation of the State of Israel. 
But the good Abbe could have spared himself such scruples, for Israel's 
rebirth occurred despite the genocide of European Jewry, and from the 
start the Vatican only supported the Palestinian cause. But a 
``Palestinian genocide'' has become a symbolic necessity to balance the 
genocide of the Jews. Overlooking a span of more than three millennia, 
Abbe Pierre chose to link--anachronistically and in a delirious 
amalgamation--today's Arab Palestinians with Biblical Philistines and 
Amalekites in the time of Joshua.

    It is this desire for a specious symmetry that reduced to oblivion 
the tragic and painful domain of Christian dhimmitude, which could not 
be paralleled with a similar Jewish domination over Christian 
populations. Indeed, much effort has been deployed in Europe to 
establish similarities between Palestinians in Israel and dhimmis, 
especially by blaming Israeli security measures to counter Palestinian 
terrorism, which was conveniently glossed over as ``freedom fighting.'' 
This attitude not only expresses a traditional Christian judeophobia--
now totally rejected by the Vatican and other churches--but also the 
complexity of Europe's relations with Israel and with Arab countries, 
where Christian rights are challenged by Islamists. As Europe's policy 
is determined mainly by its own strategic and economic interests, it 
shows no more sympathy to Eastern Christians than it does to Israelis. 
Islamic radicalism is feared, as it could provoke in Europe anti-Muslim 
reactions leading to economic retaliation and terrorism from Muslim 
states.

    Since the beginning of this century, starting with the Armenian 
genocide (1896-1917), then the massacres of Christians in Iraq (1933) 
and Syria (1937), the condition of the Eastern Christians (in spite of 
their involvement in Arab politics) has constantly deteriorated. Thus, 
one can see how dhimmitude still influences the interaction of 
different religious groups. To be sure, many scholars have studied 
their histories separately, but the concept of dhimmitude provides a 
wider and unified framework for all those varied communities that have 
undergone the same experience throughout history.

    It is interesting to examine the different paths that each dhimmi 
group felt compelled to adopt, either by historical circumstances or 
geography, to regain its liberty and dignity. The national liberation 
of dhimmi peoples meant that the jurisdiction of dhimmitude, imposed by 
jihad, was abolished; they could then recover their proscribed 
language, their history, and their culture. The Christian peoples of 
the Balkans fought for their national sovereignty, as did the Armenians 
later, and the Jews in their own homeland; but Christians of the Middle 
East chose assimilation in a secularized Islamic society and became 
arabized.

    As a result of European colonialism in Arab lands, as well as the 
rebellions and struggle for the national liberation of Christian 
peoples in the Ottoman Empire, hundreds of thousands of Christians were 
killed during the 19th and early 20th centuries in Muslim-dominated 
regions. Christians lived in constant fear of further atrocities. The 
Greeks were saved from a genocide in the early 19th century by the 
intervention of the Anglo-French and Russian armies. Their uprisings 
throughout that century were punished by massacres and the slavery and 
conversion of women and children. Similar reprisals struck both Serbs 
and Bulgarians in their own lands.

    The genocide of the Armenians and atrocities in Iraq and Syria 
compelled the Lebanese Christians to create a refuge country for their 
persecuted brethren from neighboring lands. Some Lebanese were 
favorable to the restoration of a Jewish state in its historical 
homeland and were sympathetic to the Zionist cause, for they knew that 
the position of Jews and Christians under Islam was similar. But this 
current, led by the Maronite Patriarch Antun Arida and Beirut's 
Archbishop Ignace Mubarak, represented a small minority among the 
Eastern Christians, who remained, like the Vatican, adamantly hostile 
to a Jewish state in Palestine, and especially to any Jewish 
sovereignty in Jerusalem. Within the context of the Jewish national 
liberation movement, one should remember that Muslims and the Oriental 
Churches were hostile to a massive return of Jews to their homeland. 
Jews had been condemned to suffering and exile by both Christianity and 
Islam, and therefore Jewish sovereignty in Palestine-Israel was totally 
unacceptable. How much European opposition to a Jewish state had helped 
the execution of the Final Solution is a question that concerns 
historians of the Shoah. Clearly, antisemitism is intrinsically linked 
to the concept of Jewish evilness, which justifies a judenrein 
Palestine, especially Jerusalem.

    Thus, one finds, in both the political and religious spheres, a 
hostile Islamic-Christian front against Zionism and later against the 
State of Israel. Many of these Oriental Christian leaders thought that 
this Islamic-Christian front against Zionism would help secure their 
position in the Arab world, first under the banner of pan-Arabism, and 
then under the slogan: ``the just Palestinian cause.'' Palestinian 
anti-Zionist Christians, especially their clergy, were in the vanguard 
of the battle for the destruction of Israel. Some proudly participated 
in the worst acts of terrorism. Much of the anti-Israeli propaganda was 
formulated by Christian Palestinians in order to exacerbate traditional 
judeophobia in the West. Among them were clergymen from the Levant, 
such as Greek-Catholic Archbishop Hilarion Capucci. In fact, many in 
the West justified the jihad aims and tactics against Israel--and even 
against Jews everywhere.

    The responsiveness of post-Shoah Europe to anti-Zionism has many 
geostrategic and economic reasons, but it also derives from the easy 
channeling of traditional judeophobia into anti-Zionism. Thus, it is 
not surprising that the PLO's official Christian representatives were 
much appreciated by politicians, intellectuals, and the European media. 
In antisemitic circles, they were endowed with a holy mission, embodied 
in the historic role of the Palestinian clergy. In Byzantine Palestine, 
the clergy had forbidden Jews to reside and pray in Jerusalem. One of 
the worst massacres of Jews occurred at the instigation of the 
Jerusalem Patriarch Sophronius, who suggested it in 628 to the Emperor 
Heraclius (610-641). Some years later, when the Arabs conquered 
Jerusalem from the Greeks, Sophronius tried to persuade Caliph Umar Ibn 
al-Khattab to forbid any Jewish presence in Jerusalem. So we see that 
even at this moment of the terrible defeat, slaughter, and anguish for 
Christians, the Palestinian Patriarch was obsessed by judeophobia. 
Sophronius, later canonized, died a few years after surrendering 
Jerusalem to the Muslim conquerors. When welcoming Yasir Arafat in 1995 
to the Church of the Nativity in Bethlehem for the traditional 
Christmas Mass, Latin Patriarch Michel Sabbah was happy to recall how 
Sophronius had delivered Jerusalem to Umar in 636; 40 years later--and 
until the 1860s--no cross could adorn a church in Jerusalem.

    Throughout the centuries, Christian judeophobia in Jerusalem and 
Palestine was virulent. In my books, I have reproduced 19th-century 
reports from French and British consuls who were shocked by this 
hatred, which did lead to criminal acts. In this century, anti-Zionism 
cemented the Palestinian Islamic-Christian alliance with Hitler's 
ideology; this collaboration with Nazi Germany is well known.

    Whereas the Shoah developed in a European context, anti-Zionism 
belongs to the domain of dhimmitude. Here the powerless Palestinian 
Christians--like Sophronius--had to rely on the Arab-Muslim force to 
prevent the restoration of a Jewish state. Among the multitude of 
events from the 20th century, historians in the next millennium may 
well be intrigued by two particularities: the first concerns the 
relentlessness shown by many European politicians in exterminating and 
pillaging European Jewry; the second concerns post-Shoah Europe, which 
is linked to the first by a similar desire of many to demonize Israel. 
Yet this 20th century has witnessed important Western strategic defeats 
in the Middle East. Armenian independence, promised at the end of World 
War I (Treaty of Sevres) was never implemented; the same applies to the 
Kurds. Lebanon, considered as a paragon for the realization of an 
Islamic-Christian symbiosis, finally collapsed in a bloody tragedy. 
Massacres and slavery continue to ravage the Christian and Animist 
populations of southern Sudan; the war in the Philippines fueled by a 
secessionist Muslim minority group has claimed 120,000 lives over the 
past 20 years. Genocidal massacres have been perpetrated in numerous 
countries, but for 30 years the main target--constantly highlighted in 
the media--remained Israel. This extraordinary blindness was in part 
caused by the Palestinian clergy which, with its numerous religious and 
secular channels in Europe and elsewhere, helped to uphold the 
Palestinian issue as the world's first priority.

    However, the militancy against Israel of the Islamic-Christian 
front paradoxically led to increased instability and anguish for Arab-
Christians. The reasons are not difficult to find. In order to maintain 
this anti-Zionist front, Oriental Christians were obliged to make 
continual compromises. They were afraid to mention their own history of 
suffering and dhimmitude under Islam for fear of irritating the Muslim 
world; it became a taboo subject even in Europe. Eastern Christians, 
especially the Palestinians, thought that their support for the anti-
Israeli jihad would secure their safety in a hostile environment. But 
this policy brought negative results: (1) The encouragement of an anti-
Israeli jihad had fueled and developed a rhetoric of war-hatred against 
Christians because the dogma of jihad associates them with Jews. The 
more the Christians fought to delegitimize Israel, the more they 
weakened their own rights; (2) this factor had dramatic consequences 
for the Lebanese Christians. Like the Jews, their war for freedom in 
their own country was a struggle to impose on the Islamic world the 
respect for their rights to dignity--not to be considered as an 
inferior group, ready for a modernized dhimmitude. And as a result of 
their common destiny with Jews in Islamic dogma, the jihad aggressivity 
rebounded against the Lebanese Christians inadequately prepared for 
such a confrontation. And since the history of dhimmitude and jihad was 
obfuscated in Europe--thanks to the Christian pro-Islamic, anti-Zionist 
lobby--and as the Palestinian cause became the sacred cause of the 
international community, when the PLO fought the Christians in Lebanon, 
the latter were soon abandoned.

    Hence, the concealment of dhimmi history, and of the ideology of 
jihad--a deliberate policy maintained for decades in the West--has 
facilitated a return of the past, as the same political system is now 
inscribed in the program of today's Islamists.

    There is another, no less important, aspect of dhimmitude: the 
psychological and spiritual one. The dhimmi mentality appears with no 
great differences in its Christian or Jewish version. One could examine 
it either in relation to the concept of rights or to that of 
toleration. One should bear in mind that the study of dhimmitude 
necessitates an examination of the common condition of both Jews and 
Christians who form one entity: the ``People of the Book.'' They are 
thus complementary, and the rules applied to one group concern likewise 
the other. Another aspect of this complex historical domain relates to 
their mutual relationship in the world of dhimmitude, and to the manner 
in which each group viewed the other. Solidarity and mutual aid in time 
of persecution existed, as did denunciation and revenge motivated by 
fear and greed. But, in general, a similar condition contributed to 
created mutual bonds of understanding.

    Thus, one realizes that the concept of dhimmitude--rather than the 
term ``tolerated minorities''--covers a wide domain of research. One 
can study its dynamic, its evolution, its modalities, and the 
interactions of diverse elements within this context that shed light on 
the areas of fusion, interdependence and confrontation between Islam, 
Christianity, and Judaism. Dhimmitude is a neutral concept and 
therefore a tool for historical investigation.

    For me, as a Jew, this insight into Christian dhimmitude 
represented an intellectual experience that was not easy to undertake. 
This was not the domineering face of European Christendom, persecuting 
and triumphant, but the discovery of its persecuted, humiliated, and 
suffering other side. In short, Eastern Christianity's history of 
dhimmitude under Islam is a sort of ``Jewish experience''--endured this 
time by Christians. This is why this history was so resolutely and 
intensely denied by most Eastern Christians, especially Palestinians. 
For a Jew, this quest constitutes a moral ascesis because it is no easy 
task to find expressions of the same suffering in one's persecutor. But 
this companionship gives a new approach to human trials and opens 
common perspectives of reconciliation with Muslims. It makes it easier 
for Jews and Christians to strive with liberal Muslims, thus freeing 
them from prejudices of the past and from the concepts of jihad and 
``tolerance,'' replacing them with new bonds of friendship and esteem 
between equals.

    For the Jewish people--liberated from Christian antisemitism in its 
own homeland, as well as from dhimmitude imposed on them by Islam--this 
long task of reconciliation with Christianity and Islam could 
strengthen respect between the three religions and their respective 
peoples.

                               __________

                   D. Prepared Statement of Nina Shea

    Mr. Chairman, I wish to express Freedom House's gratitude to you 
and the Subcommittee for holding these important hearings today and for 
inviting me to testify on the long-neglected atrocity of religious 
persecution against Christians in the Middle East.

    Christians in may parts of the world suffer brutal torture, arrest, 
imprisonment, and even death--their homes and communities laid waste--
for no other reason than that they are Christians. Christians are the 
most persecuted religious group in the world today.

    Eleven countries where Christians are currently enduring great 
religious persecution are profiled in my new book In the Lion's Den. A 
number of Middle Eastern countries are included: Iran, Pakistan, Saudi 
Arabia, Egypt, and Sudan. Although these countries contain but a small 
sample of the Christians victimized throughout the world for their 
faith, they represent some of the worst--if not the worst--oppressors 
of Christianity in the world. Militant Islam is one of two political 
ideologies (the other being communism) that have consistently oppressed 
Christians, as well as other independent groups and individuals. While 
there are cases of persecution of Christian minorities by Hindus, 
Buddhists, and even by other dominant Christian groups, it is anti-
Christian persecution by militant Islam and communism that, because of 
their global sweep and virulence, poses the greatest threat.

    It is important to understand the distinction between persecution 
and discrimination or bigotry. The most egregious human rights 
atrocities are being committed against Christians living in militant 
Islamic societies solely because of their religious beliefs and 
activities. The atrocities include torture, enslavement, rape, 
imprisonment, forcible separation of children from parents, killings, 
and massacres--abuses that threaten the very survival of entire 
Christian communities, many of which have existed for hundreds or even 
two thousand years.

    Persecution in the Middle East has led to a vastly diminished 
Christian presence. In Iraq the number of Christians has decreased from 
35 percent to 5 percent of the overall population during this century; 
in Iran, from 15 percent to 2 percent; in Syria, from 40 percent to 10 
percent; and in Turkey, from 32 percent to 0.2 percent since the early 
part of the twentieth century.

    In some cases--such as in Iran and Saudi Arabia--it is the regime 
that is the oppressor. In others, including Pakistan and Egypt, 
societal forces are at work, while the government--out of weakness--
acquiesces, failing to stop the persecution despite well-organized 
assaults or known instigators. In the countries of the Middle East that 
are under scrutiny at today's hearings, Christians are vulnerable 
minorities within the society.

    The rights of Christians and other groups to practice their 
religion freely--irrespective of the culture and customs of an area, or 
a Christian community's minority status--is universally recognized in 
the Universal Declaration of Human Rights and numerous other 
international treaties and instruments. In other words, the United 
Nations' world body has agreed that Christians have fundamental rights 
to express their Christianity; even in non-Christian parts of the 
world. The most specific of these documents is the United Nations' 
Declaration on the Elimination of All Forms of Intolerance and of 
Discrimination Based on Religion or Belief. This declaration guarantees 
the right of Christians and others to worship freely, as well as the 
right to teach religion, write and disseminate religious publications, 
designate religious leaders, communicate with coreligionists at home 
and abroad, solicit and receive charitable contributions, and educate 
children in religion and morality according to parents' wishes. In the 
country discussions that follow, these rights are honored primarily in 
the breach.

    SAUDI ARABIA completely bans Christianity. No churches, bibles, 
Christian artifacts, symbols or literature are permitted. Religious 
police seek out secret worship services by raids on private homes. A 
quarter of the population are foreign workers and many are Christian. 
Hundreds are in prison for Christian worship, some are sentenced to be 
beheaded. Amnesty testified that the oppression against Christians has 
worsened since the Gulf War.

    EGYPT'S Coptic community, believed to have been evangelized by Mark 
in the first century, is vanishing under a violent onslaught by Muslim 
extremists. Thousands of Coptic Christians have been forced to flee 
their homes or convert to Islam after large mobs of fanatical Muslim 
youths laid waste their villages in the Upper Egypt region in early 
1996. In February and March this year, two more pogroms by Islamic 
terrorists were directed against the Copts in Upper Egypt, leaving over 
30 dead, including select young people being groomed for leadership 
roles in the Church. According to statistics reported by the Center of 
Egyptian Human Rights for National Unity there have been 543 incidences 
of violence against Christians during the past five years. As many 
Christians have already been killed in the first quarter of this year 
as had been in the twenty year period beginning in 1973. The Coptic 
community believes that the government is not doing enough to stop 
these persecutions. The Rev. Keith Roderick, Secretary General of the 
Coalition for the Defense of Human Rights Under Islamization, reports 
that the Egyptian government has failed to stop the surge of terrorism 
against the vulnerable Christian minority and has helped create an 
atmosphere of bigotry and hatred toward them. Various Egyptian human 
rights groups report there have been no prosecutions and convictions 
for the recent murders of Coptic Christians. Over 70 people were 
detained by the police following the March massacre, but reportedly all 
were soon released. One and a half years ago Egyptian authorities 
withdrew police protection from the mainly Christian towns where the 
massacres took place. Egypt's Hamayonian law bans repairs or 
construction of churches unless a decree is signed and issued in each 
case by the President of the Republic. During the 1980s only ten 
building and 25 repair permits were granted to the Coptic Orthodox 
Church, comprising 90 percent of Egypt's Christian community. On Dec. 
15, 1996, an army unit bulldozed the Christian ``Cheerful Heart 
Center'' for disabled children, located 15 miles outside of Cairo, even 
though the Center possessed the necessary permits because of a rumor to 
the contrary. Converts from Islam to Christianity are considered 
``apostates'' and treated very harshly, including forcible re-
conversion through kidnapping and forced marriages for women.

    PAKISTAN has blasphemy laws that mandate the death penalty against 
``whoever by words, either spoken or written . . . or by any 
imputation, innuendo, or insinuation, directly or indirectly, defiles 
[the Prophet Mohammed].'' Hundreds of blasphemy cases are pending 
against Christians and others in Pakistan's courts. Amnesty reports 
that in all known cases, ``the charges appear to have been arbitrarily 
brought, founded solely on the individual's minority religious beliefs 
or on malicious accusations against individuals who advocate novel 
ideas.'' These blasphemy laws have created a hostile atmosphere and 
fanned hatred against the religious minorities. In February, inflamed 
about a rumor of blasphemy, a Muslim mob 30,000 strong went on a 
rampage in Pakistan's Punjab province, setting fires in the Christian 
village of Shantinagar. The town of 15,000 was nearly raised and 
thousands of Christians were left homeless. When Pakistani Christians 
marched in the capital a few days later to protest the destruction and 
demand greater protection, they were brutalized and arrested by police.

    IRAN's militant Islamic president delivered a fiery sermon in 1994, 
declaring that ``there is no longer validity to other religions,'' and 
that ``Iran and the entire Muslim world must adopt the Prophet and 
Jihad (holy war) as a model.'' Soon after, Iran's tiny Protestant 
community was devastated by the brutal murders of three key pastors. 
The first to be killed was prominent evangelical pastor Haik Hovespian-
Mehr, who launched an international campaign in 1993 on behalf of 
fellow pastor Mehdi Dibaj. Dibaj was imprisoned on death row on 
apostasy charges for converting from Islam to Christianity decades 
earlier. Dibaj was unexpectedly released from death row in January 
1994, but Hovespian-Mehr disappeared a few days later. Authorities 
informed Hovespian-Mehr's family that he had been murdered by unknown 
assailants. On June 24, 1994, Dibaj himself disappeared. While Dibaj's 
fate remained unknown, Presbyterian minister Tateos Michaelian, who had 
replaced Hovespian-Mehr as head of the Protestant Council, was also 
mysteriously murdered. Three days later, on July 5, Iranian police 
announced that they had discovered Dibaj's murdered corpse ``while 
searching for the killer of Michaelian.'' Terror struck the Christian 
community again in October 1996. The body of a fourth prominent leader, 
34-year-old Assemblies of God pastor Mohammad Bagher Yusefi, was found 
hanging from a tree in a wooded area near his home in northwest Iran. A 
convert from Islam, he was close to the other murdered pastors and 
cared for Debaj's children. It is no wonder, therefore, that Vatican 
officials are currently taking seriously the threats made by Islamic 
militants in April against the Pope after a Berlin court ruled that 
Iranian leaders had ordered the killing of an Iranian Kurdish 
opposition leader and three aides.

    The persecution of Christians is on the rise as advances are made 
by a militantly politicized strain of Islam where extremists, 
distorting Islam's tolerant values, seek to use religion to grab state 
power. It is no accident that the places where Christians are most 
severely persecuted are also among the countries rated as being among 
the least free in Freedom House's annual survey, Freedom in the World.

    It is difficult for Westerners to imagine the savageries 
encountered by these Christians--or the spiritual commitment necessary 
to endure persecution and death for the sake of faith.

    Few in the West feel comfortable speaking about these human rights 
atrocities. But intolerant and authoritarian regimes everywhere are 
well aware of the punishment meted out to Christians for the simple act 
of being Christian.

    Christians are targeted by ruthless dictators who demand total 
power and control, intolerant of those who believe in the inherent 
dignity of all persons created in God's image. They serve as scapegoats 
for societies that aim to vent, foment, and popularize hatred of the 
West and, most specifically, the United States. They are demonized by 
militant and xenophobic Islamist movements seeking to capture the soul 
of a historically tolerant Islamic faith. By their faith, Christians 
pose inherent threats to those regimes that rely on bribes and threats 
to maintain power.

    In a series of columns this spring about the persecution of 
Christians, former executive editor of the New York Times A.M. 
Rosenthal makes the insightful observation: ``Dictatorships, for all 
their brutish swagger, are terrified by free thoughts and minds. They 
threaten the control without which dictators fear to govern. By 
definition, free worship is an enemy.''

    If Christians are being persecuted and even martyred on such a 
massive scale throughout the world today, why don't we know about it?

    Richard Land, president of the Christian Life Commission of the 
Southern Baptist Convention, recently attested before Congress to some 
of the reasons why we Americans have ignored the increasingly grim 
fates of brave Christians abroad:

    The persecution of Christians in various parts of the world has not 
been a high profile item on America's agenda . . . First, too often 
people in the West, peering through the selective prism of Christian 
history in the West, reflexively think of Christians as persecutors 
rather than the persecuted. [Further], an increasingly secularized West 
and its leadership elite tend to be indifferent and often 
uncomprehending of a spiritual worldview which endures persecution and 
death for the sake of belief.

    With rare exception, our political leaders have been unaware of or 
else they turned a blind eye to this unfolding tragedy. Since the end 
of the cold war, American political leaders have generally shown 
indifference--even hostility--to Christians abroad, rarely taking 
religious oppression against them into account when devising foreign 
policy. Our presidents in recent years have repeatedly spoken about 
human rights abuses against vulnerable minorities throughout the world, 
but they have failed to address the persecution of Christians, even 
though it is among the most pervasive international human rights 
problems.

    In the fundamental matter of religious freedom, the United States 
is forfeiting its leadership. The President has not publicly decried 
the recent pogroms against the Coptic community in Egypt, the blasphemy 
laws in Pakistan or the bans against Christianity in Saudi Arabia. The 
U.S. government has repeatedly failed to speak up for the religious 
rights of American citizens abroad. Take, for example, those Americans 
working for the U.S. government in Saudi Arabia who are restricted from 
holding Christian services on American embassy grounds or the American 
soldiers in the Gulf War who were told they could not have bibles and 
crucifixes and who also were restricted in their worshiping while 
defending Saudi sovereignty.

    There is also the matter of asylum for religious refugees. In 
violation of its own laws, the U.S. has largely closed its doors to 
Christians fleeing for their lives from religious persecution. In the 
case of Christian refugees from Iran, the U.S. simply turns over the 
asylum determination to the Muslim police in Turkey, who summarily 
deport them back to their persecutors in Iran. Not one of some twenty 
clerics and religious leaders who fled Iran in the last three years 
received asylum in the United States. Late last year, an Iranian 
evangelical who had converted from Islam and who fled to Turkey was 
turned down for political asylum on the basis of religious persecution 
in the U.S. Her case was so strong that she was granted refugee status 
by the UN and eventually received asylum from Canada.

    Our country was founded as a haven from religious persecution. Our 
government is ignoring our origin as a nation. The Pilgrims, Quakers, 
Huguenots, Catholics, Jews, and legions of other religious minorities 
helped found and form this country as a safe haven from religious 
tyranny.

    As Professor David Forte of Cleveland State University Law School 
wrote in In the Lion's Den:

    ``The U.S. has been an ineffective friend (if a friend at all) to 
persecuted Christians and other religious minorities under the thumb of 
Islamic radicals. By not using our substantial influence to inform our 
allies that the radicals' laws and actions are against international 
law and that they offend the basic sense of decency of the American 
people, we send the following messages:

    ``We don't believe in protecting those religious adherents of the 
West, and we must be the materialist bankrupt culture the Islamic 
radicals claim we are.

    ``Radical Islam is a legitimate force in the world, and it is all 
right with us if--for reasons of state--Islamic governments give in to 
the radicals' tyrannical agenda.

    ``We treat our Islamic friends with patronizing indifference. After 
all, we, in effect, say that this is not a human rights problem but a 
Muslim problem.''

    America's policy toward other nations should seek not only to meet 
the requirements of the oil trade and investors in new markets, but 
also to embody American values. Religious freedom is the bedrock value 
on which this country was founded. Religious liberty is not a privilege 
to be endowed by men, no matter how politically powerful they might be. 
It is a God-given human right--one that is recognized in the first 
clause of the First Amendment of the Constitution and in every major 
international agreement on civil and political rights.

    America is a great power and wields tremendous influence. If the 
American president were to speak out on behalf of persecuted Christians 
and other religious minorities and exert pressure on their oppressors, 
it would bring dramatic results. Soviet refusniks Anatoly Sharansky and 
Joseph Begun are alive today because the U.S. took up the campaign for 
Soviet Jewry.

    In January 1996, the National Association of Evangelicals (NAE) 
issued an unprecedented and forceful Statement of Conscience and Call 
to Action in which it pledged to end ``our own silence in the face of 
the suffering of all those persecuted for their religious faith . . . 
[and] to do what is within our power to the end that the government of 
the United States will take appropriate action to combat the 
intolerable religious persecution now victimizing fellow believers and 
those of other faiths.'' The NAE Statement of Conscience lists simple 
policy recommendations for the U.S. government to ensure that 
persecuted Christians and other religious minorities are not betrayed 
by American foreign policy.

    The NAE Statement of Conscience has since been endorsed or 
commended by the Southern Baptist Convention, the Episcopal Church, the 
Presbyterian Church, U.S.A., and the United Methodist Church.

    The NAE Statement of Conscience is extraordinary because it 
addresses the need for systematic reform in U.S. foreign policy. Too 
many times, dealing with Christian persecution on a case-by-case basis 
becomes an exercise in futility. As the oppressive regime releases one 
well-known prisoner under international pressure, it imprisons twenty 
more whose names and cases are not known. Countries around the world 
must be given the message that it is the firm and consistent policy of 
the U.S. to grant zero tolerance to the persecutors of Christians and 
other religious minorities.

    Pope John Paul II has always been a stalwart defender of religious 
freedom. During the Second Vatican Council, he was the chief drafter of 
the Catholic Church's ``Declaration on Religious Liberty'' and has 
since made it a central theme of his papacy. In his January 1996 
address to the Diplomatic Corps, Pope John Paul II sounded an opening 
call against the persecution of Christians by Islamist and communist 
regimes in the name of ``the most fundamental freedom--that of 
practicing one's faith openly, which for human beings is their reason 
for living.''

    The widely--endorsed NAE Statement of Conscience states: ``We know 
that the United States government has within its power and discretion 
the capacity to adopt policies that would be dramatically effective in 
curbing such reigns of terror and protecting the rights of all 
religious dissidents.''

    Specific, achievable reforms that American citizens can press for 
are outlined in the NAE Statement of Conscience. Those with priority 
are:
  <bullet> Publicly condemning Christian persecution and showing 
        greater concern for persecuted Christians by the president and 
        all appropriate branches of his administration;
  <bullet> Improving reporting by the State Department Human Rights 
        Bureau to ensure that its annual reports and other publications 
        accurately reflect the situation facing Christians, eliminating 
        from the annual reporting any ``option of silence'' regarding 
        persecution;
  <bullet> Appointing a special presidential advisor for religious 
        liberty;
  <bullet> Reforming the ways in which the Immigration and 
        Naturalization Service treats the petitions of escapees from 
        anti-Christian persecution; and,
  <bullet> Terminating non-humanitarian foreign assistance to 
        governments of countries that fail to take vigorous action to 
        end anti-Christian or other religious persecution.

    Campaigning to end anti-Christian persecution will help protect 
other persecuted religious groups and minorities as well. Baha'is in 
Iran, Ahmadis in Pakistan, and animists in Sudan suffer persecution and 
death under the same practices and policies that oppress Christians in 
those countries. Moderate Muslims throughout northern Africa and the 
Middle East are now struggling against radical Islamists who seek to 
convert a historically tolerant Islam into an intolerant, anti-
intellectual, anti-democratic faith. For all of these groups, Christian 
concern for religious freedom throughout the world offers the greatest 
prospect for freedom.

                               __________

              E. Prepared Statement of Michael J. Horowitz

    Mr. Chairman and Members of the Committee:
    Today's hearing reflects a growing American awareness--and 
determination to deal with--one of the great and most unaddressed human 
rights problems of our time. In helping to shatter the silence that has 
for so long accompanied the persecution of Christian communities in the 
Middle East (and elsewhere), I believe that the Committee honors the 
highest American traditions precisely as it also protects America's 
vital interests.
    The series of hearings being conducted by your Subcommittee, Mr. 
Chairman, are a powerful sign that our political system has finally 
cast off its prior reluctance to focus on--and put an end to--the 
mounting persecutions of Christian gulags of faith. It's hard to 
believe that only last year Christian leaders and concerned Members of 
Congress felt uneasy about addressing the issue. They then worried:
    ``Won't we appear selfish and unduly self-interested?''
    ``Won't we be charged with pandering to the `Christian right?' ''
    ``Won't we risk making matters worse?''
    ``Won't it reveal an indifference on the part of American 
Christians to the sufferings of fellow believers around the world?''
    And, long experienced in and partly intimidated by caricatures of 
Christian faith and Christian believers by the dominant culture, they 
worried:
    ``Who will believe us?''
    That we are here today reflects the work done by key leaders in the 
Christian community, key Members of Congress, key media voices. It is a 
tribute to the small band of leaders like Father Keith Roderick who 
persisted in telling the truth about persecuted Christians when no one 
else seemed to care. Most importantly, however, today's hearing 
reflects a prairie fire of interest, knowledge and concern now sweeping 
through America's churches and searing the consciences of worshipers of 
all faiths. In sum, today's hearing reflects the following key items of 
a growing American consensus:
  <bullet> That religious persecution must be seen as a far more 
        serious and central human rights concern than the State 
        Department and the human rights establishment have long thought 
        it to be;
  <bullet> That Christian communities have become major scapegoats of 
        choice of thug regimes and would-be tyrants of the third world;
  <bullet> That protecting the rights of Christian lambs protects the 
        rights of all victims of human rights abuse in the third world 
        and is a vital, strategic step to ensure that our children's 
        Twenty-First Century will be far more hopeful, far less bloody 
        than our Twentieth has been.
    In short, democracy is working its customary magic on our country's 
policies as millions of Americans make increasingly clear that 
staggeringly prohibitive costs must be imposed on regimes that 
perpetrate or appease the torture, rape, forced resettlement, mass 
arrest, starvation, murder and even crucifixion of Christians and other 
vulnerable believing communities.
    We've come a long way from the day when establishment human rights 
organizations such as Human Rights Watch issued glossy reports 
advertising high priority and well-staffed special initiatives on 
behalf of children, women, drug users, academics, journalists, 
prisoners, gays and lesbians, and alleged victims of multi-national 
corporations while mounting no comparable initiatives for victims of 
religious persecution and dismissing campaigns on behalf of Christian 
victims as ``special pleading.''
    Here are but a few indices of how far we've come:
  <bullet> This subcommittee is chaired by a vigorous young Senator, 
        and a certain Senate leader for years to come, whose 
        determination to end reigns of terror against Christian 
        communities in the Near East, South Asia and elsewhere appears 
        strong and implacable.
  <bullet> The first panel at today's hearing consisted of two powerful 
        voices, both friends whom I deeply admire, Bill Bennett and Joe 
        Lieberman, whose lifelong passion against injustice has now 
        caused them to become leaders in the battle against the 
        persecution of Christians.
  <bullet> The eloquent Statement of Conscience issued last year by the 
        National Association of Evangelicals has received widespread 
        support throughout the American Christian community, and has 
        been endorsed to date by denominations as varied as the 
        Southern Baptist Convention, the Presbyterian Church, and the 
        Episcopal Church.
  <bullet> A literal explosion of books, articles, radio and television 
        programming (in both the ``Christian'' and ``mainstream'' 
        media) has begun to educate millions of Americans about the 
        extent of today's anti-Christian persecutions occurring in the 
        areas of this subcommittee's jurisdiction and throughout the 
        world.
  <bullet> Congressman Wolf, Senator Specter and a large number of co-
        sponsors have introduced the Freedom From Religious Persecution 
        Act of 1997, which will reverse policies of indifference 
        towards victims of anti-Christian persecution while 
        simultaneously imposing sanctions against governments engaging 
        in or appeasing ongoing and widespread persecution of 
        Christians, B'hais, Tibetan Buddhists and other designated 
        religious minorities, (The Wolf-Specter bill is built on Senate 
        Resolution 71 and House Resolution 515 of the 104th Congress 
        that explicitly condemned anti-Christian persecution, and is 
        modeled on the NAE Statement of Conscience.) Serious debate on 
        Wolf-Specter will begin in the Fall, after the China-MFN debate 
        has concluded, under circumstances where America's Christian, 
        Jewish and human rights communities will be as committed to its 
        enactment as they were to the enactment of the Jackson-Vanik 
        bill on behalf of the persecuted Soviet Jews.
  <bullet> As we sit in this hearing room, the most important work of 
        all is being done by an extraordinary young man in Wheaton, 
        Illinois, the Rev. Steven Haas, who serves as Coordinator of a 
        November 16 Day of Prayer, at which tens of thousands of 
        American churches will participate in a solemn, coordinated, 
        interdenominational process of education, action and prayer on 
        behalf of persecuted Christians. The Day of Prayer will be a 
        culminating and historic step in making the determination to 
        end today's anti-Christian persecutions a signature issue for 
        America's Christian voters and for others committed to strong 
        American human rights advocacy.
    In addition to all else, today's hearing offers an opportunity to 
lay a big lie allegation to rest once and for all: the claim that 
efforts to protect vulnerable Christians in radical Muslim communities 
is a form of ``Muslim bashing,'' an expression of bias towards Islamic 
believers.
    In fact, efforts on behalf of persecuted Christian communities in 
Islamist areas of the world are vital means of helping moderate Muslims 
who are also targeted by radicals seeking to capture the soul of their 
great, historically tolerant faith.
    Islamist radicals and other terrorists purporting to speak in the 
name of Islam need to persecute vulnerable Christian communities, and 
for two reasons. First, communities of faith that live beyond the reach 
of the bribes and threats on which radicals rely in order to stay in 
power always pose grave threats to the survival of terrorist regimes. 
Next, if allowed to get away with persecuting Christian communities 
tyrants are able send ``you're next'' messages of intimidation to 
everyone else they seek to oppress: ``See what I'm doing to today's 
Christian targets? Nobody cares about them, and they surely won't care 
about moderate Muslims and secular democrats if I turn on you.''
    If we are to understand the lessons of history--if we are to avoid 
the deadly trap of empowering radical, anti-Western Muslims--we need to 
remember this vital lesson of the successful campaign against Soviet 
anti-Semitism. Whatever tyrants gain when the world allows them to 
tyrannize the powerless, they lose when the world draws a line and 
stops them from doing so. How those seemingly all-powerful Communists 
of the Soviet Union became less formidable, were cut down to size in 
the eyes of all, when they couldn't even beat up a bunch of Jews! 
America's aroused, determined, implacable opposition to the persecution 
of Soviet Jews also caused walls built around Soviet churches and 
political dissidents to begin tumbling down. Similarly, stopping 
present-day Middle East tyrants from burning churches and persecuting 
Christians will allow beleaguered and presently isolated moderate 
Muslims to know that there is hope for them, that they are not alone.
    Proof that protecting lambs saves all others can be seen from the 
poignant expressions of gratitude offered by moderate Muslims for 
today's efforts on behalf of Christian victims. The scholar David Forte 
has written of Islam's first hundred years during which a murderous, 
intolerant faction, the Kharajites, sought to dominate that faith. It 
took almost a century to defeat the Kharajites, after which Islam 
became a faith as generally hospitable to strangers as was Christianity 
and Judaism. What we have today, says Forte, are modern-day Kharajites 
renewing their fight for the soul of Islam. Forte notes that we offer 
moral legitimacy to murder and ensure the reign of the radicals when we 
silently accept the persecution of vulnerable Christians in the Islamic 
world--that we patronize Islam by wrongly assuming it to be rooted in 
the torture of nonbelievers. Vulnerable Christian communities are the 
battlegrounds on which the struggle for modern-day Islam's soul is 
waged. Today's hearing thus represents a debt of obligation to Muslims 
who often struggle with little support to leave the Dark Age prisons 
built for them by the modern-day Kharajites.
    Here's a story about how Washington works and the cynicism that 
often animates it. The story is about Saudi Arabia, whose government 
pays bounties for identifying Bible study groups that are then arrested 
and tortured. (Observers have noted that Saudi anti-Christian 
persecutions have increased by orders of magnitude since the country 
was rescued by Desert Storm.) In a meeting requested by a senior Saudi 
official, I was told that Americans had little cause for concern over 
his government's policies--that overt Christian activism on the part of 
Americans was at most dealt with by deportation. The official went on 
to acknowledge that the Saudis do have ``problems'' with Christian 
``guest workers'' from the Philippines and other third world countries, 
but asked: ``That doesn't matter to Americans, does it? How is that 
your issue?''
    The Saudi diplomat and others like him are now becoming 
increasingly aware that millions of Americans--and millions of American 
Christians in particular--do care about differently colored fellow 
believers living in distant lands. In his towering account of Christian 
persecution, Their Blood Cries Out, the scholar Paul Marshall points 
out that more than three-fourths of all Christians live in the third 
world, that its disproportionately female character makes its believers 
especially vulnerable and that ``Christianity is growing rapidly in the 
world, perhaps undergoing its largest expansion in history,'' Americans 
have always stood up against wanton terrorism, and they will surely do 
so against a terrorism practiced against those who share their faith. 
They will also do so because they know--as the Pope has eloquently made 
clear during the past year--that political freedoms ultimately rest on 
the right of men and women to worship without threat of being 
persecuted for doing so.
    Clearly, the United States must address worldwide anti-Christian 
persecutions if and as we wish to play a major world role, and the 
Committee is thus to be commended for conducting a hearing so deeply 
rooted in American self-interest and American values. Today's hearing 
goes directly to the question of whether Islam of the 21st Century will 
be allowed to become an intolerant Kharajite caricature of its historic 
self. It will help determine whether leaders like Ayatollah Khomeni or 
terrorist organizations like Hamas will be permitted to define the 
nature of Islam, or whether vulnerable, tolerant Muslims can keep and 
regain their historic positions as leaders of a great faith. Burnt 
churches and martyred worshipers in the Middle East are symbols of an 
intra-Islamic struggle, battlegrounds on which Islam's future will be 
determined. By standing up for their fellow worshippers, American 
Christians oppose appeasement of radical forces always easier to stop 
sooner rather than later.
    Thank you, Mr. Chairman, for standing with the lambs, in the 
process pointing the way for a more secure 21st Century for our 
children--for a world where Christians and Muslims and Jews find common 
bonds, a world where our children are spared the specter of a 
tyrannous, anti-Western Islamist leadership bent at every turn on 
confronting, terrorizing and challenging all who disagree with them.

                               __________

             F. Prepared Statement of Father Keith Roderick

    As Secretary General of the Coalition for the Defense of Human 
Rights Under Islamization I will be presenting an overview of religious 
persecution in the Near East. Senator Brownback and the other members 
of the Near East Subcommittee are to be commended for creating this 
opportunity for those who have been persecuted to tell their stories. 
The witnesses who will testify in subsequent sessions are the faces of 
persecution. Their personal histories more than any overview, statistic 
or analysis portray the true nature of this terrible reality.
    The Coalition is a cooperative effort of 60 human rights and 
ethnic-national organizations to advocate respect for human rights of 
religious minorities adversely effected by the process of Islamization. 
Its membership includes organizations who are Roman Catholic, Orthodox, 
Protestant, Jewish, Hindu and Muslim. The members include Assyrians, 
Armenians, Copts, Lebanese, Pakistanis, Kashmiris, Indonesians, 
Iranians, and Sudanese. Our principles of advocacy are based upon those 
delineated in the Universal Declaration of Human Rights, The 
Declaration on the Elimination of All Forms of Intolerance and of 
Discrimination Based on Religion or Belief, and the International 
Covenant on Civil and Political Rights.
    Islamization is a political and cultural process to establish 
Islamic law, Shari'ah, as the ruling principle of government and of the 
cultural institutions of society. Militant Islamists advocate a strict 
adherence to an inflexible interpretation of Shari'ah, pressing for a 
revival of the ``ideal'' Islamic society to which everyone must 
conform. This produces great tension between Muslims and non-Muslims, 
and in fact, within the Muslim community itself. In countries that 
recognize to some degree or another the primacy of Islam as the state 
religion, there is a greater tendency for segments of society to follow 
a more radical course leading to persecution of minority religious 
groups. The character of this persecution may be personal or corporate. 
Some persecution is the product of government policy. Some governments 
perpetuate discriminatory practices creating environments which nurture 
religious-based hatred against minorities. Still other persecution is 
perpetrated by radical ideological movements. According to the Zwemer 
Institute, no nation with an Islamic constitution, of which there are 
22, meets the definition of ``tolerance.''
    Christians of the Near East are the indigenous inhabitants of the 
countries of the region. Their Christianity was not imported by Western 
colonial movements or missionaries. In most parts of the Near East the 
Christian culture predates the expansion of the Islamic empire by seven 
centuries. Today that population, now a minority in all countries of 
the Near East, is at risk of extinction. The ministry, Open Doors, has 
reported dramatic changes in the Christian population of the Middle 
East since 1900. In 1900, the average Christian percentage of the 
general population in the countries of the Near East was over 20%. 
Today it is only 7%. The most dramatic changes have occurred in Turkey. 
Here the Christian population has dropped from 22% to .15% due to this 
century's first genocide in which 1.5 million Armenians and 750,000 
Assyrians lost their lives in 1918. Today Turkey has a secular 
constitution, but it has recently begun to feel the pressure of 
Islamists to return to an Islamic law based society. In Lebanon, the 
only country with a Christian majority population prior to 1980, the 
Christians comprised 67% of the population at the beginning of the 
century. Today it is 40%. In the Holy Land, the Christian population is 
estimated to be 125,000 or 1.8% of the population of Israel as compared 
to 2.3 million Muslims or 34.3% of the population. In every country of 
the Near East the Christian population has decreased.
    Three factors have contributed to this change: (1) increased 
emigration of non-Muslims because of the pressures of living in an 
Islamic society; (2) intensified persecution; and, (3) a higher 
birthrate among Muslims. It is clear that in the Near East Christians 
are a shrinking, marginalized minority.
    A number of countries of the Near East such as Iran and Saudi 
Arabia are instrumentally involved in systematic persecution of 
religious minorities. Other governments such as Egypt facilitate 
religious persecution by defacto, allowing radical Islamic groups to 
terrorize Christians without fear of prosecution. There are 
identifiable problem areas which detrimentally affect minority 
religious-ethnic groups in the Near East:
    (1) Apostasy Laws--Apostasy Laws are based on the Shari'ah (Islamic 
Law) which prohibit the legal/social recognition of a person's 
conversion from Islam to another religion. In the countries of the Near 
East, with the exception of Pakistan because of the tremendous protest 
of the Christian minority who opposed it, identification cards which 
include religious identification, are required for all public 
transactions, including marriage, employment, and educational services. 
A person who desires to change his/her religious affiliation from Islam 
is not allowed to change the designation on his/her legal 
identification card. This encourages discrimination, intimidation and 
virtually makes intermarriage between Muslims and non-Muslims illegal.
    On October 29, 1996, a 30 year old Christian Lebanese national, 
Elis Dib Ghaleb, was convicted by a Shari'ah court in the United Arab 
Emirates in al-Ain for marrying a Muslim woman. He was sentenced to 39 
lashes and one year's imprisonment. He had already been jailed for a 
year at the time of the sentence. Amnesty International received 
reports noting that he had been beaten and flogged several times prior 
to his formal sentence.
    Islamic law prescribes death as the punishment for apostasy. 
Officially, only Iran and Saudi Arabia impose the full penalty of death 
to offenders. However, in such countries as Egypt, social pressures 
leave the ``apostate'' without the protection of the civil authorities. 
In certain situations marginalization of the convert results directly 
from government policy. For example, a memo issued by the Director of 
the Egyptian Military Intelligence Service refuses a Christian 
convert's request to travel abroad. The memo stated, ``In as much as he 
is an apostate from the sublime Islamic law, he has no civil rights 
what so ever before the government with all its regulatory agencies.'' 
Court testimony offered in 1992 in Cairo by the Islamic Cleric Sheik 
Muhamad El-Ghazali advocated civil protections to all those who 
perpetrate violent retribution against apostates. He said, ``Any person 
or group of people who kill an apostate should not be liable for 
punishment.'' For Islamists who advocate the primacy of Islamic law 
this was tantamount to the issuance of a death sentence to anyone who 
will not conform.
    In Egypt, apostates are arrested routinely under the Emergency Law. 
The law suspends many legal rights of Egyptian citizens on the pretext 
of preserving social stability. The office of the Interior Ministry 
maintains a specific Religious Affairs Section in its local offices and 
national headquarters at the Lazoughli State Security Investigative 
Center in downtown Cairo. Reports of torture including electric shock, 
beatings, hanging from wire cords for hours, and threats of death are 
included as part of the process of interrogation. The arresting of 
converts from Islam to Christianity under the Emergency Law by the 
Egyptian security forces indicates that the Egyptian government is 
violating the universal right to freedom of conscience as agreed to 
under the Universal Declaration of Human Rights.
    In Iran, Dhabihullah Mahrami, 50, was sentenced to death by the 
Revolutionary Court in Yazd last year for ``denouncing the blessed 
religion of Islam and accepting the beliefs of the wayward Baha'i sect 
(national apostasy).'' The State Supreme Court returned the case back 
to the court in Yadz for reconsideration because the original court of 
investigation ``was outside its competence.''
    The Iranian government continues to deny that the Baha'i religion 
is an authentic religion and according to Amnesty International the 
Baha'is are often accused of espionage. In May 1996 an amendment to the 
Penal Code was approved by the Islamic Consultative Assembly to include 
``espionage'' as an area covered under the enmity against God clause, 
specifying a mandatory death penalty. This expands the scope of the 
death penalty in a dangerous way. Many persons arrested for apostasy or 
other religious activities have reported that ``espionage'' was 
included in the charges levied against them.
    Iran has perpetrated a systematic effort to eradicate the 
leadership of the Iranian Council of Protestant Ministers and undermine 
the evangelical churches which contain the highest number of converts 
from Islam. On September 25, 1996, Pastor Mohammed Ravanbakhsh, a 35 
year old Iranian Christian minister was murdered. His body was found 
hanging on a tree in a forest near Ghaem-Shahr. He had been detained by 
Iranian police prior to his death. He was a convert to Christianity 
from Islam. The Iranian government has publicly proclaimed that it will 
not tolerate apostates being ordained as Christian ministers. His death 
occurred four days prior to the commemoration of the annual 
International Day of Prayer for Persecuted Christians. The government 
stated that his death was a suicide, even though Christians who 
prepared his body for burial observed that he had been stabbed with a 
knife at least 20 times. An order for death had been issued by the 
Islamic Revolutionary Court judge, Sheikh Reza Rezaian. Since 1994 the 
Iranian government has avoided bringing church leaders and apostates to 
court. A pattern now exists of persons being detained then mysteriously 
being found dead.
    (2) Blasphemy Laws--Pakistan retains an insidious law which 
prescribes the death penalty for anyone convicted of insulting the 
Quran or the Prophet Mohammed. Articles 295.B and 295.C of the Pakistan 
Penal Code. Religious fundamentalists often incite the misuse of these 
laws by preaching to the generally illiterate audiences that Christians 
are blasphemers because they believe that Jesus Christ is the Son of 
God, a teaching contrary to that of Islam. The following cases 
occurring over the past two years illustrate the terror that this 
legislation continues to hold over the 15 million Christian Pakistanis:
    (1) The acclaimed writer and teacher, Niamat Ahmar, was murdered in 
Faisalabad, Punjab in front of 200 witnesses. His killer stated that he 
was conducting a noble cause by killing a blasphemer. Ahmar's body was 
hacked to pieces by the murder's butcher knife by the rejoicing crowd. 
More recently his daughter was burnt to death in the same city by a 
similar crowd.
    (2) Ighal Tahir, a converted Christian who had been arrested under 
the Blasphemy Law, was murdered by inmates as the warden and prison 
guards watched in Lahore.
    (3) Mubarik Masih (Mukha), an elderly evangelist was tortured to 
death by police in Lahore. He had been arrested and charged with 
blasphemy.
    (4) Bantoo Masih, an elderly Christian was stabbed to death by a 
Islamic fanatic while at the police station of Lahore Cantt being 
charged under the Blasphemy Law.
    (5) Manzoor Masih, charged under the Blasphemy Law in Gujranwala, 
Pakistan was murdered by militants as he was leaving the High Court 
building in Lahore. He and two other Christian men, Rehmat Masih and 
Salat Masih, had been sentenced by a lower court to death. The High 
Court later reversed that judgment noting that the charges made were 
false.
    (6) Anwar Masih, awaiting trial in a Faisalabad jail for four years 
under the charge of Blasphemy has had numerous attempts on his life.
    (7) Roni Daniel, was murdered in March 1996.
    (8) Rehmat Masih, died under police torture in April 1996 in 
Lahore.
    (9) Rashid Masih, a young Christian man was murdered by police in 
Kot Lakhpat, Lahore Jail in April 1996.
    (10) Munir Masih and his son, Emmanuel, were murdered by fanatics 
in Narowal, Punjab. The police did not even register a case report on 
the incident.
    (11) Two Christian men were murdered in May 1996 in a Christian 
neighborhood, Basti Kasso-ke, District Hafizabad in Pujab, apparently 
related to blasphemy accusations.
    (12) Javed Masih and Sohail Masih, were murdered by police in 
Lahore in cooperation with radical Muslims.
    (13) Nawab Masih, was tortured to death by police in Lahore during 
interrogation.
    Saudi Arabia instrumentally persecutes non-Muslims more 
comprehensively than any other country of the Near East. No religion 
other than Islam is allowed to be practiced within its borders. 
However, it has been estimated that 27% of the Saudi population 
consists of expatriate guest workers, three-fourths of whom are non-
Muslim. The Metowah (religious police) closely monitor foreigners for 
public expression of their Christian faith. Those who seek to practice 
their faith even within the private confines of their own homes, are 
subject to harassment, beating, arrest, or deportation.
    In December 1994, expatriates from England and the United States 
held a school Christmas pageant in Jeddah, Saudi Arabia. To the horror 
of the families, the local Metowah invaded the play, chasing children 
and beating several parents. A parent videotaping the play caught the 
action on tape which was later broadcast on Britain's Independent 
Television Network. In November 1994, Mikhail Mikhail Cornelius, a Copt 
worker in Saudi Arabia, was arrested after being accused of blasphemy. 
He reportedly told a fellow worker that he believed in Jesus Christ. He 
was sentenced to flogging (1,000 lashes) and seven years imprisonment. 
International intervention prevented the sentence from being executed.
    A metowah raid on a meeting of Philipino Christians in Riyadh 
resulted in the arrest of 75 persons in 1995. Several were severely 
beaten and one disappeared. In October of that same year another raid 
on a Korean fellowship in Riyadh was disrupted. The congregation of 130 
adults and 50 children were held for 4 hours. Over a dozen were held 
for several days.
    Unfortunately, Saudi Arabia is such a closed society that accurate 
statistics documenting the effect of the government's policy on 
religious minorities is difficult to obtain. There are Saudis who are 
Christian, but their churches remain hidden. They are at the most risk 
because they are considered apostates and subject to the sentence of 
death if discovered.
    (3) Promotion of Religious Based Hatred and Violence--The Arab 
Republic of Egypt has the largest Christian population in the Middle 
East. The Copts, the indigenous Christian people of Egypt, number 
between 8-10 million or between 12-15% of the population. Targeted 
violence against Christians has increased dramatically during the past 
five years. On Thursday, March 13, 1997, Islamists launched attacks on 
Christians in the village of Ezbet Dawood (Village of David), killing 
13. One month earlier, February 12, 1997, Islamists carried out an 
unprecedented atrocity against students meeting inside St. George's 
Church in Abu Qurqas and at a nearby village. Nine students, all 
between the ages of 13 and 22, were killed immediately by 4-5 masked 
gunmen. Three others later died from their wounds. A fisherman, his 
son, and a policeman, who were believed to be standing near the church 
as the attack began, were also murdered by the fleeing gunmen. The 
bodies of the three men were found in a sugar cane field in the nearby 
village of Kom al-Zuheir. Gama'a al-Islamiya (Islamic Group) is 
suspected of perpetrating these murders.
    More Christians have been murdered by Islamic extremists in the 
first six months of 1997 than in the past 25 years. According to 
statistics reported by the Center of Egyptian Human Rights for National 
Unity, there have been 543 incidences of violence against Christians 
during the past five years. At least 117 attacks were against Christian 
churches, 325 against Christian property and businesses, and 56 against 
Christian homes. In this onslaught at least 615 Copts have been injured 
and 106 killed.

                      copts murdered by extremists

    1973-1991 . . . . . . .  18
    (1992 marks the beginning of the Egyptian government's ``war'' 
against Islamic Fundamentalists)
    1992 . . . . . . .  13 (Massacre of 13 Copts in Daryut)
    1993 . . . . . . .  15
    1994 . . . . . . .  13
    1995 . . . . . . .  24
    1996 . . . . . . .  10
    (Feb. 21-24, 1996 a mob of over 1,000 Muslims are incited by Muslim 
clerics to attack Christian churches and property in several villages 
including, Kafr Demian Gergi, lbrahimeya, Negm, al-Bashawi, al-
Mahmoudi, al-Zawaher, Om Said, and Mobashor.) According to the Al-Ahram 
Centre for Political and Strategic Studies, 30 Christians were killed 
in 1996.
    1997 . . . . . . .  31

    These are conservative estimates due to the fact that many 
incidences of violence against Christians are not reported for fear of 
retaliation against the community or family. Much of the violence has 
been focused in Upper Egypt in the cities of al-Minya and Assuit, which 
have Christian majority populations.
    The Egyptian government has boasted of progress in its war against 
the Islamic militants. In fact, the government has failed to repulse 
the surge of violence. It argues that there is not a Coptic problem and 
that many more Muslim police and soldiers have been murdered by 
extremists than Christians. The latter statement is true. However, the 
police and soldiers are being murdered because they represent the 
Egyptian government. The Copts are being targeted and murdered because 
they are Christian. The Egyptian government has failed to recognize 
that their policies of isolation of the Copts in socioeconomic terms 
has created an atmosphere of bigotry and hatred toward the Coptic 
minority. Just this past week, during a campaign to pressure Islamists 
in the Cairo area, a large number of Christians were arrested also as 
an apparent effort to appear even handed. This is not an uncommon 
occurrence. The Egyptian government has allowed the Copts to be used as 
human safety valves in an attempt to deflect the Islamists anger 
against the Mubarak regime.
    Egyptian based human rights organizations report the persistent 
failure of the Egyptian government to prosecute and convict anyone for 
the murders of Coptic Christians. Over 70 persons were detained by the 
police following the St. George's massacre of students, but families of 
the victims report that all of the suspects were released. The persons 
responsible for the murders are known to the community. The photographs 
of three of the gunmen were even published in al-Ahram, Egypt's most 
widely read daily newspaper. A young Coptic Christian, video taping the 
bloody aftermath of the massacre and the funerals of the victims, was 
arrested by security forces and detained for over a week, during which 
time he was severely beaten. The video tape was confiscated and not 
returned.
    The Egyptian authorities had withdrawn permanent police protection 
from St. George's Church in Abu Qurqas one and a half years ago because 
it had proclaimed progress in controlling the terrorists. Many 
Christians believe the real reason for removing the police protection 
was because government losses by assassination of security personnel 
were too great. The Egyptian Organization for Human Rights has accused 
the Egyptian government of culpability in the increasing violence 
against Christians.
    During the past five years Islamists have made significant gains in 
their numbers both in the ranks of military units and of the police. 
Copts have reported that on numerous occasions when attacks were being 
carried out on Christians, policemen seen in the vicinity refused to 
intercede. Some police are suspected of being informants to the 
extremists. A study conducted four years ago by the Police Institute 
for Research in cooperation with the National Institute of Planning 
found that a sizable segment of the police had engaged in terrorist 
activities against Copts. According to a report appearing in the al-
Dostour newspaper on May 7, 1997, a recent study described the efforts 
of a prominent police officer to recruit for the terrorist 
organization, Takfir-w-El-Higrah. It was estimated that 60% of the 
extremist police officers had committed crimes of terror and that as 
much as 80% of the police force in upper Egypt had association with 
terrorist organizations. As further evidence of the Egyptian 
government's failure to deal effectively with the security issue for 
the Copts, the Egyptian magazine Rose-Elyoussef reported on March 24, 
1997 that the Egyptian government had announced that it would be 
creating a Muslim Civilian Militia to protect the Coptic population. 
The Christians see this as an alarming prospect. They question how the 
government will be able to keep this militia in check when it has been 
unable to control its own military and police units.
    On December 15, 1996, a Christian farm and center for disabled 
children, the Cheerful Heart Center, was attacked by 300 soldiers from 
a nearby unit of the Egyptian Army located about 15 miles outside of 
Cairo. The desert reclamation project, owned by Coptic Christians, was 
in the process of being created as a home and developmental center for 
over 1,000 children. At the time of the attack, it was assisting 45 
children, none of whom were injured. The Center had previously received 
all necessary permits from the government for construction.
    In Pakistan, 80% of the Christian population still live in 
villages. A systematic destruction of many of these villages and the 
confiscation of these poor farmers agricultural lands has been underway 
for the past twenty years. It is estimated that hundreds of Christian 
villages have been destroyed. Among them are the villages of Mattah, 
Bath, Jindre, Dogaich, China Basti, Dhobi Serai, Ahata Thanedar, and 
Raiwind, all in the Lahore district; Martinpur, youngsonabad, 113 
Sasngula Hill, Singhara, Sacha Sauda, and Khan Jaja in the Sheikhupura 
District and, Fauji Quarters in Peshawar.
    In January 1997, a Christian village of Shanti-Nagar in the 
District of Khanewal in the Punjab was attacked and destroyed by a mob 
of 10,000 incited by Islamists. The villagers were alerted to the 
impending attack and requested police protection. However, the police 
withdrew as the mob drew near. Nearly 1,500 homes were destroyed. 
Almost 70 Christian women and girls were kidnaped during the attack. 
Because of the mistreatment their captors the women's emotional scars 
will be more difficult to rebuild than their homes. The Pakistani 
government had promised to compensate the villagers 500,000 Rupees 
($12,500) for each home lost. Later this amount was amended to 50,000 
Rupees ($1,250). Only a few houses have been partially rebuilt. Victims 
have so far received only 800 Rupees ($20).
    The Assyrians, an indigenous Christian minority who live among the 
Kurds in Northern Iraq, have reported the systematic confiscation of 
traditional Assyrian lands by well armed Kurdish groups. Local 
Assyrians report that they are terrorized by the perpetual land grabs. 
Since 1991, 52 Assyrian villages have had their lands confiscated. 
These include the villages of Dohuk, Pakhloua, Zakho, Sariya, Towsana, 
Mshara, Bajidbraf, Bravook, Mansoura, Fesh Khabour, Howrisk, Khalakh, 
Azakh, Dowra and others. Often times these land confiscations by Muslim 
Kurds end in violence. On April 16, 1996 an Assyrian deacon from Sanat 
village, Adel Odish Marcus, was murdered in Zakho by a member of the 
KDP. A number of killings of Assyrians by the PUK during May 1996 was 
reported. On February 10, 1997, in the city of Shaqlowa, Northern Iraq, 
two Assyrians, father and son, Lazar and Hawel Matti, were murdered by 
a group of Islamist Kurds. In the past six years, since the Kurds took 
control of Northern Iraq, with considerable U.S. assistance, not one 
Kurd has been arrested for the murders or land confiscations of 
Assyrians.
    In most all countries of the Near East the media is controlled by 
the government. Not only is the media used as a filter to block or 
twist unwanted criticism, it can also be used as a vehicle to undermine 
the security of minorities. In Egypt there are over 1500 radio and 
television programs which are accessed by religious groups. Copts 
report that they are denied access to any of those programs. The 
government does allow Islamist clerics, some who routinely deride Copts 
as infidels and openly encourage violence against them. The government 
in Egypt does nothing to curb the production of inflammatory tapes 
directed against the Christian minority. Recently the government has 
proposed that all Christian books be prohibited from being published 
until being reviewed and approved by an Islamic review authority.
    The Lebanese government has threatened to close down a Catholic TV 
network and two church operated radio stations. The move was proposed 
as part of a resolution adopted last year that suppressed 50 TV and 150 
radio stations, contradicting constitutionally guaranteed freedoms of 
religion and expression. In south Lebanon, the only area not occupied 
by Syria, Christians have been subjected to escalating threats by 
Islamists associated with Hizbollah. The Christians of south Lebanon 
operate the only independent television tower in Lebanon.
    In Egypt, vitriolic clerics are allowed to inflame uneducated 
Muslims with bigoted portrayals of Christians on a daily basis. In a 
village in Assuit, during Friday prayers at the mosque on March 14, 
1997, a fundamentalist cleric called for the burning of the adjacent 
church and killing of infidels, claiming that the church had placed the 
cross too high on its roof. The newspaper Watny reported that the 
Governor of Assuit sent letters to the local Christians asking them, in 
a gesture of good will and in order to restore peace, to contribute all 
of the costs of renovating the two mosques on each side of the church 
so that they would be higher than the church cross. The Christians were 
left with no recourse but to agree. Article 20 of the Egyptian 
Constitution states that, ``Any advocacy of national or religious 
hatred that constitutes incitement to discrimination, hostility or 
violence shall be prohibited by law.'' Justice has not been implemented 
blindly in Egypt.
    The Egyptian government continues to subject Christian churches to 
the Hamayonian law, first issued under the Ottoman rule in 1856. The 
law does not allow any repair of churches or construction of new 
churches without first obtaining a decree signed by the President of 
the Republic. During 1981-1990 only 10 permits were granted to the 
Coptic Orthodox Church (90% of the Christian population) for new 
churches to be built and 25 for repair permits. Permission is needed 
for even the most minute changes, such as painting or repairing a 
bathroom.
    In the Islamic Republic of Iran the Ministry of Islamic Guidance 
prohibits the printing of all Christian literature including church 
bulletins and newsletters. In February 1990, the Ministry of Islamic 
Guidance closed the Iran Bible Society and refused permission for the 
importation of bibles. According to Iranian Christians International 
all Christian books and bookstores were confiscated, this after 200 
years of operation with government registration. The Christian 
population of Iran consists of 150,000-300,000 Armenians, 70,000 
Assyrians, and 20-25,000 Evangelical Christians, the majority of whom 
are converts from Islam. It is estimated that an underground church of 
approximately 100,000 apostates operates completely in secret for fear 
of discovery, conviction, and the death sentence.
    The Iranian government has waged a campaign of eradication against 
the Evangelical Christians of Iran. Rev. Ravanbahsh, who was murdered 
in September of 1996, had been ordained in 1990 by the late Bishop Haik 
Hovsepian-Mehr, Director of the Assemblies of God Church. Bishop 
Hovsepian-Mehr was murdered in January 1994 after waging a successful 
campaign to gain the release from prison of another minister, Rev. 
Mehdi Dibaj. Rev. Dibaj and Rev. Tateos Mikaelian were murdered in June 
1994. The Iranian government blamed those murders on the Iranian 
opposition. In July 1994, an American legal resident and Iranian 
Christian, Hassan Shahjamali, was arrested by Iranian security 
personnel, who he believed were from the intelligence group attached to 
the President's office. They interrogated him about bringing films and 
religious books to family members who were Christian. They also wanted 
information on the activities of all the Christian churches in Tehran. 
After international intervention, Shahjamali was released two weeks 
later and allowed to return to the U.S.
    Perhaps the most insidious forms of persecution to arise over the 
past five years are kidnappings and ``shame rapes'' for the conversion 
of women; these have increased in many parts of the Near East. The 
Pakistan daily newspaper, Jang, reported on May 21, 1996 that a 
Christian girl of Village 46, Sangla Hill was taken out of her house at 
gun point in the middle of the night, gang raped and kept by her 
kidnapers. Surryia Bibi, 17, of Rawalpindi was also kidnaped and forced 
to convert by her rapist. The police refuse to file a complaint 
reasoning that the girl is no longer a Christian and she can not be 
allowed to return home because it is a Christian home. Last year, two 
minor Christian girls were abducted, raped and forced to convert to 
Islam. When their father approached the police to obtain the release of 
his daughters, the police offered him a deal. If he were to convert to 
Islam, the girls would be permitted to visit him as Muslim father.
    These are only a small number of the cases of reportedly thousands 
of such cases of rape being used by Islamists as a way of devastating 
Christian families. Unfortunately, the crime goes unpunished by local 
authorities. In Egypt, the Coptic Church is investigating 200 such 
cases.
Conclusion
    Mr. Chairman, the persecution of Christians and other minorities 
does exist in such countries as Algeria, Egypt, Iran, Pakistan, Saudi 
Arabia, Syria and the United Arab Emirates. Religious persecution in 
the context of the examples which have been presented stands out as 
something tragically unique. The discriminatory policies, arrests, 
destruction of property, violence, torture and murder are targeted 
against certain groups solely on the basis of their beliefs and 
religious culture. Even though governments such as Egypt and Pakistan 
do not officially condone violence against the minorities they bear 
responsibility for it by their de facto support of the Islamists by 
refusing to prosecute their acts of violence. Their own callous support 
of the very attitudes and institutions which perpetrate an environment 
in which religious bigotry flourishes and where unruly mobs motivated 
by radical ideologues hurt and kill those whose beliefs are different 
than their own must be challenged.
    It is important for this legislative body to incorporate as part of 
its foreign policy perspective the fact that the countries of the 
Middle East are not homogeneously Arab and Islamic. There are sizable 
and vibrant indigenous Christian cultures throughout the region. The 
Christians of the Middle East do not want to abandon their homelands. 
They want to feel secure in them. They want to be an integral part of 
the political, economic and cultural life in their own country. They do 
not want to be second class citizens, subjected to religious apartheid 
by their government and society at large.
    The United States enjoys interdependent relationships with many of 
the countries guilty of persecuting its religious minorities, such as 
Saudi Arabia and Egypt. It is sometimes difficult to criticize our 
friends, but it is time that we begin a serious engagement of these 
countries. Friendship depends upon similar values and like-mindedness. 
By our silence and unwillingness to demand the highest form of civility 
from these countries, we give tacit permission for them to impose ever 
greater hardships on those minorities who are already suffering.

                               __________

            G. Prepared Statement of Colonel Sharbel Barakat

    Ladies and Gentlemen:
     I wish to thank you Mr. Chairman for giving me this opportunity to 
talk about the persecution of the Lebanese Christians in general and 
the Christian population in south Lebanon in particular. This historic 
achievement will allow me to share with you, the representatives of the 
American people, a truth which was hidden for years by both the 
oppressors in the Middle East and by their protectors in the Western 
world.
    My name is Sharbel Barakat. I was born and raised in the Christian 
village of Ain Ebel in south Lebanon. I studied in my village and later 
in Beirut. I became an officer of the Lebanese army, got married and 
had four children. I currently live in my village which is under siege 
by terrorist groups such as Hizbollah, and radical factions. I cannot 
travel in my country, nor I can go to the capital Beirut, I cannot 
leave my country through the airport, nor through seaports, Hizbollah 
has issued death sentences--sentences which were made public by the 
leadership of the organization--against large numbers of Christians in 
south Lebanon. I live with my family and my Christian community under 
the constant threat of shelling, road side explosions, kidnapping, and 
torture, in an area, home to 150,000 Christians and other minorities. 
Our fault? We are Christians surrounded by Islamist fundamentalists. In 
order to respond to your invitation Mr. Chairman, I had to cross the 
border into Israel, and leave the Middle East through the only airport 
that connects us to the free world.
    We, the Christians of south Lebanon do not live in a free world.
    Throughout my life, my relatives, friends and community have been 
submitted to various forms of oppression and persecution for the mere 
reason that we are Christians. Today, I would like to testify about my 
own experience, the experience of my community, the present state of 
harassment, and what we expect in the future. I would like also to make 
a few suggestions to the United States and world governments.
I. My experience
    Throughout my young years, I was raised in the fear of massacres, 
as our village's population was butchered in 1920 by Muslims. At the 
end of 1958, and before the U.S. Marines' intervention to put an end to 
the Islamic uprising, backed by Abdel Nasser of Egypt, I lost my eldest 
brother, a young Lebanese officer. When Benoit was killed, I was six 
years old. In the seventies, the PLO systematically brutalized the 
youth and elders of Ain Ebel, and other villages, installing terror 
check points, arresting, kidnapping, and killing some of the villagers. 
On many occasions graffiti were written on the walls such as ``there is 
no place for Christians in this land.'' Since 1977, our village was 
encircled by PLO and other radical groups. Our world shrunk to less 
than three square miles. We were in a collective prison, more like a 
Christian ghetto surrounded by Jihad forces. On new year's eve of 1979, 
the day my wife gave birth to my older son, her two parents were 
kidnapped by the elements of Abu Nidal for three months. On Christmas 
day of 1991, my brother-in-law, a middle school teacher, was kidnapped 
to the Ain El Helweh Camp and tortured for a whole month by the armed 
elements of Abul Abbas.
    In 1984, a new organization, Hizbollah, took over from the PLO. 
Manipulated by the Iranians, protected by the Syrians, legitimized 
after 1990 by the current Lebanese regime, the terrorists of Hizbollah 
were bolder in their designs. They openly called for the establishment 
of an Islamic republic. For six years, we had to use fishing boats to 
exit Ain Ebel's region in order to reach Beirut, before it fell to the 
Syrians in 1990. Children, women, and elderly were packed like cattle, 
under Hizbollah's fire, In 1985 a ship carrying 200 Christians sank off 
Beirut's shores. I personally was on many of these horror trips. Life 
was forbidden to us, so was freedom. During the time we were oppressed 
by the fundamentalists, other Christians suffered as well: the Western 
and American hostages, held by the same Hizbollah in Lebanon,
    In the wake of the Syrian invasion of the Christian areas of Beirut 
and Mount Lebanon in October 1990, three civilians from my village were 
kidnapped by Hizbollah. Marun Nassif Atmeh was killed and his body was 
left in the valley of Wadi el-Sluki for fifteen days. The United 
Nations soldiers found him defaced and maimed. We were able to 
recognize him with the help of X rays taken of his leg few weeks prior. 
Butros Nassif Atmeh died months after his release as a result of severe 
beating to his bead during his kidnapping. The third Christian, who is 
the nephew of a bishop and still alive, was reduced to a living martyr. 
I cannot bring his name for safety reasons. This environment of extreme 
violence against my village and the Christians of this area caused us 
to live in constant fear. We even considered emigrating, emptying the 
villages; however, we remained on our land.
    Since 1979, under Syrian pressures, our wages from the Lebanese 
Army were suspended by Beirut's government. Furthermore, a great number 
of us are denied passports.
    More recently I worked hard to establish a Christian radio station 
to broadcast to the local community. As I made the first broadcast, 
Hizbollah threatened to shell the station. Later, Hizbollah's rockets 
were fired into the area, and we were forced to close it down to spare 
lives.
II. The experience of my community
    The pattern of suppression is an old one. The Christian community 
in that area was subjected to a number of massacres throughout this 
century. Since the massacre of 1920, incidents occurred frequently.
    Mr. Chairman, the present Speaker of the House in Lebanon, Mr. 
Nabih Berri, who is considered as a moderate Shiite, publicly 
threatened by reminding us of this 1920 massacre three times. Targeting 
Christians is not specific to south Lebanon. The Lebanese Christians 
have been resisting the tide of Islamism since the seventh century. Our 
ancestors have paid the price for their faith. Lebanon is the only 
country in the Middle East where Christians from all denominations have 
been able to form a safe haven for over thirteen centuries.
    In modern times, attempts were made to create a co-existence 
between Lebanon's religious communities. The Christians extended their 
hands to the Muslim leadership. Successful for a short period of time, 
this peaceful coexistence fell under the terrorism of the PLO, the 
Syrian occupation, and the rise of Islamic fundamentalism.
    For an insight on this history I recommend the comprehensive book 
of Professor Walid Phares, ``Lebanese Christian Nationalism: The Rise 
and Fall of an Ethnic Resistance.'' (Boulder: Lynne Rienner Publishers, 
1995).
    In Phares' terms, the ``Christians of Lebanon were and are still 
targeted because of their Christian identity and their determination to 
remain Christian.''
    Since 1975, about 150,000 Christians were killed during the war, 
Thousands of Lebanese Muslims died as well. Entire Christian villages 
were erased and their populations were ethnically cleansed. In Damur 
(south of Beirut), for example, a thousand Christian civilians were 
killed while the armed bands shouted ``Allahu Akbar'' and ``Jihad'' 
(Holy war slogans). Churches were burned down by dozens. An account of 
the horrors is too long to include in this testimony. Here are few 
examples of massacres:
    1975: Beit Mellat, Deir Eshash, Tall Abbas (north Lebanon), Damur 
(Mount Lebanon)
    1976: Chekka (north Lebanon), Qaa, Terbol (Bekaa valley)
    1977: Aishye (south Lebanon), Maaser el-Shuf (Shuf Mountain)
    1978: Ras Baalbeck, Shleefa (Bekaa valley)
    1983: Major massacres in Aley and the Shuf mountains. In addition 
to the 241 US Marines and 78 French paratroopers savagely assassinated 
by Hizbollah
    1984: Iqlim el-Kharrub (Mount Lebanon)
    1985: East Sidon (South Lebanon)
    1990: Matn district
III. The present state of harassment
    Since the so-called national reconciliation agreement of Taif was 
implemented by the Syrian army in 1990, Lebanon is under occupation and 
its Christian community under systematic oppression. Under this Syrian 
controlled regime, freedoms were eliminated.
    Here are some of the flagrant abuses of human rights against 
Christians around the country:
  <bullet> Constant and arbitrary arrests of young men and women. Armed 
        elements break into their homes by night and kidnap them to 
        ``security'' centers. The last campaign was during December 
        1996, when 450 young Christians were thrown in jail and beaten 
        for days. They spent Christmas alone in helplessness.
  <bullet> Christians are tried by military courts for ``forming 
        Christian associations,'' ``opposing Syria,'' or for allegedly 
        ``contacting Israelis or Jews.''
  <bullet> Christians are severely tortured in Lebanese or Syrian jails 
        or in detention centers by Hizbollah. Even the President of 
        Lebanon has recognized the existence of 210 detained in Syrian 
        jails. Our estimate indicates around 600.
     In the so-called ``security zone'' of south Lebanon Christians 
live under the fear of Hizbollah's terror, In 1996, Hizbollah issued a 
public religious fatwah (religious edict) calling for the murder of 
``all those who have been in contact with Jews.'' As we all know, there 
are thousands of Christians who work in the Galilee, inside Israel. All 
of these civilians will be put to death by the Iranian-backed 
organization if Israel withdraws. As of today, neither the Lebanese or 
the Syrian governments have issued a rebuttal to this Fatwah. We 
therefore, assume that Beirut and Damascus are endorsing the massacre 
of the Christians in south Lebanon by Hizbollah. Meanwhile, south 
Lebanon's villages are the target of snipers, bombs, kidnapping, and 
economic blockades.
IV. What to expect in the future
    Mr. Chairman, it is certain that my community in the security zone 
and Jezzine is under present and real danger. Christians are presently 
safe because of the presence of Israeli troops and the local defense 
force known as South Lebanon Army (SLA). However, in the case of an 
Israeli unilateral withdrawal from the area, and disbanding of the SLA, 
we expect a generalized massacre of Christians, an ethnic cleansing, 
and de-Christianization of south Lebanon. This potential holocaust of 
Christians will have a tremendous impact on the region's Christians. 
For Lebanon has always been the hope for Middle East Christianity.
V. Suggestions
    For the short term, I present the following suggestions aimed at 
saving the Christians of South Lebanon, as long as Hizbollah and the 
Syrian occupation forces are present and influential in that area.
    (1) That the US government formally asks the Israeli government not 
to withdraw from the security zone before a solution is found for the 
protection of the Christian community in south Lebanon.
    (2) That the US government help the Christians of south Lebanon to 
form a local authority which will enable them to face the 
administrative, economic, social, and security challenges.
    (3) That the US government extend a direct humanitarian support to 
the encircled Christian community in south Lebanon, and help them 
establish a safe haven until the regional problem is solved.
    (4) That the US Senate, and the US Congress extend invitations to 
the Maronite Patriarch of Lebanon, and other Christian leaders in south 
Lebanon and in exile, to testify about the fate of their community. 
Such a message can bring about the truth of persecution to the American 
people and allow Christians worldwide to extend their support to their 
brethren in faith in our tormented country.
     Thank you Mr. Chairman.

                               __________

               H. Prepared Statement of Esmaeil Ebrahimi

Conversion from Islam to Christianity:
    I was born into a strict Muslim family in Tehran. \1\ As a child, I 
fell into a well and almost died, but it seemed like a force was 
protecting me. At age fourteen, I felt there was a presence with me, 
like a guardian angel. Later I felt that God had a special plan for my 
life, and that I would bring God's truth to people. In my late teen 
years, God saved me from death when I almost froze during a mountain 
climbing excursion near Tehran. I served my two years of military 
service from 1983 to 1985, at the peak of the Iran-Iraq war and again 
God protected me.
---------------------------------------------------------------------------
    \1\ This English language statement is a translation of the 
original Persian language statement.
---------------------------------------------------------------------------
    In 1986, through the invitation of my brother, Ebrahim, who had 
previously converted from Islam to Christianity, I saw the movie Jesus 
of Nazareth. I immediately realized that in Jesus Christ I had found 
what I had been searching for. After a second viewing of the film, I 
clearly saw my sinfulness and how God had accepted and loved me with 
all my sins. In an evangelistic meeting at a park, a short time later, 
a man shared Christ with me and I prayed and received Christ into my 
life as Lord and Savior. Thus, in 1988, I made a decision to convert 
from Islam to Christianity and began attending the Emmanuel Evangelical 
Persian Church in north Tehran. I began sharing my new-found faith with 
other people. I was baptized by Rev. Sepehri in the Emmanuel Church, 
along with about 12 other people, in 1989. Soon my younger brother, 
Bahman, and my mother, Anis, also embraced Christianity.
Persecution in Iran Because of My Conversion from Islam to Christianity 
        and My Evangelistic Activities:
    Because I shared Christ with my clients at my tailor shop, Islamic 
Revolutionary Guards began to come to my store posing as clients. They 
were actually trying to obtain evidence about my conversion from Islam 
to Christianity to use against me. They warned me to stop sharing my 
Christian faith with others. I knew that I must obey Christ's command 
to share my faith, but I was now more careful. Nevertheless, on July 
13, 1990 two Revolutionary Guards came into my store and took me to the 
General Prosecutor's office. They blind-folded me and put me in 
solitary confinement without any information about their plans for me. 
The next day, Revolutionary Guards interrogated me about my Christian 
faith. They announced that I was to be executed for abandoning Islam. 
During this time, my family did not know of my whereabouts.
    Three days later, I was interrogated again, but this time in the 
Revolutionary Court Building. After more interrogations and about three 
months of imprisonment and much psychological and physical abuse, I was 
forced to sign a statement not to preach Christianity and was released 
in October, 1990. Later, I learned that my release was due the 
intervention of the late Bishop Haik Hovsepian-Mehr, then 
superintendent of the Assemblies of God Church and president of the 
Council of Protestant Churches in Iran, and to the upcoming visit to 
Iran of Mr. Galindo Pohl, the U.N. Special Representative of the 
Commission on Human Rights.
    Bishop Hovsepian-Mehr was killed by government agents in January 
1994 after he led an international campaign to free Rev. Mehdi Dibaj, 
an Iranian Muslim convert and evangelist, who had been imprisoned for 
nearly ten years and sentenced to be executed for ``apostasy''. Rev. 
Dibaj and Rev. Tatavous (Tateos) Mikaelian were killed by government 
agents in June 1994. Rev. Mikaelian took over the position of president 
of the Council of Protestant Churches in Iran after Bishop Hovsepian-
Mehr's death.
    I married my wife, also a convert from Islam to Christianity, in 
1991. When my wife converted to Christianity, her neighbors learned 
about it and began to persecute her by saying unkind things. One day a 
Revolutionary Guard came to her door and warned her that if she did not 
cut off her association with Christians, ``we will put a lead bullet 
into your empty head.'' She was frightened and didn't attend church for 
two or three weeks, then resumed going to church.
    When our son was born in 1992, we had difficulty in obtaining an 
Iranian identification booklet because we had given him a name which 
was not an approved Islamic name. However, after we produced our 
Christian marriage certificate, by God's help, we succeeded in 
registering him under his Christian name.
    After we were married, we lived and worked in Turkey with the 
Iranian Christian church. For two-and-a-half years after our return 
from Turkey we lived in Tehran in a basement in a state of fear. We 
were under surveillance and our phone was tapped. My business and 
inventory were confiscated by government authorities. After the killing 
of the three pastors in 1994, persecution of ordinary Muslim converts 
and Christians who evangelized Muslims increased. We feared that it 
would only be a matter of time before I would be arrested, imprisoned 
and charged again with abandoning Islam. My name and description had 
been given to all land border stations to prevent my exit from Iran. 
Therefore I was counseled not to leave Iran overland. We began to 
carefully plan our escape from Iran. When we learned that the Embassy 
of India in Tehran was giving visas to Iranians, we secretly obtained 
visas to India and purchased our plane tickets.
    Without saying goodbye to any of our friends and family or telling 
anyone of our plans, my wife and son and I flew to India in December 
1994. The government officials at Iran's Mehrabad airport did not 
search us or discover our official documents, including documents 
pertaining to my imprisonment.
Persecution of Other Family Members Because of Their Conversion From 
        Islam to Christianity and their Evangelistic Activities:
    Prior to 1986, my older brother, Ebrahim, had converted from Islam 
to Christianity. He received instruction from Transworld Radio in Monte 
Carlo, that broadcasts Persian Christian programs into Iran. He worked 
as an employee of the Iran Bible Society. After the government 
authorities closed the Iran Bible Society in 1990, Ebrahim served with 
Campus Crusade for Christ International, a U.S. based organization. He 
was imprisoned in Kermanshah in 1992 because of his conversion from 
Islam to Christianity and because of his evangelistic activities. 
Ebrahim and his wife fled Iran in 1994 and were accepted as refugees in 
Canada.
    My younger brother, Bahman, also a Muslim convert to Christianity, 
had to discontinue his graduate studies in Iran. Because of the 
persecution he received for his Christian faith, he fled Iran in 1994, 
and was accepted as a refugee in Canada.
    My mother had fled Iran to Canada several years earlier because of 
her conversion to Christianity.
Persecution in India by Iranian Government Agents:
    Seven months after our arrival in India, with the help of Iranian 
Christians International, Inc., a Colorado based organization who 
assists Iranian Christian refugees, my wife, son and I were recognized 
by the UNHCR in New Delhi as refugees. Because the UNHCR monthly 
stipend is so little, we were forced to live in a one room apartment 
without air conditioning in a poor and fanatically Muslim part of New 
Delhi. A number of Iranian government agents and embassy personnel 
lived near us, including embassy officials who lived in the apartment 
below us. Because I did not received any mail that had been sent to me 
since these officials moved into our building, I believe that they had 
asked the postman to deliver all of my mail, and perhaps the mail of 
other Iranian tenants, to them.
    Other Iranian and Afghan refugee Muslim converts to Christianity in 
New Delhi were severely persecuted by Iranian and Afghan government 
agents while I lived in India. There were several kidnaping attempts, 
severe beatings requiring hospitalization, attempts to run over the 
converts with motorcycles and automobiles, and death threats. The 
motorcycles and cars had Iran/Afghanistan embassy license plates. 
Although reports of these incidents were submitted to the U.S. 
Immigration and the UNHCR, the truth of these reports has not been 
accepted by the U.S. INS and the UNHCR.
Persecution in India by the U.S. Immigration and Naturalization 
        Service:
    After being recognized as a refugee by the UNHCR in July 1995, I 
immediately applied to the U.S. Immigration and Naturalization Service 
(INS) at the American Embassy in New Delhi. Although most U.S. INS 
interviews at refugee processing posts are scheduled within two months 
of filing, I was not interviewed until eight months later. I was told 
that since my mother lived in Canada, although I had a U.S. sponsor, I 
must apply to Canada, and not to the U.S. In May 1996, Iranian 
Christians International, Inc. contacted U.S. Congressman Frank Wolf 's 
office requesting his intervention for another Iranian Christian 
refugee and me. Congressman Wolf faxed a letter to the Honorable Frank 
G. Wisner, U.S. Ambassador to India, requesting detailed information 
why the other family and mine were rejected.
    A month later Mr. Johnson, U.S. INS officer, gave me a second 
interview. However, he was very hostile and abusive. Now I submit the 
description and content of my interview with the U.S. INS in New Delhi 
for your information.
June 6, 1996 Interview of Mr. Esmaeil Ebrahimi with Mr. Johnson, First 
        Officer U.S. INS, New Delhi, India:
    I went to the U.S. Embassy with my wife and son at 10:00 A.M., June 
6, 1996. At 10:30 A.M. Mr. Manouch (an employee of U.S. INS) took us to 
the U.S. INS section of the Embassy and the office of Mr. Johnson. My 
wife and son were directed to the next room and only I was allowed into 
Mr. Johnson's office.
    Mr. Johnson was standing in his office with a very angry expression 
on his face. After I sat down Mr. Johnson asked, ``Why didn't you apply 
to the Canadian Embassy?'' I thought he was referring to July 1995, 
when I first applied for immigration to the U.S., so I said, ``As soon 
as I was recognized as a refugee in July 1995 I applied to the U.S. 
INS,'' Mr. Johnson became angry and screamed, ``Didn't I tell you to 
apply at the Canadian Embassy?'' I responded, ``It is illegal to 
concurrently apply to two countries for resettlement as a refugee. I 
couldn't do that.'' Mr. Johnson shouted, ``How do you know it is 
illegal? Have you been in contact with an immigration officer?'' I 
replied, ``No, I asked the receptionist at the information desk.'' Mr. 
Johnson said, ``Who is a receptionist? You must have obtained that 
information from an officer.'' I responded, ``That is not the case as 
refugee applicants are not allowed inside [to obtain such information 
from an officer].'' Mr. Johnson angrily said, ``Who do you think you 
are that you are trying to teach me immigration law? When I ordered you 
to apply to Canada you should have done it. Who do you think you are? 
You are a nobody. You have no status. Who gave you the right to 
complain [about U.S. INS, New Delhi]?'' I said, ``I did not complain to 
any place.'' Before my response was translated Mr. Johnson said with 
anger, ``I am an independent person here. No one in America can write 
to me and tell me what to do. I can decide whom to accept and who to 
reject [as refugee]. No one is allowed to tell me what to do.'' (This 
statement was evidently in response to Congressman Wolf's letter to 
Ambassador Wisner.)
    He then looked at my file and asked the date of my baptism. I 
responded, ``1989.'' Mr. Johnson asked, ``Where were you baptized?'' I 
said, ``In Tehran, Iran.'' He asked, ``Why then the letter affirming 
your baptism is from a church in Germany?'' I responded, ``Rev. Sepehri 
[who wrote the affirmation letter] was formerly my pastor in Iran and 
the director of the Iran Bible Society. Due to danger to his life he 
fled from Iran to Germany. Rev. Sepehri baptized my wife and me in 
Tehran, Iran. We contacted him in Germany to receive affirmation of 
this fact.'' Mr. Johnson then asked for the original of the fax from 
Rev. Sepehri. I showed him a photocopy which I had laminated. In order 
to intimidate me, Mr. Johnson said the top part of my copy and what was 
in my file did not agree. I responded, ``It is as clear as the day for 
me that the two are the same.'' Mr. Johnson said, ``What if I contact 
Rev. Sepehri?'' I responded, ``It is a great idea. That is the best way 
to verify [the fact of my baptism].''
    Mr. Johnson seemed to relax a bit and thumbed through more of my 
documents in the file. Then he asked, ``Who is Ebrahim Ghaffari?'' I 
said, ``He and his wife are directors of ICI [Iranian Christians 
International].'' Mr. Johnson asked, ``Who is ICI?'' I explained about 
ICI's work.
    (Gap)
    Then Mr. Johnson asked, ``Why do you want to go to the U.S.? Why do 
you think you will be safe only in the U.S. while you are safe here in 
India where there is an Embassy of the Islamic Republic of Iran?'' I 
responded, ``India is not safe for Muslim converts to Christianity and 
evangelical Christians from Iran. Muslim fanatics have put us under 
pressure. I want to go to the U.S. to live and work in a safe 
country.'' Mr. Johnson said, ``There are Muslim fanatics in the U.S. 
also. You will not be safe there either.'' I responded, ``In the U.S. I 
will no longer be a refugee, but an immigrant and the police will 
protect me.'' Mr. Johnson said, ``The police in India will protect 
you.'' I responded, ``No, that is not so. Only UNHCR supports us, but 
even then it takes months to see an officer for an appointment. The 
Indian police protect those who pay a bribe.'' Mr. Johnson said, ``Do 
you think we in the U.S. hire the police to protect you on a daily 
basis?'' Then he added, ``How do you want to live [support yourselfl in 
the U.S.?'' I responded, ``First, I have a sponsor. Second, I will work 
and I have faith that I can support my family and myself.'' Mr. Johnson 
said, ``I was born in a Christian family myself. I am more of a 
Christian than you. You don't need to teach me about faith.'' Then he 
asked, ``There are many poor people in America and they have a strong 
faith, but are not able to support themselves. If you think you can get 
a job based on your faith then you are stupid. Do you know any skills/
jobs?'' I said, ``Yes, I am a tailor.'' Mr. Johnson stated with 
ridicule, ``I don't think you will be able to have an income as a 
tailor. It is not an important occupation.''
    Then he asked, ``If you had a chance, would you return to Iran?'' I 
said, ``Never.'' Mr. Johnson asked, ``Why do you think if you return to 
Iran you will be killed? You exited [left] Iran legally.'' I responded, 
``The Iranian Christian pastors who were killed in Iran in 1994 also 
had Iranian passports and had gone in and out of Iran repeatedly.'' Mr. 
Johnson asked, ``What is your source of support now?'' I said, ``I 
received a small allowance from the UN and a little that my mother sent 
until two months ago. She is no longer able to do so.'' At his point 
Mr. Johnson looked at his calendar and told me, ``Be here at 10:00 A.M. 
sharp on June 21, 1996 to receive our decision.''
    Mr. Johnson took no notes during the interview. Sometimes he was so 
angry that he would ask a question and not pause for my response. By 
the end of the interview he seemed calmer.
    My wife who was in the next room during the interview, had heard 
all the screaming and shouting in Mr. Johnson's office. When I saw her 
after the interview she was frightened, upset and crying.
     After the interview, we were accepted for resettlement in the U.S. 
as refugees. Following another tortuous process with the U.S. INS, and 
further intervention of Iranian Christians International, Inc., we 
arrived in the U.S. in December 1996, six months after we were accepted 
for resettlement and twenty-four months after our arrival in India. 
(The normal time period for processing to the U.S. after being accepted 
is two to four months.) Our second child was born less than a month 
after our arrival in the U.S. The doctor in New Delhi had told my wife 
not to travel during her third trimester of pregnancy. This information 
was given to the U.S. INS several times.
Conclusion:
    The adversarial attitude of the U.S. INS officials and inconsistent 
refugee processing has led to Iranian Christian refugees finding 
themselves between a rock and a hard place. They cannot go back to 
Iran, yet spend months or years in limbo living in hostile and 
impoverished conditions before being processed to the U.S. First a 
refugee must go through a long and difficult ordeal to obtain UNHCR 
refugee status and financial assistance and then go through another 
lengthy and arduous process with the U.S. INS to be accepted for 
resettlement as a refugee in the U.S. During the time I was going 
through this process, an Afghan refugee set herself afire because the 
UNHCR refused to provide adequate medical care for her family.
    Many of the refugees are financially destitute and cannot survive 
unnecessarily drawn-out appeals. The complete refugee processing 
procedures at the U.S. INS in New Delhi must be thoroughly investigated 
and changes made so that other Iranian Christian refugees currently 
stranded in India can be speedily processed to the U.S.; and so that 
other fleeing refugees in the future will not need to go through the 
severe hardship that my family and I faced.
    This Subcommittee must continue to pressure the Iranian government 
to discontinue its persecution, arrest, imprisonment, torture and 
killing of Iranian Christians; to re-open churches and the Iranian 
Bible Society, and allow Muslim converts to attend church, and pastors 
to preach in Persian, the language of 90% of Iranians; and to allow 
Iranian Christians to leave Iran. This Subcommittee must take the lead 
in applying international pressure.

                                <all>
</pre></body></html>
